No. __________
IN THE

Supreme Court of the United States

d
ROBERT ANDREWS ,

Petitioner,

—v.—

STATE

OF

NEW JERSEY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NEW JERSEY

PETITION FOR A WRIT OF CERTIORARI

Robert L. Tarver, Jr.
LAW OFFICES OF
ROBERT L. TARVER , JR .
66 South Main Street
Toms River, NJ 08757
Jeanne LoCicero
Alexander Shalom
AMERICAN CIVIL LIBERTIES
UNION OF NEW JERSEY
FOUNDATION
Post Office Box 32159
Newark, NJ 07102
Mark Rumold
Andrew Crocker
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109

Jennifer S. Granick
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
39 Drumm Street
San Francisco, CA 94114
(415) 343-0758
jgranick@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
Brett Max Kaufman
Jennesa Calvo-Friedman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

QUESTION PRESENTED
While investigating Petitioner Robert Andrews
for state criminal offenses, the prosecutor obtained a
court order requiring Petitioner to disclose his
passcodes to two iPhones. Respondent State of New
Jersey believes the passcodes will enable it to find
evidence that Petitioner committed a crime.
Petitioner refused to disclose his passwords, invoking
his Fifth Amendment privilege against selfincrimination. The Supreme Court of New Jersey held
that the Fifth Amendment privilege does not protect
Petitioner from being compelled to communicate his
memorized passcodes to the government, ruling that
the privilege was overcome because the passcodes’
existence, possession, and authentication were
“foregone conclusions.”
The Question Presented is:
Does the Self-Incrimination Clause of the Fifth
Amendment protect an individual from being
compelled to recall and truthfully disclose a
memorized passcode, where communicating the
passcode may lead to the discovery of incriminating
evidence to be used against him in a criminal
prosecution?

i

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on
the cover page.
RELATED PROCEEDINGS
State v. Andrews, Supreme Court of New Jersey, No.
A-72-18 (082209). Judgment entered August
10, 2020;
State v. Andrews, Superior Court of New Jersey
Appellate Division, No. A-0291-17T4.
Judgment entered November 15, 2018;
State v. Andrews, Superior Court of New Jersey Law
Division, Criminal Part, County of Essex,
Indictment No. 16-06-01781-I. Judgment
entered May 22, 2017.

ii

TABLE OF CONTENTS
QUESTION PRESENTED............................................ i
PARTIES TO THE PROCEEDINGS ................................ ii
RELATED PROCEEDINGS ................................................. ii
TABLE OF AUTHORITIES ................................................... v
OPINION BELOW .....................................................................1
STATEMENT OF JURISDICTION ...................................1
CONSTITUTIONAL PROVISION INVOLVED ...........1
INTRODUCTION .......................................................................1
STATEMENT OF THE CASE ..............................................4
REASONS FOR GRANTING THE WRIT .......................6
I.

II.

STATE SUPREME COURTS AND THE
FEDERAL COURTS OF APPEALS ARE
DIVIDED ON THE SCOPE OF THE FIFTH
AMENDMENT’S PROTECTIONS AGAINST
COMPELLED PASSWORD DISCLOSURE
AND USE ............................................................ 6
A.

State Supreme Courts Are Divided
Over Whether a “Foregone Conclusion”
Analysis Applies to the Compelled
Disclosure of a Password ............................ 7

B.

Federal Courts of Appeals and State
Supreme Courts Are Divided Over How to
Apply a “Foregone Conclusion” Inquiry to
Demands for the Disclosure or
Entry of Passwords ................................... 11

THIS CASE IS AN EXCELLENT VEHICLE
FOR THE COURT TO RESOLVE THESE
CONFLICTS ..................................................... 16
iii

III. THE QUESTION PRESENTED IS
IMPORTANT AND RECURRING ................... 18
IV. THE DECISION BELOW IS INCORRECT .... 22
A. The “Foregone Conclusion” Exception
Never Applies to Oral or Written
Testimony.................................................. 22
B. The Court Below Erroneously Extended
the “Foregone Conclusion” Analysis
Beyond its Limited, Original Context
Involving the Compelled Production of
Business Records ...................................... 26
C. The Court Should Overrule Fisher Because
the Fifth Amendment Privilege Against
Self-Incrimination Does Not Properly
Include a “Foregone Conclusion”
Exception ................................................... 29
CONCLUSION.......................................................... 31
Appendix A – State Supreme Court Opinion
(Aug. 10, 2020) ....................................................... 1a
Appendix B – State Supreme Court Order
Granting Leave to Appeal (May 3, 2019) ............ 76a
Appendix C – State Superior Court, Appellate
Division, Opinion (Nov. 15, 2018)........................ 77a
Appendix D – State Supreme Court Order
Remanding Appeal to Lower Court
(Sept. 11, 2017) .................................................... 98a
Appendix E – State Superior Court Opinion
(May 22, 2017) ...................................................... 99a
Appendix F – State Superior Court Order
(May 22, 2017) .................................................... 115a

iv

TABLE OF AUTHORITIES
CASES
Boyd v. United States,
116 U.S. 616 (1886) ............................................... 30
Braswell v. United States,
487 U.S. 99 (1988) ................................................. 28
Burt Hill, Inc. v. Hassan, No. CIV. A. 09-1285,
2010 WL 55715 (W.D. Pa. Jan. 4, 2010) ............... 28
Carpenter v. United States,
138 S. Ct. 2206 (2018) ............................... 19, 20, 30
Commonwealth v. Davis,
220 A.3d 534 (Pa. 2019) .................................passim
Commonwealth v. Gelfgatt,
11 N.E.3d 605 (Mass. 2014) ............................ 12, 13
Commonwealth v. Hughes,
404 N.E.2d 1239 (Mass. 1980) .............................. 28
Commonwealth v. Jones,
117 N.E.3d 702 (Mass. 2019) .......................... 13, 15
Couch v. United States,
409 U.S. 322 (1973) ......................................... 23, 25
Curcio v. United States,
354 U.S. 118 (1957) ................................................. 1
Doe v. United States,
487 U.S. 201 (1988) ............................. 10, 23, 25, 28
Fisher v. United States,
425 U.S. 391 (1976) ........................................passim
G.A.Q.L. v. State, No. 4D18-1811, 2018 WL 5291918
(Fla. Dist. Ct. App. Oct. 24, 2018) ........................ 12

v

Goldsmith v. Superior Court,
199 Cal. Rptr. 366 (Ct. App. 1984) ....................... 29
Hoffman v. United States,
341 U.S. 479 (1951) ............................................... 24
In re Boucher, No. 2:06-MJ-91,
2009 WL 424718 (D. Vt. Feb. 19, 2009)................ 15
In re Grand Jury Subpoenas Served Feb. 27, 1984,
599 F. Supp. 1006 (E.D. Wash. 1984) ................... 28
Ohio v. Reiner,
532 U.S. 17 (2001) ................................................. 22
Pennsylvania v. Muniz,
496 U.S. 582 (1990) ........................................passim
Pollard v. State,
287 So. 3d 649 (Fla. Dist. Ct. App. 2019) ............. 12
Pollard v. State, No. 1D18-4572, 2019 WL 2528776
(Fla. Dist. Ct. App. June 20, 2019) ....................... 13
Riley v. California,
573 U.S. 373 (2014) ................................... 19, 20, 21
SEC v. Huang, No. 15-cv-269,
2015 WL 5611644 (E.D. Pa. Sept. 23, 2015) ........ 15
Seo v. State,
148 N.E.3d 952 (Ind. 2020) ............................passim
Shapiro v. United States,
335 U.S. 1 (1948) ................................................... 28
State v. Dennis,
558 P.2d 297 (Wash. 1976) ................................... 29
State v. Pittman,
452 P.3d 1011 (Or. 2019) ...................................... 13
State v. Stahl,
206 So. 3d 124 (Fla. Dist. Ct. App. 2016) ....... 12, 17
vi

United States v. Apple MacPro Computer,
851 F.3d 238 (3d Cir. 2017)....................... 12, 14, 17
United States v. Bell,
217 F.R.D. 335 (M.D. Pa. 2003) ............................ 28
United States v. Bright,
596 F.3d 683 (9th Cir. 2010) ................................. 28
United States v. Doe,
465 U.S. 605 (1984) ............................... 3, 10, 14, 27
United States v. Doe (In re Grand Jury Subpoena
Duces Tecum dated March 25, 2011),
670 F.3d 1335 (11th Cir. 2012) ........... 12, 13, 14, 17
United States v. Gippetti,
153 F. App’x 865 (3d Cir. 2005) ........................... 28
United States v. Green,
272 F.3d 748 (5th Cir. 2001) ................................. 28
United States v. Hubbell,
530 U.S. 27 (2000) ..........................................passim
United States v. Jimenez,
419 F. Supp. 3d 232 (D. Mass. 2020) .................... 18
United States v. Sideman & Bancroft, LLP,
704 F.3d 1197 (9th Cir. 2013) ............................... 28
United States v. Spencer, No. 17-CR-00259-CRB-1,
2018 WL 1964588 (N.D. Cal. Apr. 26, 2018) .. 15, 18
CONSTITUTION
U.S. Const. Amend. V ........................................passim
OTHER AUTHORITIES
A. Smith, Pew Res. Ctr., Smartphone Ownership—
2013 Update (June 5, 2013) .................................. 20

vii

Br. of Amici Curiae States of Utah et al.,
Commonwealth of Pennsylvania v. Davis,
No. 19-1254 (U.S. May 26, 2020) ...................... 4, 19
Cong. Res. Serv., Catch Me If You Scan:
Constitutionality of Compelled Decryption Divides
the Courts (Mar. 6, 2020) ...................................... 12
Laurent Sacharoff, What am I Really Saying When I
Open My Smartphone? A Response to Orin S. Kerr,
97 Tex. L. Rev. Online 62 (2019) .......................... 18
Logan Koepke, et al., Mass Extraction: The
Widespread Power of U.S. Law Enforcement to
Search Mobile Phones, Upturn (Oct. 2020) ... 19, 21
Orin Kerr, Compelled Decryption and the Privilege
Against Self-Incrimination,
97 Tex. L. Rev. 767 (2019)..................................... 18
Orin S. Kerr, The Law of Compelled Decryption Is a
Mess: A Dialogue—Why the Supreme Court Needs
to Step In, Volokh Conspiracy (Aug. 10, 2020),
https://reason.com/volokh/2020/08/10/the-law-of
compelled-decryption-is-a-mess-a-dialogue ..... 3, 12
Pew Res. Ctr., Mobile Fact Sheet (June 12, 2019),
http://www.pewinternet.org/fact-sheet/mobile/ .... 20
Sarah Perez, Top Mobile Apps See Declines in
Consumer Engagement Amid Increased
Competition, TechCrunch (July 27, 2020),
https://techcrunch.com/2020/07/27/top-mobileapps-see-declines-in-consumer-engagement-amidincreased-competition ........................................... 21
Sujeong Lim, Average Storage Capacity in
Smartphones to Cross 80GB by End-2019,
Counterpoint (Mar. 16, 2019),
https://www.counterpointresearch.com/
viii

average-storage-capacity-smartphones-cross-80gbend-2019 ................................................................ 20

ix

OPINION BELOW
The opinion of the Supreme Court of New
Jersey is published at 234 A.3d 1254 (N.J. 2020), and
is reprinted at App. 1a. The opinion of the Superior
Court of New Jersey Appellate Division is published
at 197 A.3d 200 (N.J. Super. Ct. App. Div. 2019) and
is reprinted at App. 77a. The opinion of the Superior
Court of New Jersey, Criminal Division, Essex County
is unpublished and is reprinted at App. 99a.
STATEMENT OF JURISDICTION
The decision of the Supreme Court of New
Jersey was issued on August 10, 2020. App. 1a. The
jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a).
CONSTITUTIONAL PROVISION INVOLVED
“No person . . . shall be compelled in any
criminal case to be a witness against himself.”
U.S. Const. Amend. V.
INTRODUCTION
This case involves a demand that Petitioner
provide pure testimony of a potentially incriminating
nature despite his invocation of his Fifth Amendment
rights. The order at issue would require Mr. Andrews
to communicate his memorized passcodes to the
prosecutor. The Supreme Court of New Jersey, in a 4–
3 decision, held that the Fifth Amendment privilege
against self-incrimination does not shield an
individual from being compelled to communicate one’s
passcodes—the very “contents of [the] mind” that the
self-incrimination privilege protects. Curcio v. United
States, 354 U.S. 118, 128 (1957). The court reasoned
1

that the passcodes were of “minimal testimonial
value,” and that they could therefore be compelled
because
their
existence,
possession,
and
authentication were “foregone conclusions.”
That decision squarely conflicts with the
decision of the Pennsylvania Supreme Court in
Commonwealth v. Davis, 220 A.3d 534 (Pa. 2019), cert
denied, No. 19-1254, 2020 WL 5882240 (2020). Davis
held, on indistinguishable facts, that an individual
could not be compelled to disclose a passcode. Id. at
550.
The Davis and Andrews courts divided over
whether the “foregone conclusion” exception can ever
apply to an order that an individual disclose his
passwords where they would lead to incriminating
evidence. On similar facts, the Indiana Supreme
Court recently indicated its agreement with Davis.
See Seo v. State, 148 N.E.3d 952, 958 (Ind. 2020). Only
this Court can resolve that split.
The decision below is inconsistent with a long
line of this Court’s precedents, all of which prohibit
the government from compelling a person to answer a
question whose answer could be incriminating or lead
to the discovery of incriminating evidence. Those
precedents recognize no distinction between
compelling someone to provide his birthdate,
Pennsylvania v. Muniz, 496 U.S. 582, 598–99 (1990),
“the combination to a wall safe,” United States v.
Hubbell, 530 U.S. 27, 43 (2000), or the password to his
phone or computer. As long as the answer might lead
to incriminating evidence, it is protected.
This Court has never applied the “foregone
conclusion” exception to pure testimony, or even to an
“act of production” beyond the specific context in
2

which it was first applied—a subpoena for preexisting,
physical business documents. Fisher v. United States,
425 U.S. 391 (1976); see also Hubbell, 530 U.S. at 44
(declining to find “foregone conclusion”); United States
v. Doe (“Doe I”), 465 U.S. 605, 614 n.13 (1984)
(government did not meet “foregone conclusion”
showing). Extending that reasoning to the compulsion
of direct answers would dramatically disturb settled
Fifth Amendment protections. The police cannot
require a suspect to answer “do you own the murder
weapon?” by contending that the answer is a “foregone
conclusion”—even if it has unimpeachable evidence
that the answer must be “yes.” No different rule
applies here.
The decision below also implicates a second,
interrelated split over how the “foregone conclusion”
exception should apply to compelled disclosure or
entry of a passcode, if it applies at all. Some courts,
like the court below, have ruled that the government
need only show that the password itself exists and
that the suspect knows it. Others have ruled that the
government must show that it knows of the existence,
ownership, possession, and authenticity of the files on
the locked device that it seeks. Indeed, in the wake of
the New Jersey Supreme Court’s opinion in this case,
one close observer of the issue admitted that he is
simply “unable to say what the law is.” Orin S. Kerr,
The Law of Compelled Decryption Is a Mess: A
Dialogue—Why the Supreme Court Needs to Step In,
Volokh
Conspiracy
(Aug.
10,
2020),
https://reason.com/volokh/2020/08/10/the-law-of
compelled-decryption-is-a-mess-a-dialogue.
Again,
only this Court can resolve this important and
increasingly common issue.

3

The question is indisputably important. Just
last year, New Jersey itself, along with 21 other
states, urged this Court to grant certiorari to decide
this very issue. See Br. of Amici Curiae States of Utah
et al. at 1, Commonwealth of Pennsylvania v. Davis,
No. 19-1254 (U.S. May 26, 2020) (hereinafter “Br. of
Amici Curiae States of Utah et al.”) (“As the top law
enforcement officials of their respective jurisdictions,
amici State Attorneys General have a strong interest
in getting clarity on the important Fifth Amendment
question here. Its answer could affect almost every
criminal case.”).
For these reasons, the writ should be granted.
STATEMENT OF THE CASE
During a narcotics investigation in May and
June of 2015, the Essex County Prosecutor’s Office
obtained information that Petitioner Andrews, a law
enforcement
officer,
was
allegedly
passing
confidential information about the investigation to the
subject of the investigation. Internal affairs
investigators seized two of Petitioner’s phones, but
Petitioner did not consent to a search nor unlock the
phones. New Jersey asserts that it is unable to obtain
the data stored on the phones.
In June 2016, an Essex County grand jury
returned a six-count indictment charging Petitioner
with the crimes of second-degree official misconduct;
third-degree hindering of the apprehension or
prosecution of another person; and fourth-degree
obstruction of the administration of the law or
government function.
In January 2017, the State moved for a
discovery order compelling Petitioner to disclose the
4

passcodes to his iPhones. Petitioner opposed the
motion, arguing that compelling him to disclose the
passcodes would violate his Fifth Amendment right
against self-incrimination as well as privileges under
New Jersey law. On May 22, 2017, the trial court
granted the State’s motion for discovery. App. 115a.
The trial court held that providing the passcode was
“not a testimonial act where the Fifth Amendment or
New Jersey . . . law affords protection.” App. 111a. It
further held that “any testimonial act contained in the
act of providing the . . . passcode is a foregone
conclusion because the State has established with
reasonable particularity that it already knows that (1)
the evidence sought exists, (2) the evidence was in the
possession of the accused, and (3) the evidence is
authentic.” Id.
The Appellate Division of the Superior Court
affirmed. App. 77a. It reasoned that the “act of
producing the passcodes has testimonial aspects,” but
that “by producing the passcodes, [Petitioner] is not
implicitly conveying any information the State does
not already possess.” App. 88a.
On August 10, 2020, in a 4–3 decision, the New
Jersey Supreme Court affirmed. The majority
acknowledged that being compelled to provide a
password, like the combination to a safe, requires the
disclosure of “facts contained within the holder’s
mind,” and is therefore “testimonial.” App. 31a. But
relying on Fisher, the court reasoned that because a
password consists of a series of characters or numbers,
the password itself is of “minimal testimonial value,”
and therefore “its testimonial value and constitutional
protection may be overcome if the passcodes’
existence, possession, and authentication are foregone
conclusions.” App. 34a. The court found that the State
5

had met that burden because it knew the iPhones
belonged to Mr. Andrews. Id.1
Three justices dissented. They reasoned that
the “foregone conclusion” exception should not be
extended to demands that an individual disclose a
password to the State. The dissent would instead
“adhere to the [U.S. Supreme] Court’s bright line: the
contents of one’s mind are not available for use by the
government in its effort to prosecute an individual.”
App. 62a (LaVecchia, J., dissenting). It reasoned that
“there is no real difference between forcing one to
divulge the mentally stored combination of a safe—
the very example that the Supreme Court has used,
more than once, as a step too far in ordering a
defendant to assist in his or her own prosecution—and
forcing one to divulge the passcode to a smartphone.”
Id. at 45a. Therefore, the dissent would have declined
to apply the “foregone conclusion” exception, and
would have recognized that the Fifth Amendment
privilege against compelled self-incrimination applies.
REASONS FOR GRANTING THE WRIT
I.

STATE SUPREME COURTS AND THE
FEDERAL COURTS OF APPEALS ARE
DIVIDED ON THE SCOPE OF THE FIFTH
AMENDMENT’S PROTECTIONS AGAINST
COMPELLED PASSWORD DISCLOSURE
AND USE.

The decision below conflicts with decisions of
the federal courts of appeals and state supreme courts
in two ways. First, the courts are divided over whether
The court also rejected Petitioner’s state law claims. App. 34a–
40a.
1

6

the government can compel pure testimony—the
disclosure of a passcode—by contending that some
aspects of the information it thereby receives are a
“foregone conclusion.” In holding that it may, the New
Jersey Supreme Court reached precisely the opposite
conclusion from that reached by the Supreme Court of
Pennsylvania in Davis, which held that the “foregone
conclusion” exception does not apply to pure
testimony.
Second, even where courts have conducted a
“foregone conclusion” inquiry—generally in the
context of orders to enter a password directly into a
digital device—courts are deeply divided over how the
inquiry applies and, in particular, which facts must be
a “foregone conclusion” to overcome the privilege. The
court below held that the government must merely be
able to demonstrate the existence of a passcode and
ownership of the phone. Other courts have concluded
that the government must demonstrate knowledge
about the contents of the files it seeks that are stored on
the device.
A.

State Supreme Courts Are Divided Over
Whether
a
“Foregone
Conclusion”
Analysis Applies to the Compelled
Disclosure of a Password.

This case involves a demand for pure testimony.
The order at issue requires Mr. Andrews to honestly
communicate, from his internal thoughts, his
memorized passcodes. App. 115a (trial court directing
Mr. Andrews to provide “discovery of [his] iPhone
PINs and passcodes” to the State). The Supreme Court
of New Jersey held that the Fifth Amendment
privilege against self-incrimination does not protect
Mr. Andrews from this compulsion, even though it
7

requires him to disclose the contents of his mind and
could provide a link in a chain to incriminating
evidence. The court acknowledged that answering the
question would be testimonial, but deemed it of
“minimal testimonial value.” App. 33a. It therefore
treated the trial court order as requiring an “act of
production,” rather than pure testimony, and applied
the “foregone conclusion” exception.
On the same facts, the Pennsylvania Supreme
Court reached the opposite conclusion. In Davis, the
court reasoned that because complying with an order
to disclose his password would require the defendant
to make a verbal statement revealing the contents of
his mind, like providing the combination to a wall
safe, the compelled disclosure was testimonial. 220
A.3d at 548. But unlike Andrews, the Pennsylvania
Supreme Court held that the “foregone conclusion”
analysis does not apply to a demand that a witness
communicate the contents of his mind. Id. at 549. The
court reasoned that the “foregone conclusion”
rationale “constitutes an extremely limited exception
to the Fifth Amendment privilege against selfincrimination,” applicable only to subpoenas for
business records. Id. It declined to apply the exception
to pure testimony, which would extend it into “areas
of compulsion of one’s mental processes.” Id.2
The Andrews decision was a 4–3 split. The
Davis court split 4–3 in the other direction. Thus,
In a footnote, the Davis court reasoned in the alternative that,
if the “foregone conclusion” rationale were to apply, the State
would have to show that it knew not merely information related
to the passcode itself, but also of the existence, possession, and
authenticity of the documents on the computer whose password
it sought. 220 A.3d at 551 n.9.
2

8

between New Jersey and Pennsylvania, seven state
supreme court justices have concluded that the Fifth
Amendment allows the government to force an
individual to disclose her passwords over a claim of
privilege, and seven have concluded that it does not.
Yet under these decisions, the privilege applies fully
in Pennsylvania, but not across the border in New
Jersey.
The Indiana Supreme Court has indicated that
it would line up with Pennsylvania and against New
Jersey on the question of whether the “foregone
conclusion” exception should apply to compelled
disclosure or entry of passwords. In Seo, a case
involving compelled entry of a passcode to unlock a
smartphone, the court held that even if the “foregone
conclusion” exception were applicable, the State had
failed to make the necessary showing. 148 N.E.3d at
957–58. But it also recognized that “[e]xtending the
foregone conclusion exception to the compelled
production of an unlocked smartphone” would be error
because “such an expansion (1) fails to account for the
unique ubiquity and capacity of smartphones; (2) may
prove unworkable; and (3) runs counter to U.S.
Supreme Court precedent.” Id. at 958–59.
The decision below also conflicts with Supreme
Court precedent, which has never applied the socalled “foregone conclusion” doctrine to pure
testimony. In Fisher, this Court held that even if
business documents themselves are not covered by the
Fifth Amendment (because their creation was not
compelled), the act of surrendering them pursuant to
subpoena may have implicit testimonial aspects, as it
communicates the existence, possession, and
authenticity of the documents, and to that extent may
receive Fifth Amendment protection. 425 U.S. at 410.
9

However, the Court found that under the particular
facts of that case, the testimonial aspects of the “act of
production” were already known to the government—
and were therefore a “foregone conclusion.” As a
result, the self-incrimination privilege did not bar
production of the documents. Id. at 413. Since Fisher,
the Court has never again relied on the “foregone
conclusion” to overcome a privilege claim. See Doe I,
465 U.S. at 608, 612–14 (where producing subpoenaed
documents would admit their existence and
authenticity, Fifth Amendment privilege applies);
Hubbell, 530 U.S. 27, 44–45 (2000) (privilege applies
where production would communicate existence and
location of documents).
Relying on Fisher, the Andrews court extended
the “foregone conclusion” rationale to a demand for
pure testimony. It regarded the passcode as having
“minimal testimonial value,” and therefore treated
recitation of the passcodes as an “act of production”
subject to the “foregone conclusion” exception. App.
33a. Deeming that “the passcodes’ existence,
possession, and authentication are foregone
conclusions,” it held that the defendant must comply
with the order. App. 34a.
In reaching the opposite conclusion on
indistinguishable facts, the Pennsylvania Supreme
Court in Davis explained that this Court has been
clear that, outside of voice exemplars, compelled oral
statements are testimonial and protected by the
privilege, as they require the disclosure of the
contents of one’s mind and place the individual in the
“cruel trilemma” of “telling the truth, lying and
perjuring himself, or refusing to answer and facing
contempt and jail.” 220 A.3d at 547 (citing Muniz, 496
U.S. 582, and Doe v. United States (“Doe II”), 487 U.S.
10

201 (1988)). The Pennsylvania court refused to extend
the “foregone conclusion” rationale beyond “acts of
production,” to a compulsion of pure testimony.
Accordingly, there is a direct split between the
New Jersey and Pennsylvania supreme courts on
whether the “foregone conclusion” exception applies at
all to orders to disclose a passcode, with the Supreme
Court of Indiana strongly siding with Pennsylvania.
Only this Court can resolve this split.
B.

Federal Courts of Appeals and State
Supreme Courts Are Divided Over How to
Apply a “Foregone Conclusion” Inquiry to
Demands for the Disclosure or Entry of
Passwords.

The decision below also implicates a second,
closely related split, as to how the “foregone
conclusion” exception should apply, if it applies at all.
Those courts that have deemed a “foregone
conclusion” inquiry appropriate are deeply split on
what the government must show to meet the “foregone
conclusion” exception. As the court below explained,
many [courts] have considered whether
the exception applies to compelled
decryption or to the compelled
production of passcodes and passwords,
reaching divergent results. Among other
causes for that divergence is a dispute
over how to adapt the foregone
conclusion analysis from the documentproduction context . . . Some courts to
consider the issue have focused on the
production of the passcode as a means to
access the contents of the device, treating
the contents of the devices as the
11

functional equivalent of the contents of
documents at issue in the . . . Supreme
Court cases.
App. 22a.
Other courts and commentators have also
noted the confusion. See, e.g., Davis, 220 A.3d at 553
(Baer, J., dissenting) (noting that judges “across the
nation have struggled” with the issue); Pollard v.
State, 287 So. 3d 649, 652 (Fla. Dist. Ct. App. 2019)
(“Courts nationwide are struggling to find common
legal ground on the constitutionality of compelled
password production under the Fifth Amendment and
its application in specific cases.”); see also, e.g., Cong.
Res. Serv., Catch Me If You Scan: Constitutionality of
Compelled Decryption Divides the Courts (Mar. 6,
2020), at https://crsreports.congress.gov/product/pdf/
LSB/LSB10416; Kerr, The Law of Compelled
Decryption is a Mess, supra.
Some courts, like the New Jersey Supreme
Court here, have held that it is sufficient for the
government to demonstrate merely that it knows that
the password itself exists and that the suspect knows
it.3 Others, however, have concluded that the
government must demonstrate that it knows of the
existence, possession, and authenticity of the files on
the encrypted device.4
See, e.g., Commonwealth v. Gelfgatt, 11 N.E.3d 605 (Mass.
2014); State v. Stahl, 206 So. 3d 124, 136 (Fla. Dist. Ct. App.
2016).
3

See, e.g., United States v. Doe (In re Grand Jury Subpoena
Duces Tecum dated March 25, 2011), 670 F.3d 1335, 1346 (11th
Cir. 2012); United States v. Apple MacPro Computer, 851 F.3d
238 (3d Cir. 2017); Seo, 148 N.E.3d at 957; G.A.Q.L. v. State, No.
4D18-1811, 2018 WL 5291918 (Fla. Dist. Ct. App. Oct. 24, 2018);
4

12

The Supreme Judicial Court of Massachusetts,
for example, has sided with the New Jersey Supreme
Court, focusing only on the password itself. In
Commonwealth v. Gelfgatt, 11 N.E.3d 605 (Mass.
2014), the court concluded that under the state’s
analogue to the Fifth Amendment, the compelled
entry of a passcode was testimonial, but that it could
be overcome if the government showed that the
suspect owned and controlled the computers and their
contents. Id. at 615; see Commonwealth v. Jones, 117
N.E.3d 702, 710 (Mass. 2019) (discussing its holding
in Gelfgatt) (“[T]he only fact conveyed by compelling a
defendant to enter the password to an encrypted
electronic device is that the defendant knows the
password, and can therefore access the device.”). The
court explained that the government’s knowledge
concerning “the actual files and documents that are
located on the defendant’s computers” was irrelevant
under the “foregone conclusion” exception. 11 N.E.3d
at 614 n.13.5
By contrast, the Eleventh Circuit, the Third
Circuit, and the Indiana Supreme Court have split
with New Jersey and Massachusetts, concluding that,
if the “foregone conclusion” exception applies, it must
be directed to the files on the computer sought to be
examined, not merely to the existence and ownership
of the password itself. In In re Grand Jury Subpoena
Duces Tecum Dated March 25, 2011, 670 F.3d 1335
Pollard v. State, No. 1D18-4572, 2019 WL 2528776 (Fla. Dist. Ct.
App. June 20, 2019).
See also State v. Pittman, 452 P.3d 1011, 1014 (Or. 2019)
(appeal pending) (state must prove that defendant’s knowledge
of the passcode, not the contents of the iPhone, was a “foregone
conclusion”).
5

13

(11th Cir. 2012), the government subpoenaed a
suspect to produce the unencrypted contents of
encrypted hard drives. The court acknowledged that
“the decryption and production of the hard drives
would require the use of the contents of Doe’s mind
and could not be fairly characterized as a physical act
that would be nontestimonial in nature.” Id. at 1346.
It then held that the “foregone conclusion” exception
could apply to the compelled decryption of files, but
that the government had not made the requisite
showing because “[n]othing in the record before us
reveals that the Government knows whether any files
exist and are located on the hard drives.” Id. at 1346;
id. at 1348 (Fisher and Hubbell “require that the
Government show its knowledge that the files exist.”).
The court also noted that the government had not
shown it knew “that Doe is even capable of accessing
the encrypted portions of the drives.” Id. at 1346.
In United States v. Apple MacPro Computer,
851 F.3d 238 (3d Cir. 2017), the Third Circuit upheld
a magistrate order requiring the defendant to produce
his seized electronic devices in a fully unencrypted
state, which would require him to recall and use his
password. 851 F.3d at 246. The court reasoned that
the testimonial aspects of the act of production were a
“foregone conclusion,” because “the Government has
provided evidence to show both that [contraband] files
exist on the encrypted portions of the devices and that
Doe can access them.” Id. at 248.
Similarly, in Seo, the Indiana Supreme Court
held that—if the “foregone conclusion” exception
applied to compelled entry of passcodes—it applied to
the files sought and not simply to the passcodes. 148
N.E.3d at 957–58. The court explained that “Fisher,
Doe I, and Hubbell establish that the act of producing
14

documents implicitly communicates that the
documents can be physically produced, exist, are in
the suspect's possession, and are authentic,” and
“further confirm[] that the foregone conclusion
exception must consider these broad communicative
aspects.” Id. at 957. On the facts before it, the court
concluded that the state had not met the requirements
to invoke the exception because it had “failed to
demonstrate that any particular files on the device
exist or that [the defendant] possessed those files.” Id.
at 958.6
The courts, in short, are split both on whether
the “foregone conclusion” exception ought to apply,
and as to how the exception applies where it does. The
decision below presents both aspects of the question,
and conflicts with other state supreme courts and
federal courts of appeals on both issues.7

See also SEC v. Huang, No. 15-cv-269, 2015 WL 5611644, at *3
(E.D. Pa. Sept. 23, 2015) (requiring government to show that
documents sought are actually located on the smartphones); In
re Boucher, No. 2:06-MJ-91, 2009 WL 424718, at *3 (D. Vt. Feb.
19, 2009) (requiring government to demonstrate knowledge of
the existence and location of subpoenaed documents).
6

Courts are also split on the government’s burden of proof when
showing that testimony is a “foregone conclusion.” Compare
Jones, 117 N.E.3d at 555 (requiring proof of “foregone conclusion”
beyond a reasonable doubt) with United States v. Spencer, No.
17-CR-00259-CRB-1, 2018 WL 1964588, at *3 (N.D. Cal. Apr. 26,
2018) (requiring proof of “foregone conclusion” by clear and
convincing evidence).
7

15

II.

THIS CASE IS AN EXCELLENT VEHICLE
FOR THE COURT TO RESOLVE THESE
CONFLICTS.

As noted above, the decision below conflicts
with other state supreme courts and federal courts of
appeals on two related questions: whether the
“foregone conclusion” rationale applies at all to the
compulsion of pure testimony, and if so, whether it
requires knowledge related to the password, or to the
files. The court below decided each issue on the merits,
and there are no obstacles to addressing them here.
The case thus provides an ideal vehicle to address
both issues.
First, Mr. Andrews asserted his privilege from
the outset, and all lower courts addressed the claim in
full. And as the case arises pre-trial, there are no
“harmless error” issues. There is therefore no
procedural barrier to reaching the issue.
Second, the court below squarely addressed and
resolved both issues. It held first that the “foregone
conclusion” exception applies, conflicting with Davis.
Further, it held that the government need only show
that the password’s existence and ownership were
“foregone conclusions,” and not the files on the device,
thus conflicting with several courts of appeals.
If the Court resolves the first question in
Petitioner’s favor, and holds the “foregone conclusion”
exception inapplicable to pure testimony, it may not
need to reach the second. But if it rules against
Petitioner on the first issue, it will then need to
resolve what the government must show to satisfy the
exception in this setting.
Moreover, compelled password-disclosure cases
typically arise in two different factual scenarios, and
16

this case would allow the Court to address the
significance, if any, of that difference. Some cases, like
this one, involve an order compelling a suspect to
communicate a passcode—either orally or in writing—
to the government. See, e.g., Davis, 220 A.3d at 539
(order requiring Davis to “supply the Commonwealth
with any passwords used to access the computer”);
State v. Stahl, 206 So. 3d 124, 128 (Fla. Dist. Ct. App.
2016) (order to “give officers the passcode”).
Other cases involve orders compelling a suspect
to enter a passcode directly into a device, rather than
communicate it directly to the state or the court. See,
e.g., Apple MacPro Computer, 851 F.3d at 243 (order
requiring Doe to “produce his iPhone 6 Plus, his Mac
Pro computer, and his two attached external hard
drives in a fully unencrypted state”); In re Grand Jury
Subpoena, 670 F.3d at 1337 (same); Seo, 148 N.E.3d
at 954 (same).
The court below treated these two scenarios as
indistinguishable. The court stated that both
“[c]ommunicating or entering a passcode requires
facts contained within the holder’s mind,” App. 31a
(emphasis added), and treated both as “act of
production” cases. It concluded that the “foregone
conclusion” exception applied, meaning that direct
disclosure—or, by the same logic, entry—of the
passcode could be compelled. See App. 35a; see also id.
at 20a. (LaVecchia, J., dissenting) (“The government
should not be permitted to force defendant to
cooperate in his own prosecution by obtaining,
through his entry of passcodes, access to information
the government believes will be incriminating.”
(emphasis added)).

17

Whether the difference between disclosing the
passcode and entering it into the device is material to
the Fifth Amendment has generated confusion and
disagreement among courts and commentators alike.
Compare United States v. Jimenez, 419 F. Supp. 3d
232, 233 (Mem.) (D. Mass. 2020) (“Whether the
defendant is forced to reveal his passcode or unlock
the phone . . . does not impact the analysis; both
situations would force defendant to ‘disclose the
contents of his own mind.’”), with United States v.
Spencer, No. 17-CR-00259-CRB-1, 2018 WL 1964588,
at *2 (N.D. Cal. Apr. 26, 2018) (“[T]he government
could not compel Spencer to state the password itself,
whether orally or in writing. But the government is
not seeking the actual passcode. Rather, it seeks the
decrypted devices.”); Orin Kerr, Compelled Decryption
and the Privilege Against Self-Incrimination, 97 Tex.
L. Rev. 767, 769–70 (2019) (entry communicates only
knowledge of the password); Laurent Sacharoff, What
am I Really Saying When I Open My Smartphone? A
Response to Orin S. Kerr, 97 Tex. L. Rev. Online 62,
68–9 (2019) (entry communicates possession and
likely knowledge of device’s contents).
This case provides an excellent opportunity for
the Court to shed much needed light on these
important questions and to provide guidance to lower
courts on the Fifth Amendment’s application in these
increasingly common contexts.
III.

THE
QUESTION
PRESENTED
IMPORTANT AND RECURRING.

IS

The question presented is indisputably
important. Cell phones and other digital devices play
an increasingly central part in Americans’ private
lives, and routinely hold an unprecedented amount of
18

private information about each of us. And government
efforts to discover the contents of encrypted devices
are a frequent part of modern-day law enforcement.
As the Indiana Supreme Court put it, “[s]martphones
are everywhere and contain everything.” Seo, 148
N.E.3d at 959. Because most phones are protected
with a passcode, and they are “the most frequently
used and most important digital source for
investigation,” the issue recurs frequently.8
Just last year, New Jersey and 21 other states
urged this Court to grant certiorari to decide this very
issue, stating that its resolution “could affect almost
every criminal case.” See Br. of Amici Curiae States of
Utah et al. at 1. At that time, there was no split on the
issue of compelling the direct disclosure of a passcode,
and this Court denied review. But as shown above,
Point I, supra, the split is now clear, and calls for this
Court’s resolution of what both sides agree is an
important question. Twice in recent terms, this Court
has recognized that the widespread adoption of cell
phones has brought about a fundamental shift in the
amount and type of personal information that is
vulnerable to search by law enforcement. Riley v.
California, 573 U.S. 373 (2014); Carpenter v. United
States, 138 S. Ct. 2206 (2018). Because cell phones can
store vast quantities of personal information—
managed and compiled by applications designed “for
every conceivable hobby or pastime”—they frequently
contain the “sum of an individual’s private life.” Riley,
Logan Koepke, et al., Mass Extraction: The Widespread Power
of U.S. Law Enforcement to Search Mobile Phones 7, Upturn
(Oct. 2020), https://www.upturn.org/static/reports/2020/massextraction/files/Upturn%20-%20Mass%20Extraction.pdf
(quoting Cellebrite Annual Industry Trend Survey 2019: Law
Enforcement, at 3).
8

19

573 U.S. at 396, 394. They record our most intimate
communications, thoughts, and interests, recording
what we read, view, and listen to; who we call, text, or
email; our whereabouts and travel; and even data
about our health and fitness. These devices are “‘such
a pervasive and insistent part of daily life’ that
carrying one is indispensable to participation in
modern society.” Carpenter, 138 S. Ct. at 2220
(quoting Riley, 573 U.S. at 385)); see also Riley, 573
U.S. at 395 (“Prior to the digital age, people did not
typically carry a cache of sensitive personal
information with them as they went about their day.
Now it is the person who is not carrying a cell phone,
with all that it contains, who is the exception.”).
Since the Court’s decisions in Riley and
Carpenter, cell phones have only become more
indispensable and prevalent. In the last six years, the
number of Americans who own smartphones has
increased by 70 percent,9 the storage capacity of
smartphones has quintupled,10 and the average
smartphone owner has at least twice as many apps on

In 2019, 81 percent of Americans owned a smartphone.
Pew Res. Ctr., Mobile Fact Sheet (June 12, 2019),
http://www.pewinternet.org/fact-sheet/mobile/. Cf. Riley, 573
U.S. at 385 (citing A. Smith, Pew Res. Ctr., Smartphone
Ownership—2013 Update (June 5, 2013) (noting “56% of
American adults are now smartphone owners”)).
9

The average capacity of smartphones has increased from 16 to
80 gigabytes. See Sujeong Lim, Average Storage Capacity in
Smartphones to Cross 80GB by End-2019, Counterpoint
(Mar. 16, 2019), https://www.counterpointresearch.com/averagestorage-capacity-smartphones-cross-80gb-end-2019; Riley, 573
U.S. at 394 (“current top-selling smart phone has a standard
capacity of 16 gigabytes”).
10

20

their phone.11
Correspondingly, wide-ranging searches of
smartphones have become a common feature of law
enforcement investigations. Due to their near
ubiquity and ever-increasing storage capacity, law
enforcement searches of cell phones are not “limited
by physical realities” as searches of their pre-digital
counterparts are, creating a much greater potential
for “intrusion on privacy.” Riley, 573 U.S. at 375. A
recent survey by the non-profit Upturn found that
since 2015, law enforcement agencies have performed
hundreds of thousands of cell phone “mass
extractions,” using forensic software tools that create
“a full copy of data from a cellphone—all emails, texts,
photos, location, app data, and more—which can then
be programmatically searched.”12 The report found
“widespread adoption” of these forensic techniques by
more than 2,000 law agencies in all 50 states and the
District of Columbia, which use them as “an allpurpose investigative tool, for an astonishingly broad
array of offenses, often without a warrant.”13 In sum,
Average smartphone users now have 90 different apps on
their devices. Sarah Perez, Top mobile apps see declines in
consumer engagement amid increased competition, TechCrunch
(July 27, 2020), https://techcrunch.com/2020/07/27/top-mobileapps-see-declines-in-consumer-engagement-amid-increasedcompetition; Riley, 573 U.S. at 396 (describing various apps and
noting, at that time, that the average smartphone user “has
installed 33 apps, which together can form a revealing montage
of the user’s life.”)
11

Logan Koepke, et al., Mass Extraction: The Widespread Power
of U.S. Law Enforcement to Search Mobile Phones 4, Upturn
(Oct. 2020), https://www.upturn.org/static/reports/2020/massextraction/files/Upturn%20-%20Mass%20Extraction.pdf.
12

13

Id. at 32, 40.

21

“[e]very American is at risk of having their phone
forensically searched by law enforcement.”14
When police encounter a locked phone as part
of an investigation, they often have other avenues for
obtaining evidence, including forensic extraction
tools. However, as in this case, law enforcement will
often seek to compel the device’s owner to unlock it by
disclosing or entering his passcode. Given the
thousands of devices searched each year, then, it is
inevitable the issues raised by this petition will
continue to recur.
IV.

THE DECISION BELOW IS INCORRECT.

The Supreme Court of New Jersey’s decision is
incorrect for three reasons.
A.

The “Foregone Conclusion” Exception
Never Applies to Oral or Written Testimony.

First, where a court orders an individual to
answer a question, the application of the Fifth
Amendment privilege ought to be straightforward: if
the answer could be incriminating or could lead to
incriminating evidence, the privilege applies, and the
“foregone conclusion” exception does not. See Ohio v.
Reiner, 532 U.S. 17 (2001) (per curiam). The Fifth
Amendment provides that “[n]o person … shall be
compelled in any criminal case to be a witness against
himself.” A “witness” was understood at the time of
the founding to mean “a person who gives or furnishes
evidence.” Hubbell, 530 U.S. at 50 (Thomas, J.,
concurring). Here, Mr. Andrews is being compelled, by
state court order, to “be a witness” against himself—

14

Id. at 32.

22

to furnish the passcodes for the State’s use in its
prosecution against him.
The Founders adopted the Fifth Amendment
out of concern about “Star Chamber” practices in
England, which compelled individuals to testify
against themselves, and thereby imposed on them
“the cruel trilemma” of telling the truth, committing
perjury, or refusing to answer and facing contempt.
Couch v. United States, 409 U.S. 322, 327–28 (1973).
Absent the protection of the Fifth Amendment, the
order in this case imposes precisely that “cruel
trilemma” on Mr. Andrews.
This Court’s decisions have narrowed the
original understanding of “witness” to encompass only
those communications that are “testimonial”—that is,
communications that tend “to reveal, directly or
indirectly, [one’s] knowledge of facts” or those
communications that “disclose the contents of [one’s]
own mind.” Doe II, 487 U.S. 201, 211, 213. But even
under that definition, being compelled to disclose
one’s password, like “be[ing] compelled to reveal the
combination to [petitioner’s] wall safe,” necessarily
communicates the contents of one’s mind directly to
the state, and is testimonial. Id. at 210 n.9 (alterations
in original).
The “foregone conclusion” exception has been
applied by this Court only to a subpoena for business
records. It does not apply to pure testimony, full stop.
The government cannot compel a suspected burglar to
answer the question, “Did you enter the house?” by
asserting that the answer is a “foregone conclusion,”
even if the suspect was arrested inside with a bag of
stolen goods.

23

The New Jersey Supreme Court’s first error,
therefore, was in applying to pure testimony the
“foregone conclusion” rationale, which this Court has
applied only to “acts of production” in the context of
subpoenas for physical documents. As the Davis court
stated, “it would be a significant expansion of the
“foregone conclusion” rationale to apply it to a
defendant’s compelled oral or written testimony.” 220
A.3d at 549.
The court below concluded that the “foregone
conclusion” exception should apply because it deemed
the disclosure of a password of “minimal testimonial
value,” noting that a password consists of numbers
and characters. App. 33a. That is plainly wrong.
“Whenever a suspect is asked for a response requiring
him to communicate an express or implied assertion
of fact or belief, the suspect confronts the ‘trilemma’ of
truth, falsity, or silence, and hence the response
(whether based on truth or falsity) contains a
testimonial component.” Muniz, 496 U.S. at 597
(footnote omitted). It does not matter how incidental
or seemingly trivial the question is, or whether the
State believes it already knows the answer or could
readily obtain it from other sources. Id. In Muniz,
therefore, the Fifth Amendment privilege protected
an arrestee from being compelled to provide the date
of his sixth birthday. Similarly, the Court has noted
that the Fifth Amendment protects an individual from
being forced to disclose the combination to a wall safe,
which is also merely a series of numbers. Hubbell, 530
U.S. at 43. From the Fifth Amendment’s standpoint,
there is no material distinction between a birthdate, a
safe combination, and a password. If it would lead to
incriminating evidence, the answer is privileged.
Hoffman v. United States, 341 U.S. 479, 486 (1951)
24

(privilege extends to answers that would “furnish a
link in the chain of evidence”).
The New Jersey Supreme Court’s standard of
“minimal testimonial value” is unprecedented,
unmanageable, and dangerous. It is also wholly
untethered to the text, original understanding, or
purpose of the Fifth Amendment. The privilege
against compelled self-incrimination is not designed
to protect “valuable” testimony. It protects individual
autonomy, and is designed to preclude the
government from imposing the “cruel trilemma” on an
individual by requiring him to answer a question that
will lead to his incrimination. Couch, 409 U.S. at 328;
Muniz, 496 U.S. 582. There is no hierarchy of
protection for “high-value” or “low-value” testimony.
Muniz, 496 U.S. 582. And the Fifth Amendment
affords no metric for distinguishing between
compelled testimony based on its “minimal value.”
Except for rote voice exemplars, verbal
statements are virtually always testimonial because
they reveal the contents of a suspect’s mind. Id. at 597.
Moreover, “compelled testimony that communicates
information that may ‘lead to incriminating evidence’
is privileged even if the information itself is not
inculpatory.” Hubbell, 530 U.S. at 38 (quoting Doe II,
487 U.S. at 208 n.6). “It is the ‘extortion of information
from the accused,’ the attempt to force him ‘to disclose
the contents of his own mind,’ that implicates the SelfIncrimination Clause.” Doe II, 487 U.S. at 211
(citations omitted).
Here, Mr. Andrews was ordered to provide a
direct answer to the question, “What is your
password?” Because his response would be
testimonial, compelled, and potentially self25

incriminating, the answer was protected by the Fifth
Amendment.
B.

The Court Below Erroneously Extended
the “Foregone Conclusion” Analysis
Beyond its Limited, Original Context
Involving the Compelled Production of
Business Records.

Even if the Court were to agree with the court
below that compelled testimony could be considered
an “act of production,” the Court should reverse
because the “foregone conclusion” exception is limited
to the facts in Fisher and should not be applied beyond
the context of subpoenas for business and financial
records. The court below erred in extending the
exception, which has no basis in the text or original
understanding of the Fifth Amendment, far beyond its
narrow confines in this Court’s jurisprudence.
Because the “foregone conclusion” exception
has no basis in the text or the founding era
understandings of the privilege against selfincrimination, it should at a minimum be limited to
the facts of Fisher. Fisher, the only case of this Court
that has actually applied a “foregone conclusion”
exception to override the privilege, involved highly
unusual circumstances, and does not support a
general “foregone conclusion” exception to the
privilege against self-incrimination.
The dispute in Fisher arose out of a tax
investigation. The taxpayers’ accountants had
prepared documents related to tax returns. The
accountants then gave the documents that they had
created to the taxpayers, who passed them along to
the taxpayers’ attorneys. The Internal Revenue
Service then served administrative summonses on the
26

accountants. Notably, the taxpayers asserting the
privilege neither created nor possessed the documents
in question. Understandably, relating these
idiosyncratic facts occupies much of the Court’s
analysis. Fisher, 425 U.S. at 393–96, 413.
The question before this Court was whether the
attorneys, as agents of the taxpayer, could be forced to
produce the documents. The order did not compel oral
testimony, as the order at issue in this case does. Nor
did the order implicitly compel the taxpayer to restate,
repeat, or affirm the truth of the contents of the
documents sought. Id. at 413. The Court concluded
that in this unusual setting, because the accountants
prepared the papers and could independently
authenticate them, “the Government is in no way
relying on the ‘truth-telling’ of the taxpayer to prove
the existence of or his access to the documents.” Id. at
411.
In contrast, the trial court order at issue here
demands that Petitioner testify from memory as to the
contents of passwords he created, and the prosecution
is entirely reliant on him telling the truth about what
he recalls his passwords to be. Fisher in no way
supports application of a “foregone conclusion”
exception here.
After Fisher, this Court has only considered
“foregone conclusion” arguments in two cases, both of
which also involved subpoenas for preexisting
business and financial records. See Hubbell, 530 U.S.
at 44–45; Doe I, 465 U.S. at 614 n.13. That the Court
has never considered the “foregone conclusion”
exception outside of cases involving subpoenas for
specific, preexisting business and financial records is
unsurprising: these types of records constitute a
27

unique category of material that, to varying degrees,
has been subject to compelled production and
inspection by the government for over a century. See,
e.g., Braswell v. United States, 487 U.S. 99, 104 (1988);
Shapiro v. United States, 335 U.S. 1, 33 (1948).
Lower courts have overwhelmingly applied the
exception only in cases concerning the compelled
production of specific, preexisting business and
financial records. See, e.g., United States v. Sideman
& Bancroft, LLP, 704 F.3d 1197, 1200 (9th Cir. 2013)
(business and tax records); United States v. Bright,
596 F.3d 683, 689 (9th Cir. 2010) (credit card records);
United States v. Gippetti, 153 F. App’x 865, 868–69 (3d
Cir. 2005) (bank and credit card account records);
United States v. Bell, 217 F.R.D. 335, 341–42 (M.D.
Pa. 2003) (“tax avoidance” materials advertised on
defendant business’s website); In re Grand Jury
Subpoenas Served Feb. 27, 1984, 599 F. Supp. 1006,
1012 (E.D. Wash. 1984) (business partnership
records); cf. Burt Hill, Inc. v. Hassan, No. CIV. A. 091285, 2010 WL 55715, at *2 (W.D. Pa. Jan. 4, 2010)
(contents of electronic storage devices used by
defendants while employed by plaintiff).
At the same time, lower courts have given
individuals the full strength of the self-incrimination
privilege in cases involving the compelled production
of evidence other than business documents, such as
guns or drugs, reasoning that responding to such
requests would constitute an implicit admission of
guilty knowledge. See, e.g., Muniz, 496 U.S. 582;
United States v. Green, 272 F.3d 748 (5th Cir. 2001),
Commonwealth v. Hughes, 404 N.E.2d 1239, 1246
(Mass. 1980) (“[W]e express doubt whether a
defendant may be compelled to deliver the corpus
delicti, which may then be introduced by the
28

government at trial, if only it is understood that the
facts as to the source of the thing are withheld from
the jury.”); State v. Dennis, 558 P.2d 297, 301 (Wash.
1976) (defendant’s act of producing cocaine in
response to officer’s urgings was testimonial, no
“foregone conclusion” analysis); Goldsmith v. Superior
Court, 199 Cal. Rptr. 366, 374 (Ct. App. 1984)
(defendant’s production of a gun was testimonial, and
not a foregone conclusion).
The court below erred, therefore, in
unjustifiably expanding the “foregone conclusion”
inquiry beyond Fisher’s narrow application to
preexisting business records.15
C.

The Court Should Overrule Fisher
Because the Fifth Amendment Privilege
Against Self-Incrimination Does Not
Properly Include a “Foregone Conclusion”
Exception.

Any one of the above three errors is sufficient
to reverse the decision below. But in the event that the
Court disagrees with Petitioner on all three prior
arguments, it should consider overruling Fisher. The
“foregone conclusion” exception finds no support in the
text or original understanding of the Fifth
As argued above, the court’s principal error was to apply the
“foregone conclusion” exception at all to a demand for pure
testimony. But even assuming arguendo that the “foregone
conclusion” rationale could apply in this context, the court also
erred in what it required the government to demonstrate. The
court required merely that the government show that it knew
that Mr. Andrews had a password to the phones (because that
would be all it learned from the password’s compelled disclosure).
But that is incorrect, as the government would also learn the
contents of the password itself, and plainly the government does
not possess that information at all.
15

29

Amendment. It has been applied by this Court to
permit compulsion exactly once. And it has created
widespread confusion in the courts below.
“Foregone conclusion” is found nowhere in the
text of the amendment, or in founding-era discussions
or applications of the privilege. Indeed, for many years
the Fifth Amendment was understood to prohibit not
merely compelled testimony, but any compelled
evidence that would lead to incrimination.
Boyd v.
United States, 116 U.S. 616, 634–635 (1886). Thus,
several justices have called into question the notion
that incriminating documents can be compelled,
consistent with the Fifth Amendment. See Hubbell,
530 U.S. at 49–55 (Thomas, J., and Scalia, J.,
concurring); Carpenter v. United States, 138 S. Ct.
2206, 2271 (2018) (Gorsuch, J., dissenting). As Justice
Thomas has observed, Boyd reflects the proper
understanding that “witness” means one who gives
evidence, and not merely one who testifies. Hubbell,
530 U.S. at 50 (Thomas, J., concurring).
This Court’s decision in Fisher rejects this
understanding and permits the government to force a
person to furnish incriminating documents. And it
does so by creating out of whole cloth a “foregone
conclusion” exception that finds no support in the text,
history or purpose of the Fifth Amendment. As noted
above, if the government cannot compel an individual
to answer “Did you enter the house?” even if she was
arrested in the house and the state can prove
burglary, it should not be able to compel any
incriminating evidence, much less pure testimony, on
the ground that it already knows the answer.

30

If necessary, therefore, this Court should
revisit Fisher and reject the unfounded “foregone
conclusion” exception altogether.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted,
Robert L. Tarver, Jr.
LAW OFFICES OF ROBERT
L. TARVER, JR.
66 South Main Street
Toms River, NJ 08757
Jeanne LoCicero
Alexander Shalom
AMERICAN CIVIL LIBERTIES
UNION OF NEW JERSEY
FOUNDATION
Post Office Box 32159
Newark, NJ 07102
Mark Rumold
Andrew Crocker
ELECTRONIC FRONTIER
FOUNDATION
815 Eddy Street
San Francisco, CA 94109

Jennifer S. Granick
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
39 Drumm Street
San Francisco, CA 94114
(415) 343-0758
jgranick@aclu.org
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
Brett Max Kaufman
Jennesa Calvo-Friedman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Date: January 7, 2021

31

APPENDIX

APPENDIX A
SUPREME COURT OF NEW JERSEY
A-72 September Term 2018
082209
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Movant.
_____
On appeal from the Superior Court,
Appellate Division, whose opinion is reported at
457 N.J. Super. 14 (App. Div. 2018).
[Filed August 10, 2020]
OPINION
JUSTICE SOLOMON delivered the opinion of the
Court.
This appeal presents an issue of first
impression to our Court—whether a court order
requiring a criminal defendant to disclose the
passcodes to his passcode-protected cellphones
violates the Self-Incrimination Clause of the Fifth
Amendment to the United States Constitution or New
Jersey’s common law or statutory protections against
self-incrimination. We conclude that it does not and
affirm the Appellate Division’s judgment.
The target of a State narcotics investigation
advised detectives that defendant, a law enforcement
officer, had provided him with information about the
investigation and advice to avoid criminal exposure.
1a

The target gave statements to investigators,
confirmed in part by his cellphone, about photographs,
cellphone calls, text message exchanges, and
conversations with defendant during which defendant
recommended that the target remove a tracking
device that may have been placed on his car by the
police; recommended that the target discard
cellphones he and his cohorts used; and revealed the
identity of an undercover officer and an undercover
police vehicle.
The State obtained an arrest warrant for
defendant and search warrants for defendant’s
iPhones, which were seized. Because the contents of
the iPhones were inaccessible to investigators without
the iPhones’ passcodes, the State moved for an order
compelling defendant to disclose the passcodes.
Defendant claimed the United States
Constitution and New Jersey’s common law and
statutory protections against compelled selfincrimination protected his disclosure of the
passcodes. The motion court and Appellate Division
concluded that defendant’s disclosure of the passcodes
could be compelled. We agree and affirm.
I.
The State claims that defendant Robert
Andrews, a former Essex County Sheriff’s Officer,
revealed an undercover narcotics investigation to its
target, Quincy Lowery.
The motion court and Appellate Division
records disclose that Essex County Prosecutor’s Office
detectives went to the Essex County Sheriff’s Office to
interview Andrews, with his counsel present, about
his association with Lowery. Andrews’s attorney told
the detectives that his client did “not wish to speak to
2a

anyone” and would be invoking his Fifth Amendment
privilege against self-incrimination. The attorney also
requested the return of Andrews’s two cellphones
seized earlier that day. The detectives advised
Andrews and his counsel that the cellphones were
seized in connection with a criminal investigation and
would not be immediately returned, but that Andrews
was free to leave.
Later that day, detectives from the Essex
County Prosecutor’s Office interviewed Lowery, who
detailed his relationship with Andrews. Lowery
explained that they were members of the same
motorcycle club and had known each other for about a
year. During that time, Andrews registered a car and
motorcycle in his name so that Lowery could use them.
Lowery also told the detectives that he regularly
communicated with Andrews using the FaceTime
application on their cellphones.
Lowery claimed that during one of those
communications, Andrews told him to “get rid of” his
cellphones because law enforcement officials were
“doing wire taps” following the federal arrests of Crips
gang members.1 According to Lowery, Andrews said
that the State Police and the Sheriff’s Office were
“going to do a run” and Lowery should “just be
careful.”
Lowery also explained that he had suspected he
was being followed by police officers after receiving a
tip from a fellow drug dealer who observed a white van
outside of Lowery’s residence. Lowery relayed that
suspicion to Andrews and texted him the license plate
Lowery also informed the detectives that Andrews had selfidentified as a member of the Grape Street Crips.
1

3a

number of one of the vehicles Lowery believed was
following him. According to Lowery, Andrews
informed him that the license plate number belonged
either to the Prosecutor’s Office or the Sheriff’s
Department and advised him to put his car “on a lift
to see if there is a [tracking] device under there.”
Lowery reported that he “stopped hustling” and
discarded one of his cellphones after realizing he was
being followed. Lowery also described one occasion
when he noticed a man enter a restaurant shortly
after Lowery arrived. Lowery explained that he
suspected the man was an undercover police officer
after noticing a bulge, believed to be a gun, on his hip.
Using his cellphone, Lowery surreptitiously
photographed the man. Lowery claimed that later that
day he showed the picture to Andrews who identified
the individual as a member of the Prosecutor’s Office.
Further investigation following Lowery’s
statements largely corroborated his allegations.
Lowery’s Samsung Galaxy S5 cellphone was sent to
the Cyber Crimes Unit for data extraction. The
extraction report revealed that Lowery changed his
telephone number shortly after he claims Andrews
informed him of a potential wiretap. The report also
revealed that two days after changing his number,
Lowery texted an unknown subscriber to “Go get new
phones.” Seven minutes later, he texted another
number advising that “Everybody around u need to
get new ones 2.”
A month later, Lowery texted a number
associated with Andrews and asked “Where you at[?]”
Forty-four minutes after that message, Lowery texted
Andrews the license plate number of the car he
suspected of following him. Lowery received a text
4a

message from one of Andrews’s cellphone numbers
two days later stating, “Bro call me we need to talk
face to face when I get off.”
Detectives later confirmed that the license
plate number Lowery texted to Andrews was
registered to a rental company and was being used by
detectives on the Prosecutor’s Office Narcotics Task
Force. The extraction report also contained a
photograph of a Narcotics Task Force detective
matching the description of the undercover officer who
followed Lowery into a restaurant. A review of State
Motor Vehicle Commission records revealed that a
2002 Jeep Grand Cherokee Limited and 2007 Suzuki
GSX motorcycle, which officers observed Lowery
operating two weeks before his arrest, were registered
to Andrews.
Following their second interview with Lowery,
the State obtained Communication Data Warrants for
cellphone numbers belonging to Andrews and Lowery.
Over the next two weeks, the State sought and
received additional search warrants for phones
belonging to Lowery and Andrews, including a
Communication Data Warrant for a second iPhone
seized from Andrews. The warrants revealed 114
cellphone calls and text messages between Lowery
and Andrews over a six-week period.
Andrews was indicted by an Essex County
grand jury for (1) two counts of second-degree official
misconduct (N.J.S.A. 2C:30-2); (2) two counts of thirddegree hindering the apprehension or prosecution of
another person (N.J.S.A. 2C:29-3(a)(2)); and (3) two
counts
of
fourth-degree
obstructing
the
administration of the law or other government
function (N.J.S.A. 2C:29-1).
5a

According to the State, its Telephone
Intelligence Unit was unable to search Andrews’s
iPhones—an iPhone 6 Plus and an iPhone 5s—
because they “had iOS systems greater [than] 8.1,2
making them extremely difficult to access without the
owner/subscriber’s pass code.” A State detective
contacted and conferred with the New York Police
Department’s (NYPD) Technical Services unit, as well
as a technology company called Cellebrite, both of
which concluded that the cellphones’ technology made
them inaccessible to law enforcement agencies. The
detective also consulted the Federal Bureau of
Investigation’s
Regional
Computer
Forensics
Laboratory, which advised that it employed
“essentially the same equipment used by” the State
and NYPD and would be unable to access the phones’
contents. The State therefore moved to compel
Andrews to disclose the passcodes to his two iPhones.
Andrews opposed the motion, claiming that
compelled disclosure of his passcodes violates the
protections against self-incrimination afforded by
New Jersey’s common law and statutes and the Fifth
Amendment to the United States Constitution.

“Apple manufactures smartphones, named iPhones, which run
an operating system named iOS. Numerical names designate
different versions of the operating system (e.g., iOS 8). Apple
adopted full-disk encryption by default in September 2014 with
iOS 8.” Kristen M. Jacobsen, Note, Game of Phones, Data Isn’t
Coming: Modern Mobile Operating System Encryption and its
Chilling Effect on Law Enforcement, 85 Geo. Wash. L. Rev. 566,
574 (2017) (footnotes omitted). “Full-disk encryption
automatically converts everything on a hard drive, including the
operating system, into an unreadable form until the proper key
(i.e., passcode) is entered.” Id. at 573 (internal quotation marks
omitted).
2

6a

The trial court rejected Andrews’s arguments,
ruling that “the act of providing a PIN, password, or
passcode is not a testimonial act where the Fifth
Amendment or New Jersey common and statutory law
affords protection.” The court reasoned that
“[a]llowing the State to access the call logs and text
messages on Andrews’s iPhones will add little to
nothing to the aggregate of the Government’s
information.” The court added that “any testimonial
act contained in the act of providing the PIN or
passcode is a foregone conclusion because the State
has established with reasonable particularity that it
already knows that (1) the evidence sought exists, (2)
the evidence was in the possession of the accused, and
(3) the evidence is authentic.”
Nevertheless, the trial court limited access to
Andrews’s cellphones “to that which is contained
within (1) the ‘Phone’ icon and application on
Andrews’s two iPhones, and (2) the ‘Messages’ icon
and/or text messaging applications used by Andrews
during his communications with Lowery.” The court
also ordered that the search “be performed by the
State, in camera, in the presence of Andrews’s defense
counsel and the [c]ourt,” with the court “review[ing]
the PIN or passcode prior to its disclosure to the
State.”
The Appellate Division denied Andrews’s
motion for leave to appeal from the trial court’s order.
We granted Andrews’s motion for leave to appeal to
this Court and summarily remanded to the Appellate
Division to consider Andrews’s arguments on the
merits. State v. Andrews, 230 N.J. 553 (2017).

7a

On remand, the Appellate Division affirmed the
trial court’s order requiring Andrews to disclose the
passcodes to his two iPhones. State v. Andrews, 457
N.J. Super. 14, 18 (App. Div. 2018). The panel
acknowledged Andrews’s Fifth Amendment concerns
but held that the only testimonial aspects of providing
the passcodes “pertain to the ownership, control, use,
and ability to access the phones,” which were facts
already known to the State. Id. at 29. Therefore, the
“foregone conclusion” exception to the “act of
production” doctrine applied because the State
“establish[ed] with reasonable particularity (1)
knowledge of the existence of the evidence demanded;
(2) defendant’s possession and control of that
evidence; and (3) the authenticity of the evidence.” Id.
at 22-23. In the Appellate Division’s view, the State
satisfied all three requirements of the exception by
describing “the specific evidence it seeks to compel,
which is the passcodes to the phones” and establishing
that Andrews “exercised possession, custody, or
control over” the seized iPhones.3 Id. at 24.
The Appellate Division similarly rejected
Andrews’s state common law claims, noting the State
would likely be unable to decipher information stored
on the iPhones without their passcodes and that,
when “the State has established the elements for
application of the ‘foregone conclusion’ doctrine, New
Jersey’s common law privilege against selfincrimination does not bar compelled disclosure of
passcodes for defendant’s phones.” Id. at 32.
Finally, the Appellate Division rejected
Andrews’s contention that the information sought is
The panel noted that the parties had not raised the issue of the
authenticity of the electronically stored information. Id. at 30.
3

8a

protected by N.J.S.A. 2A:84A-19 and N.J.R.E. 503,
which provide protection from self-incrimination,
subject to an exception for court orders compelling
production of “a document, chattel or other thing” to
which “some other person or a corporation or other
association has a superior right.” See id. at 32 (quoting
N.J.S.A. 2A:84A-19(b); N.J.R.E. 503(b)). The panel
concluded that the search warrants issued for
Andrews’s iPhones “give the State a superior right to
possession of the passcodes.” Id. at 33.
We granted Andrews’s motion for leave to
appeal. 237 N.J. 572 (2019). We also granted amicus
curiae status to the Office of the Attorney General, the
County Prosecutors Association of New Jersey, the
New Jersey State Bar Association, the Association of
Criminal Defense Lawyers of New Jersey (ACDL), the
Office of the Public Defender, the Electronic Frontier
Foundation, the American Civil Liberties Union, the
American Civil Liberties Union of New Jersey, and
the Electronic Privacy Information Center.
II.
Andrews contends that the Appellate Division
subverted New Jersey’s broader privilege against selfincrimination and employed a “simplistic mechanical
approach” to the Fifth Amendment’s foregone
conclusion exception. According to Andrews, that
exception should not apply to digital technology
because it “is distinctly different than paper
documents,” and the State “does not know what the
passwords are, if Andrews knew them, or what is on
the phones.” Andrews also accuses the Appellate
Division of treating his state law right against selfincrimination as expendable and conflating the
issuance of search warrants with ownership to
9a

construe the State’s search as consistent with the
language of N.J.S.A. 2A:84A-19(b).
The State argues in response that Andrews’s
contention concerning the exposure of incriminating
information is baseless because the trial court’s order
mandates disclosure of the passcodes in camera prior
to their communication to the State. Similarly, the
State claims that the passcodes are “merely a random
sequence of numbers with no testimonial
significance,” placing their compelled disclosure
beyond the reach of the Fifth Amendment’s SelfIncrimination Clause.
In answer to Andrews’s state law claims, the
State argues that communication between coconspirators has no special privacy status, that the
State “has established . . . that it already knows what
is on the phone[s],” and that the State has a superior
right to the contents of the phones because of the
unchallenged search warrant.
In support of the State, the County Prosecutors
Association of New Jersey posits that the Fifth
Amendment’s
privilege
does
not
permit
noncompliance with a search warrant valid under the
Fourth Amendment. The Office of the Attorney
General similarly warns that Andrews is attempting
to use the Fifth Amendment to undermine the
execution of a valid and enforceable search warrant.
Additionally, the Attorney General argues that
Andrews’s constitutional, statutory, and common law
rights against self-incrimination are not affected by
the disclosure of his cellphone passcodes because
compelled disclosure would communicate only his
ability to unlock the phones.

10a

The ACDL disagrees with the State and its
supportive amici, contending that the Appellate
Division’s Fifth Amendment analysis was skewed by
its focus on Andrews’s ostensible knowledge of the
phones’ passcodes instead of the State’s knowledge of
the phones’ contents. According to the ACDL, if we
adopt the Appellate Division’s reasoning with respect
to mobile devices, self-incrimination protections will
exist in name only.
The New Jersey State Bar Association,
Electronic Frontier Foundation, American Civil
Liberties Union, and American Civil Liberties Union
of New Jersey echo the ACDL’s arguments and claim
that the Fifth Amendment shields information that
exists only in a criminal defendant’s mind from
government compelled disclosure. They also assert
that the State failed to satisfy the reasonable
particularity requirement of the foregone conclusion
exception because it cannot identify the digital records
it wants Andrews to produce through disclosure of his
passcodes.
III.
The question before the Court—whether
defendant can be compelled to disclose the passcodes
to his cellphones seized by law enforcement pursuant
to a lawfully issued search warrant—is ultimately
answered by analyzing federal and state protections
against compelled self-incrimination. But because the
State contends that those protections do not allow
defendant to ignore a lawfully issued search warrant,
we begin with a brief review of the applicable
principles of our search and seizure jurisprudence.

11a

A.
The Fourth Amendment to the United States
Constitution and Article I, paragraph 7 of the New
Jersey Constitution protect individuals’ rights “to be
secure in their persons, houses, papers, and effects” by
requiring that search warrants be “supported by oath
or affirmation” and describe with particularity the
places subject to search and people or things subject
to seizure. Searches executed pursuant to warrants
compliant with those requirements are presumptively
valid, State v. Jones, 179 N.J. 377, 388 (2004), and
reviewing courts “should pay substantial deference” to
judicial findings of probable cause in search warrant
applications, State v. Kasabucki, 52 N.J. 110, 117
(1968).
Furthermore, the State has broad authority to
effectuate searches permitted by valid search
warrants. Pursuant to that authority, the State may
destroy property, United States v. Ramirez, 523 U.S.
65, 69-71 (1998), forcibly enter a residence, United
States v. Banks, 540 U.S. 31, 33, 40 (2003), and employ
flash-bang devices, State v. Rockford, 213 N.J. 424,
431-32 (2013), all in the name of executing a warrant.
Andrews does not challenge the search
warrants issued for his cellphones. He does not claim
that the phones were unlawfully seized or that the
search warrants authorizing the State to comb their
contents were unsupported by probable cause. Neither
does defendant challenge the particularity with which
the search warrants describe the “things subject to
seizure.” Thus, the State is permitted to access the
phones’ contents, as limited by the trial court’s order,
in the same way that the State may survey a home,
vehicle, or other place that is the subject of a search
12a

warrant.
But a lawful seizure does not allow compelled
disclosure of facts otherwise protected by the Fifth
Amendment. In re Search of a Residence in Oakland,
354 F. Supp. 3d 1010, 1014 (N.D. Cal. 2019); Michael
S. Pardo, Disentangling the Fourth Amendment and
the Self-Incrimination Clause, 90 Iowa L. Rev. 1857,
1860 (2005).
Andrews objects here to the means by which the
State seeks to effectuate the searches authorized by
the lawfully issued search warrants—compelled
disclosure of his cellphones’ passcodes—which
Andrews claims violate federal and state protections
against compelled self-incrimination. We therefore
consider whether the Fifth Amendment protects
Andrews from being compelled to disclose his
passcodes.
B.
1.
The Fifth Amendment to the United States
Constitution provides that “[n]o person . . . shall be
compelled in any criminal case to be a witness against
himself.” U.S. Const. amend. V. That right against
self-incrimination “applies only when the accused is
compelled to make a testimonial communication that
is incriminating.” Fisher v. United States, 425 U.S.
391, 408 (1976).
Testimonial communications may take any
form, Schmerber v. California, 384 U.S. 757, 763-64
(1966), but must “imply assertions of fact” for the Fifth
Amendment privilege against self-incrimination to
attach, Doe v. United States (Doe II), 487 U.S. 201, 209
(1988). Thus, actions that do not require an individual
13a

“to disclose any knowledge he might have” or “to speak
his guilt” are nontestimonial and therefore not
protected by the Fifth Amendment. Id. at 211 (quoting
United States v. Wade, 388 U.S. 218, 222-23 (1967)).
Accordingly, criminal defendants may lawfully
be compelled to display their physical characteristics
and commit physical acts because the display of
physical characteristics is not coterminous with
communications that relay facts. United States v.
Hubbell, 530 U.S. 27, 35 (2000). Among those acts are
creating handwriting samples, Gilbert v. California,
388 U.S. 263, 266 (1967), and voice samples, United
States v. Dionisio, 410 U.S. 1, 7 (1973); providing
blood, hair, and saliva samples, State v. Burke, 172
N.J. Super. 555, 557 (App. Div. 1980); standing in a
lineup, Wade, 388 U.S. at 221; and donning particular
articles of clothing, Holt v. United States, 218 U.S.
245, 252-53 (1910). Also, consistent with the Fifth
Amendment, individuals may be compelled to execute
an authorization directing a foreign bank to disclose
account records “because neither the form, nor its
execution, communicates any factual assertions,
implicit or explicit, or conveys any information to the
Government.” Doe II, 487 U.S. at 215.
A handful of courts have held that compelled
State access to electronic devices through the use of
biometric features does not violate the Fifth
Amendment. In re Search Warrant Application for
Cellular Tel. in U.S. v. Barrera, 415 F. Supp. 3d 832,
833 (N.D. Ill. 2019) (“[C]ompelling an individual to
scan their biometrics, and in particular their
fingerprints, to unlock a smartphone device neither
violates the Fourth nor Fifth Amendment.”); State v.
Diamond, 905 N.W.2d 870, 878 (Minn. 2018)
(“[P]roviding a fingerprint to the police to unlock a
14a

cellphone was not a testimonial communication
protected by the Fifth Amendment.”). But see In re
Search of a Residence in Oakland, 354 F. Supp. 3d at
1018 (denying a search warrant seeking use of
biometrical features to unlock electronic devices).
As those examples suggest, the Fifth
Amendment is not an absolute bar to a defendant’s
forced assistance of the defendant’s own criminal
prosecution. Doe II, 487 U.S. at 213. In contrast to
physical communications, however, if an individual is
compelled “to disclose the contents of his own mind,”
such disclosure implicates the Fifth Amendment
privilege against self-incrimination. Id. at 211
(quoting Curcio v. United States, 354 U.S. 118, 128
(1957)). In a series of cases, the United States
Supreme Court has considered when an act of
production constitutes a protected testimonial
communication rather than a non-testimonial and
therefore unprotected communication. In advancing
that distinction, the Court has also developed an
exception to the Fifth Amendment privilege against
self-incrimination for acts of production that are
testimonial in nature but of minimal testimonial value
because the information they convey is a “foregone
conclusion.” We turn now to those developments.
2.
In Wilson v. United States, the Supreme Court
upheld a contempt finding against a corporate officer
who failed to comply with a grand jury subpoena
compelling disclosure of potentially incriminating
corporate records in his possession. 221 U.S. 361, 386
(1911). The Court explained that “the physical custody
of incriminating documents does not of itself protect
the custodian against their compulsory production.”
15a

Id. at 380. Therefore “the fact of actual possession or
of lawful custody would not justify the officer in
resisting inspecting, even though the record was made
by himself and would supply the evidence of his
criminal dereliction.” Ibid.
Sixty-five years later, the Fisher Court drew a
distinction between the act of producing documents
and the documents themselves in the context of
subpoenaed tax records, finding that, even though the
documents were not privileged,
[t]he act of producing evidence in
response to a subpoena nevertheless has
communicative aspects of its own, wholly
aside from the contents of the papers
produced. Compliance with the subpoena
tacitly concedes the existence of the
papers demanded and their possession or
control by the taxpayer. It also would
indicate the taxpayer’s belief that the
papers are those described in the
subpoena.
[425 U.S. at 409-10.]
After those observations, the Court found that
“the elements of compulsion are clearly present” in the
production, “but the more difficult issues are whether
the tacit averments of the taxpayer are both
‘testimonial’ and ‘incriminating’ for purposes of
applying the Fifth Amendment.” Ibid. Ultimately, the
Court declared itself “confident that however
incriminating the contents of the accountant’s
workpapers might be, the act of producing them—the
only thing which the taxpayer is compelled to do—
would
not
itself
involve
testimonial
selfincrimination.” Id. at 410-11.
16a

The reasoning with which the Court explained
that conclusion ultimately gave rise to the foregone
conclusion exception:
It is doubtful that implicitly
admitting the existence and possession of
the papers rises to the level of testimony
within the protection of the Fifth
Amendment. . . . The existence and
location of the papers are a foregone
conclusion and the taxpayer adds little or
nothing to the sum total of the
Government’s information by conceding
that he in fact has the papers. Under
these circumstances by enforcement of
the summons “no constitutional rights
are touched. The question is not of
testimony but of surrender.” In re Harris,
221 U.S. 274, 279 (1911). . . . .
Moreover, assuming that these
aspects of producing the accountant’s
papers have some minimal testimonial
significance, surely it is not illegal to
seek accounting help in connection with
one’s tax returns or for the accountant to
prepare workpapers and deliver them to
the taxpayer. At this juncture, we are
quite unprepared to hold that either the
fact of existence of the papers or of their
possession by the taxpayer poses any
realistic threat of incrimination to the
taxpayer.
As for the possibility that
responding to the subpoena would
authenticate the workpapers, production
17a

would express nothing more than the
taxpayer’s belief that the papers are those
described in the subpoena. . . . The
documents would not be admissible in
evidence against the taxpayer without
authenticating testimony. Without more,
responding to the subpoena in the
circumstances before us would not
appear to represent a substantial threat
of self-incrimination.
[Id. at 411-13 (emphases added;
footnotes and citations omitted).]
In United States v. Doe (Doe I), the Court
applied the logic from Fisher in considering “whether,
and to what extent, the Fifth Amendment privilege
against compelled self-incrimination applies to the
business records of a sole proprietorship,” 465 U.S.
605, 606 (1984), particularly where the district court
indicated that “the Government had conceded that the
materials sought in the subpoena were or might be
incriminating,” id. at 608.
After “hold[ing] that the contents of those
records are not privileged,” the Court stressed, as did
the Fisher Court, that even where “the contents of a
document may not be privileged, the act of producing
the document may be” because “[a] government
subpoena compels the holder of the document to
perform an act that may have testimonial aspects and
an incriminating effect.” Id. at 612. Stressing the
district court’s factfinding that the subject documents
did contain incriminating information, the Doe I Court
distinguished Fisher. Id. at 613-14.
The Doe I Court rejected the Government’s
argument “that any incrimination [flowing from the
18a

compelled production in that case] would be so trivial
that the Fifth Amendment is not implicated,” relying
instead on “the findings made” by the trial court in
holding that “the risk of incrimination was
‘substantial and real’ and not ‘trifling or imaginary.’”
Id. at 614 n.13 (quoting Marchetti v. United States,
390 U.S. 39, 53 (1968)). The Court explained,
“Respondent did not concede in the District Court that
the records listed in the subpoena actually existed or
were in his possession. Respondent argued that by
producing the records, he would tacitly admit their
existence and his possession.” Ibid.
Although the Court reached its holding on that
basis, it also noted the respondent’s argument “that if
the Government obtained the documents from another
source, it would have to authenticate them before they
would be admissible at trial. By producing the
documents, respondent would relieve the Government
of the need for authentication.” Ibid. (citation
omitted).
The Court stressed that a “valid claim of the
privilege against self-incrimination” had been
asserted, which the Government could then rebut “by
producing evidence that possession, existence, and
authentication were a ‘foregone conclusion.’” Ibid.
(emphasis added) (quoting Fisher, 425 U.S. at 411). In
Doe I, “however, the Government failed to make such
a showing.” Ibid.
In Hubbell, the Court reiterated, with respect
to “13,120 pages of documents and records” produced
in response to a grand jury subpoena, 530 U.S. at 31,
that “[t]he ‘compelled testimony’ that is relevant in
this case is not to be found in the contents of the
documents produced in response to the subpoena. It
19a

is, rather, the testimony inherent in the act of
producing those documents,” id. at 40. Noting that the
parties’ dispute centered “on the significance of that
testimonial aspect,” the Court wrote, “The
Government
correctly
emphasizes
that
the
testimonial aspect of a response to a subpoena duces
tecum does nothing more than establish the existence,
authenticity, and custody of items that are produced.”
Id. at 40-41.
But to convey that information, the Court
stressed, “[i]t was unquestionably necessary for
respondent to make extensive use of ‘the contents of
his own mind’ in identifying the hundreds of
documents responsive to the requests in the
subpoena,” such that “[t]he assembly of those
documents was like telling an inquisitor the
combination to a wall safe, not like being forced to
surrender the key to a strongbox.” Id. at 43 (quoting
Curcio, 354 U.S. at 128). Indeed, the act of production
at issue “was tantamount to answering a series of
interrogatories asking a witness to disclose the
existence and location of particular documents fitting
certain broad descriptions.” Id. at 41.
In finding the act of producing the documents
fell within the ambit of the Fifth Amendment’s
protection against self-incrimination, id. at 45, the
Court rejected the Government’s argument that “the
existence and possession of . . . records [like those
sought through the subpoena] by any businessman is
a ‘foregone conclusion’” as a misreading of Fisher and
an end run around Doe I. Id. at 44. The Court
explained,
Whatever the scope of this “foregone
conclusion” rationale, the facts of this
20a

case plainly fall outside of it. While in
Fisher the Government already knew
that the documents were in the
attorneys’
possession
and
could
independently confirm their existence
and
authenticity
through
the
accountants who created them, here the
Government has not shown that it had
any prior knowledge of either the
existence or the whereabouts of the
13,120 pages of documents ultimately
produced
by
respondent.
The
Government cannot cure this deficiency
through the overbroad argument that a
businessman such as respondent will
always possess general business and tax
records that fall within the broad
categories described in this subpoena.
[Id. at 44-45.]
From those cases, which all addressed the
compelled production of documents, the following
principles can be inferred: For purposes of the Fifth
Amendment privilege against self-incrimination, the
act of production must be considered in its own right,
separate from the documents sought. And even
production that is of a testimonial nature can be
compelled if the Government can demonstrate it
already knows the information that act will reveal—
if, in other words, the existence of the requested
documents, their authenticity, and the defendant’s
possession of and control over them—are a “foregone
conclusion.”

21a

3.
Although the Supreme Court has considered
the application of the foregone conclusion exception
only in the context of document production, courts in
other jurisdictions have grappled with the
applicability of the exception beyond that context, and
many have considered whether the exception applies
to compelled decryption or to the compelled production
of passcodes and passwords, reaching divergent
results.
Among other causes for that divergence is a
dispute over how to adapt the foregone conclusion
analysis from the document-production context, which
involves the act of producing the document and the
contents of the document, to the context of passcode
production, which involves the act of producing the
passcode that protects the contents of the electronic
device.
Some courts to consider the issue have focused
on the production of the passcode as a means to access
the contents of the electronic device, treating the
contents of the devices as the functional equivalent of
the contents of documents at issue in the United
States Supreme Court cases. Most recently, the
Supreme Court of Indiana considered a woman’s
challenge to the order that she unlock her iPhone for
law enforcement after she had been arrested for
stalking. Seo v. State, ___ N.E.3d ___, ___ (June 23,
2020) (slip op. at 2-3).
After reviewing Fisher, Doe I, and Hubbell, id.
at 6-8, the court in Seo “dr[ew] two analogies” in
extending its observations on those cases “to the act of
producing an unlocked smartphone”: “First, entering
the password to unlock the device is analogous to the
22a

physical act of handing over documents. And second,
the files on the smartphone are analogous to the
documents ultimately produced,” id. at ___ (slip op. at
8-9) (citing Laurent Sacharoff, What Am I Really
Saying When I Open My Smartphone? A Response to
Orin S. Kerr, 97 Tex. L. Rev. Online 63, 68 (2019)).
“Thus,” the court reasoned,
a suspect surrendering an unlocked
smartphone implicitly communicates, at
a minimum, three things: (1) the suspect
knows the password; (2) the files on the
device exist; and (3) the suspect
possessed those files. And, unless the
State can show it already knows this
information, the communicative aspects
of the production fall within the Fifth
Amendment’s protection.
[Id. at ___ (slip op. at 9) (footnote omitted).]
The court noted that “[t]he majority of courts to
address the scope of testimony implicated when a
suspect is compelled to produce an unlocked
smartphone have reached a similar conclusion.” Id. at
___ n.3 (slip op. at 9) (collecting cases).
Applying that test, the court found in Seo the
foregone conclusion exception inapplicable. Id. at ___
(slip op. at 10). “Even if we assume the State has
shown that Seo knows the password to her
smartphone,” the court wrote, “the State has failed to
demonstrate that any particular files on the device
exist or that she possessed those files.” Id. at ___ (slip
op. at 9-10). Rather, if law enforcement were granted
access to the phone, they “would be fishing for
‘incriminating evidence’ from the device,” such that
“Seo’s act of producing her unlocked smartphone
23a

would provide the State with information that it does
not already know.” Id. at ___ (slip op. at 10).
After finding that the foregone conclusion
exception did not apply, the Seo court also noted that
“[t]his case highlights concerns with extending the
limited foregone conclusion exception to the compelled
production of an unlocked smartphone.” Id. at ___ (slip
op. at 11); see also id. at ___ (slip op. at 11-17)
(explaining those concerns).
A four-Justice majority of the Supreme Court of
Pennsylvania likewise focused on the files stored on a
computer in considering whether production of the
computer’s password could be compelled. See
Commonwealth v. Davis, 220 A.3d 534, 537 (Pa. 2019).
The majority noted, “The Commonwealth is seeking
the password, not as an end, but as a pathway to the
files being withheld.” Id. at 548. Reasoning that “the
compelled production of the computer’s password
demands the recall of the contents of Appellant’s
mind, and the act of production carries with it the
implied factual assertions that will be used to
incriminate him,” the court determined “that
compelling Appellant to reveal a password to a
computer is testimonial in nature” and thus protected
by the Fifth Amendment. Id. at 548, 551.
The Davis majority took note of the foregone
conclusion exception but stressed the limited
context—document production—in which it has been
applied by the United States Supreme Court, as well
as the Supreme Court’s sharp distinction between the
physical and the mental. Id. at 548-51. The majority
determined that, “until the United States Supreme
Court holds otherwise, we construe the foregone
conclusion rationale to be one of limited application
24a

and . . . believe the exception to be inapplicable to
compel the disclosure of a defendant’s password to
assist the Commonwealth in gaining access to a
computer.” Id. at 551.
In a footnote, the majority explained, “Even if
we were to find that the foregone conclusion exception
could apply to the compulsion to reveal a computer
password, we nevertheless would conclude that the
Commonwealth has not satisfied the requirements of
the exception in this matter.” Id. at 551 n.9. Stressing
that “[i]t is not merely access to the computer that the
Commonwealth seeks to obtain through compelling
Appellant to divulge his computer password, but all of
the files on Appellant’s computer,” and that “[t]he
password is merely a means to get to the computer’s
contents,” the majority found that
because the Commonwealth has failed to
establish that its search is limited to the
single previously identified file, and has
not asserted that it is a foregone
conclusion as to the existence of
additional files that may be on the
computer, which would be accessible to
the Commonwealth upon Appellant’s
compelled disclosure of the password, . . .
the Commonwealth has not satisfied the
foregone conclusion exception.
[Ibid.]
The three-Justice dissent in Davis took issue
not only with the majority’s determination that the
foregone conclusion exception is inapplicable in the
context of compelled password production, but also
with its determination that the exception should not
be applied in that case. Id. at 552-53 (Baer, J.,
25a

dissenting).
In the dissent’s view, “the compulsion of
Appellant’s password is an act of production, requiring
him to produce a piece of evidence similar to the act of
production requiring one to produce a business or
financial document, as occurred in Fisher.” Id. at 554.
The dissent noted that “[a]n order compelling
disclosure of the password . . . has testimonial
attributes, not in the characters themselves, but in the
conveyance of information establishing that the
password exists, that Appellant has possession and
control of the password, and that the password is
authentic, as it will decrypt the encrypted computer
files.” Id. at 555.
Stressing that “[t]he Commonwealth is not
seeking the 64-character password as an investigative
tool, as occurred in Hubbell,” but rather “already
possesses evidence of Appellant’s guilt, which it set
forth in an affidavit of probable cause to obtain a
warrant to search Appellant’s computer,” the dissent
viewed “the compulsion order as requiring the
‘surrender’ of Appellant’s password to decrypt his
computer files”—an act to which “Fisher’s act-ofproduction test” and the foregone conclusion rationale
would apply. Ibid.
The Davis dissent then explained why the
foregone conclusion exception would apply in that
case, contrary to the majority’s analysis. Id. at 556-58.
Notably, the dissent disagreed with the majority’s
focus on the files that would be made accessible if the
password were revealed, reasoning instead
that the foregone conclusion exception as
applied to the facts presented relates not
to the computer files, but to the password
26a

itself. Appellant’s computer files were
not the subject of the compulsion order,
which instead involved only the
password that would act to decrypt those
files. This change of focus is subtle, but
its effect is significant. While the
government’s knowledge of the specific
files contained on Appellant’s computer
hard drive would be central to any claim
asserted pursuant to the Fourth
Amendment, the same is not dispositive
of the instant claim based upon the Fifth
Amendment
right
against
selfincrimination, which focuses upon
whether the evidence compelled, here,
the password, requires the defendant to
provide
incriminating,
testimonial
evidence. . . . This Court should not
alleviate concerns over the potential
overbreadth of a digital search in
violation of Fourth Amendment privacy
concerns by invoking the Fifth
Amendment privilege against selfincrimination, which offers no privacy
protection. . . .
Accordingly, I would align myself
with those jurisdictions that examine the
requisites of the foregone conclusion
exception by focusing only on the
compelled evidence itself, i.e., the
computer password, and not the
decrypted files that the password would
ultimately reveal.
[Id. at 557 (citations omitted) (collecting
cases).]
27a

The Florida District Courts of Appeals have
similarly splintered when considering the focus of the
foregone conclusion analysis and the scope of the
exception. In State v. Stahl, the court opined that “[t]o
know whether providing [a] passcode implies
testimony that is a foregone conclusion, the relevant
question is whether the State has established that it
knows with reasonable particularity that the passcode
exists, is within the accused’s possession or control,
and is authentic.” 206 So. 3d 124, 136 (Fla. Dist. Ct.
App. 2016).
The court held that the exception applied under
the circumstances before it. Id. at 136-37. First, the
court found that “the State established that the phone
could not be searched without entry of a passcode” and
that “[a] passcode therefore must exist,” as well as
that “the phone was [the defendant’s] and therefore
the passcode would be in [the defendant’s]
possession.” Id. at 136. And recognizing that, because
“technology is self-authenticating [such that] no other
means of authentication may exist,” the court also
found that “[i]f the phone or computer is accessible
once the passcode or key has been entered, the
passcode or key is authentic.” Ibid.
In G.A.Q.L. v. State, another Florida District
Court of Appeals viewed the issue differently. 257 So.
3d 1058, 1062-63 (Fla. Dist. Ct. App. 2018). There, the
State sought to compel a minor charged with drunk
driving “to provide the passcode for [her] iPhone and
the password for an iTunes account associated with
it.” Id. at 1060. The court reasoned that “the ‘evidence
sought’ in a password production case such as this is
not the password itself; rather it is the actual files or
evidence on the locked phone.” Id. at 1064. In
declining to apply the foregone conclusion exception,
28a

the court held that the State “must identify what
evidence lies beyond the passcode wall with
reasonable particularity” but “fail[ed] to identify any
specific file locations or even name particular files that
it [sought] from the encrypted, passcode-protected
phone.” Id. at 1064-65; see also Pollard v. State, 287
So. 3d 649, 651 (Fla. Dist. Ct. App. 2019) (holding that
the “proper legal inquiry . . . is whether the state is
seeking to compel a suspect to provide a password that
would allow access to information the state knows is
on the suspect’s cellphone and has described with
reasonable particularity”).
In Commonwealth v. Gelfgatt, the Supreme
Judicial Court of Massachusetts took a slightly
different view of the authentication element of the
foregone conclusion test: “Here, the defendant’s
decryption of his computers does not present an
authentication issue analogous to that arising from a
subpoena for specific documents because he is not
selecting documents and producing them, but merely
entering a password into encryption software.” 11
N.E.3d 605, 615 n.14 (Mass. 2014).
The Gelfgatt court thus found authentication
immaterial and applied the exception in the context of
the issue before it: the prosecution’s motion to compel
a defendant charged with forgery and theft to enter an
encryption key4 in computers lawfully seized by law
enforcement. Id. at 608, 614. The Supreme Judicial
Court held that even though entering an encryption
Encryption keys, like a PIN or passcode, are “essentially a
string of numbers or characters” that are applied “to the
encrypted data using the algorithm of the given encryption
program. By funneling the encrypted data through the
algorithm, the data is rendered ‘readable’ again.” Gelfgatt, 11
N.E.3d at 610 n.9.
4

29a

key would be a testimonial communication, “[t]he
facts that would be conveyed by the defendant through
his act of decryption—his ownership and control of the
computers and their contents, knowledge of the fact of
encryption, and knowledge of the encryption key—
already are known to the government and, thus, are a
‘foregone conclusion.’” Id. at 615.
Likewise, in United States v. Apple MacPro
Computer, the United States Court of Appeals for the
Third Circuit relied on the district court’s fact
findings, and affirmed its determination that the
compelled decryption of the defendant’s devices was
not testimonial within the meaning of the Fifth
Amendment in light of what the police already knew
would be found on those devices. 851 F.3d 238, 248 (3d
Cir. 2017).
The Third Circuit pointedly added, however,
that it was “not concluding that the Government’s
knowledge of the content of the devices is necessarily
the correct focus of the ‘foregone conclusion’ inquiry in
the context of a compelled decryption order.” Id. at 248
n.7. “Instead,” the court noted, “a very sound
argument can be made that the foregone conclusion
doctrine properly focuses on whether the Government
already knows the testimony that is implicit in the act
of production.” Ibid. And the court explained that,
“[i]n this case, the fact known to the government that
is implicit in the act of providing the password for the
devices is ‘I, John Doe, know the password for these
devices.’” Ibid.
Those cases from jurisdictions that have
considered the viability of the foregone conclusion
exception in the context of compelled decryption or
passcode disclosure provide helpful guidance as we
30a

consider the issue before us, a matter of first
impression for this Court.
C.
1.
Considering the foregoing in light of the facts of
this case, we note first that the State correctly asserts
that the lawfully issued search warrants—the
sufficiency of which Andrews does not challenge—give
it the right to the cellphones’ purportedly
incriminating contents as specified in the trial court’s
order. And neither those contents—which are
voluntary, not compelled, communications, see Oregon
v. Elstad, 470 U.S. 298, 306-07 (1985)—nor the 37
phones themselves—which are physical objects, not
testimonial communications, see Pennsylvania v.
Muniz, 496 U.S. 582, 589 (1990)—are protected by the
Fifth
Amendment
privilege
against
selfincrimination. Therefore, production of Andrews’s
cellphones and their contents is not barred; indeed,
had the State succeeded in its efforts to access the
phones, this case would not be before us.
But access to the cellphones’ contents depends
here upon entry of their passcodes. A cellphone’s
passcode is analogous to the combination to a safe, not
a key. Communicating or entering a passcode requires
facts contained within the holder’s mind—the
numbers, letters, or symbols composing the passcode.
It is a testimonial act of production.
2.
The inquiry does not end there, however,
because, if the foregone conclusion exception applies,
production of the passcodes may still be compelled. To
determine the exception’s applicability, we must first
31a

determine to what it might apply—the act of
producing the passcodes, or the act of producing the
cellphones’ contents through the passcodes. To be
consistent with the Supreme Court case law that gave
rise to the exception, we find that the foregone
conclusion test applies to the production of the
passcodes themselves, rather than to the phones’
contents.
The relevant Supreme Court cases explicitly
predicate the applicability of the foregone conclusion
doctrine on the fundamental distinction between the
act of production and the documents to be produced.
The documents may be entitled to no Fifth
Amendment protection at all—and, indeed, they were
not so entitled in Fisher—but the act of producing
them may nevertheless be protected.
In light of the stark distinction the Court has
drawn between the evidentiary object and its
production—a division reinforced even in those cases
where the foregone conclusion exception was held not
to apply—it is problematic to meld the production of
passcodes with the act of producing the contents of the
phones. As the Davis dissent observed, that approach
imports Fourth Amendment privacy principles into a
Fifth Amendment inquiry.
In Fisher, the Supreme Court rejected such
importation when it rejected “the rule against
compelling production of private papers” set forth in
Boyd v. United States, 116 U.S. 616 (1886), to the
extent the Boyd rule “rested on the proposition that
seizures of or subpoenas for ‘mere evidence,’ including
documents, violated the Fourth Amendment and
therefore also transgressed the Fifth.” 425 U.S. at 409.
The Fisher Court noted that “the foundations for the
32a

[Boyd] rule have been washed away” and that “the
prohibition against forcing the production of private
papers has long been a rule searching for a rationale
consistent with the proscriptions of the Fifth
Amendment against compelling a person to give
‘testimony’ that incriminates him.” Ibid. (emphasis
added); see also Pardo, 90 Iowa L. Rev. at 1882 (“Of
the two Amendments, the Fifth Amendment plays the
major role in subpoena doctrine. This is due, in part,
to the absence of a significant role for the Fourth
Amendment.”). We agree with the Davis dissent that
the proper focus here is on the Fifth Amendment and
that the Fourth Amendment’s privacy protections
should not factor into analysis of the Fifth
Amendment’s applicability.
We also share the concerns voiced by other
courts that holding passcodes exempt from production
whereas biometric device locks may be subject to
compulsion creates inconsistent approaches based on
form rather than substance. The distinction becomes
even more problematic when considering that, at least
in some cases, a biometric device lock can be
established only after a passcode is created, calling
into
question
the
testimonial/non-testimonial
distinction in this context. See Kristen M. Jacobsen,
Note, Game of Phones, Data Isn’t Coming: Modern
Mobile Operating System Encryption and its Chilling
Effect on Law Enforcement, 85 Geo. Wash. L. Rev. 566,
582 (2017).
In sum, we view the compelled act of production
in this case to be that of producing the passcodes.
Although that act of production is testimonial, we note
that passcodes are a series of characters without
independent evidentiary significance and are
therefore of “minimal testimonial value”—their value
33a

is limited to communicating the knowledge of the
passcodes. See Apple MacPro, 851 F.3d at 248 n.7.
Thus, although the act of producing the passcodes is
presumptively protected by the Fifth Amendment, its
testimonial value and constitutional protection may
be overcome if the passcodes’ existence, possession,
and authentication are foregone conclusions.
3.
Based on the record before us, we have little
difficulty concluding that compelled production of the
passcodes falls within the foregone conclusion
exception. The State established that the passcodes
exist—they determined the cellphones’ contents are
passcode-protected. Also, the trial court record reveals
that the cellphones were in Andrews’s possession
when seized and that he owned and operated the
cellphones, establishing his knowledge of the
passcodes and that the passcodes enable access to the
cellphones’ contents.5 See Gelfgatt, 11 N.E.3d at 615.
Finally, to the extent that authentication is an issue
in this context, the passcodes self-authenticate by
providing access to the cellphones’ contents. See Stahl,
206 So. 3d at 136; Gelfgatt, 11 N.E.3d at 615 n.14.
The State’s demonstration of the passcodes’
existence, Andrews’s previous possession and
operation of the cellphones, and the passcodes’ selfauthenticating nature render the issue here one of
surrender, not testimony, and the foregone conclusion
exception to the Fifth Amendment privilege against
We give deference to the trial court’s factual findings and view
them as binding upon appeal to the extent that they are
“supported by adequate, substantial and credible evidence.” Rova
Farms Resort, Inc. v. Inv’rs Ins. Co. of Am., 65 N.J. 474, 484
(1974).
5

34a

self-incrimination thus applies. Therefore, the Fifth
Amendment does not protect Andrews from compelled
disclosure of the passcodes to his cellphones.
Although we reach that decision by focusing on
the passcodes, we note that, in this case, we would
reach the same conclusion if we viewed the analysis to
encompass the phones’ contents. Cf. Apple MacPro,
851 F.3d at 248 & n.7. The search warrants and record
evidence of the particular content that the State knew
the phones contained provide ample support for that
determination. In short, this was no “fishing
expedition.” Cf. Hubbell, 530 U.S. at 42; Seo, ___
N.E.3d at ___ (slip op. at 10).
Having concluded that the Fifth Amendment’s
Self-Incrimination Clause does not protect Andrews
from government compelled disclosure of the
cellphones’ passcodes, we turn to state law.
IV.
New Jersey’s privilege against compelled selfincrimination is not expressed in its constitution, but
the privilege “is deeply rooted in this State’s common
law and codified in both statute and an evidence rule.”
State v. Muhammad, 182 N.J. 551, 567 (2005).
We begin with the relevant statutes and rules
of evidence.
1.
In 1960, the Legislature codified the protection
against compelled self-incrimination. See L. 1960, c.
152, §§ 18-19. “N.J.S.A. 2A:84A-18 and -19 define[] the
right against self-incrimination,” but also “set[] forth
specific limitations on that right.” In re Grand Jury
Proceedings of Guarino, 104 N.J. 218, 229 n.6 (1986).
The statute and corresponding rule of evidence
35a

explicitly afford a suspect the “right to refuse to
disclose . . . any matter that will incriminate him or
expose him to a penalty or a forfeiture of his estate.”
N.J.S.A. 2A:84A-19; N.J.R.E. 503 (emphasis added).6
For the right of refusal to apply, therefore, a matter
must first be found to be incriminating.
N.J.S.A. 2A:84A-18 and N.J.R.E. 502, in turn,
define the circumstances under which a matter will be
deemed incriminating:
[A] matter will incriminate (a) if it
constitutes an element of a crime against
this State, or another State or the United
States, or (b) is a circumstance which
with other circumstances would be a
basis for a reasonable inference of the
commission of such a crime, or (c) is a
clue to the discovery of a matter which is
within clauses (a) or (b) above . . . .
Applying that definition, we note first that the
passcodes are obviously not an element of any crime
charged against Andrews. They are only a method of
production of or access to the contents of his
cellphones. Although disclosure of a passcode is
evidence of ownership and control of a cellphone and
its contents, the State has already established both of
those facts here. The passcodes then, as
amalgamations of characters with minimal
evidentiary significance,7 do not themselves support
In addition to providing four enumerated exceptions to the right
to refuse disclosure, see N.J.S.A. 2A:84A-19(a) to (d); N.J.RE.
503(a) to (d), both the statute and the rule specify, through
reference to “Rule 37” (renumbered in 1993 as N.J.R.E. 503), that
the right may be waived.
6

7

Defendant does not claim that the amalgamations of numbers,

36a

an inference that a crime has been committed, nor do
they constitute “clues.”
Said another way, where ownership and control
of an electronic device is not in dispute, its passcode is
generally not substantive information, is not a clue to
an element of or the commission of a crime, and does
not reveal an inference that a crime has been
committed. Cf. State v. Fisher, 395 N.J. Super. 533,
547-48 (App. Div. 2007) (“The disclosure of one’s name
and address does not entail a substantial risk of selfincrimination. ‘It identifies but does not by itself
implicate anyone in criminal conduct.’” (emphasis
added) (quoting California v. Byers, 402 U.S. 424, 434
(1971))).
We turn, therefore, to New Jersey common law.
2.
New Jersey’s common law privilege against
self-incrimination
“generally
parallels
federal
constitutional doctrine,” State v. Chew, 150 N.J. 30, 59
(1997), but also “offers broader protection than its
federal counterpart under the Fifth Amendment,”
Muhammad, 182 N.J. at 568; accord Guarino, 104
N.J. at 229. Our privilege derives from the notion of
personal privacy established by the United States
Supreme Court in Boyd. Guarino, 104 N.J. at 230.
In Boyd, decided in 1886, the Court considered
whether the production of private papers could be
compelled and determined that “a compulsory
production of the private books and papers of the
letters, or symbols constituting his passcodes have independent
evidentiary significance. Such a claim would not, in any event,
change the outcome here in light of the limitations set forth in
the trial court’s disclosure order.

37a

owner of goods sought to be forfeited in such a suit is”
not only “compelling him to be a witness against
himself, within the meaning of the Fifth Amendment
to the Constitution,” but also “is the equivalent of a
search and seizure—and an unreasonable search and
seizure—within the meaning of the Fourth
Amendment.” 116 U.S. at 634-35.
As noted above, the Fisher Court overturned
that rule in the context of federal constitutional
analysis. See 425 U.S. at 407 (explaining that
“[s]everal of Boyd’s express or implicit declarations
have not stood the test of time” and listing examples,
including private documents); see also Doe I, 465 U.S.
at 618 (O’Connor, J., concurring) (“[T]he Fifth
Amendment provides absolutely no protection for the
contents of private papers of any kind. The notion that
the Fifth Amendment protects the privacy of papers
originated in [Boyd], but our decision in [Fisher]
sounded the death knell for Boyd.”); Pardo, 90 Iowa L.
Rev. at 1858 (“Subsequent doctrinal developments
have torpedoed Boyd’s view of the overlap [between
the Fourth and Fifth Amendments] as the Court has
systematically rejected and cabined Boyd’s holding.”).
In Guarino, this Court considered as a matter
of first impression whether Fisher’s overthrow of
Boyd’s private-papers rule would affect New Jersey
law. 104 N.J. at 231. The Guarino Court “affirm[ed]
our belief in the Boyd doctrine and [held] that the New
Jersey common law privilege against selfincrimination protects the individual’s right ‘to a
private enclave where he may lead a private life.’”
Ibid. (quoting Murphy v. Waterfront Comm’n, 378 U.S.
52, 55 (1964)). Thus, despite the shift at the federal
level, our common law privilege continues to consider
whether evidence requested is of an inherently private
38a

nature.
The Guarino Court articulated the relevant test
as follows:
To determine whether the evidence
sought by the government lies within
that sphere of personal privacy a court
must look to the “nature of the evidence.”
Couch v. United States, 409 U.S. 322, 350
(1973) (Marshall, J., dissenting). In the
case of documents, therefore, a court
must look to their contents, not to the
testimonial compulsion involved in the
act of producing them, as the Supreme
Court has done in Fisher and Doe.
Neither Fisher nor Doe recognize the
fundamental
privacy
principles
underlying the New Jersey common-law
privilege against self-incrimination.
Thus, in defining the scope of our
common-law privilege, we decline to
follow the Court’s rationale for its Doe
decision.
[Id. at 231-32.]
In other words, in contrast to federal law which
distinguishes between Fourth and Fifth Amendment
inquiries, New Jersey’s common law views the
privilege against self-incrimination as incorporating
privacy considerations.
Noting as much gives us our answer here. The
constitutional privacy considerations, see U.S. Const.
amend. IV; N.J. Const. art. I, ¶ 7, that would apply to
those portions of the cellphones’ contents of which
disclosure has been ordered have already been
considered and overcome through the unchallenged
39a

search warrants granted in this case. As we noted in
the federal context, whether the inquiry is limited
here to the passcodes or extended to the phones’
contents, the result is the same.
We thus agree with the Appellate Division that
New Jersey’s common law and statutory protections
against compelled self-incrimination do not apply
here.
V.
For the reasons set forth above, neither federal
nor state protections against compelled disclosure
shield Andrews’s passcodes. We therefore affirm the
Order of the Appellate Division compelling Andrews’s
disclosure of the passcodes to his cellphones seized
consistent with the trial court’s order of production,
and remand to the trial court for further proceeding
CHIEF JUSTICE RABNER and JUSTICES
PATTERSON and FERNANDEZ-VINA join in
JUSTICE
SOLOMON’s
opinion.
JUSTICE
LaVECCHIA filed a dissent, in which JUSTICES
ALBIN and TIMPONE join.
JUSTICE LaVECCHIA, dissenting.
In a world where the right to privacy is
constantly shrinking, the Constitution provides
shelter to our innermost thoughts—the contents of our
minds—from the prying eyes of the government. The
right of individuals to be free from the forced
disclosure of the contents of their minds to assist law
enforcement in a criminal investigation, until now,
has been an inviolate principle of our law, protected
by the Fifth Amendment and our state common law.
No United States Supreme Court case presently
40a

requires otherwise. No case from this Court has held
otherwise. That protection deserves utmost respect
and should not be lessened to authorize courts to
compel a defendant to reveal the passcode to a
smartphone so law enforcement can access its secured
contents.
We are at a crossroads in our law. Will we allow
law enforcement—and our courts as their
collaborators—to compel a defendant to disgorge
undisclosed
private
thoughts—presumably
memorized numbers or letters—so that the
government can obtain access to encrypted
smartphones? In my view, compelling the disclosure
of a person’s mental thoughts is anathema to
fundamental principles under our Constitution and
state common law.
The Court’s outcome deviates from steadfast
past principles protective of a defendant’s personal
autonomy in the face of governmental compulsion in a
criminal matter. Those same principles should apply
even in the face of the latest challenge presented by
new technology. Respectfully, I dissent from the
course the Court now takes.
I.
The facts that set up the pivotal legal question
in this matter are these. Defendant Robert Andrews,
a former law enforcement officer in the Essex County
Sheriff’s Department, was suspected of helping a drug
dealer named Quincy Lowery in Lowery’s criminal
scheme. Lowery knew Andrews through their joint
interest in a motorcycle club. Lowery made the
accusations that led to Andrews’s investigation when
Lowery began cooperating with police to gain benefit
after being charged as part of a larger narcotics
41a

investigation.
The State obtained Lowery’s phone by consent.
According to Lowery, although some messages were
deleted, his phone showed telephone calls and
messages between him and Andrews. In the course of
its investigation, the State seized two phones from
Andrews and obtained a warrant to search them after
Andrews refused to consent to a search. One phone
was listed as Andrews’s personal cell phone and
registered to his home address. The other phone was
subscribed to by Kay Transportation, LLC, a business
with which Andrews presumably was associated,
although its address is not listed as Andrews’s home.
Both phones were on him when seized.
Although the scope of the warrant to search the
two phones contains no substantive limit on its face,
its scope was later narrowed to permit a search of the
phone icon and the message icon. There was no
restriction to control with whom a conversation took
place or the time periods within which a message or
phone call took place. The two aforementioned
limitations were imposed by the court during
proceedings on the State’s motion to compel discovery
of the passcodes to the phones.1 According to the State,
it could not then, or even by the time of argument
before our Court, access the phones’ contents, nor
could Apple, the manufacturer of these iPhones, or the
Federal Bureau of Investigation. The State also
represents that no service company has been able to
help it gain access.
Andrews resisted the State’s motion, claiming a
Hereinafter, we refer either to a passcode or personal
identification number (PIN) as the means to unlock and decrypt
these smartphones’ security systems.
1

42a

violation of the Fifth Amendment, as well as New
Jersey common law and law governing privilege, to
wit: N.J.S.A. 2A:84A-19 and Evidence Rules 501 and
503. Also, according to Andrews, the State waited two
years to seek the passcodes; the State does not know
what phone the sought-after information is on or
where it is located; nor does it know with any
particularity what information on the phones will
provide evidence of criminality.
The motion court granted the motion to compel,
and, on interlocutory review, the Appellate Division
affirmed.
We are reviewing the Appellate Division’s
judgment, at which the court arrived by concluding
that the forced disclosure of the passcode is a
testimonial act for purposes of a Fifth Amendment
analysis, but applying an exception (identified as
“foregone conclusion”) to avoid finding a constitutional
violation. The Appellate Division also rejected all
state law arguments that Andrews advanced.
This Court’s majority opinion conveys the
essence of the motion court and Appellate Division
rulings, so, to avoid repetition, I turn directly to why I
believe it to be error to sustain the compelled
disclosure of presumably memorized passcodes to
these smartphones under the Fifth Amendment or
state law.
II.
A.
The Fifth Amendment of the United States
Constitution provides that “[n]o person . . . shall be
compelled in any criminal case to be a witness against
himself.” U.S. Const. amend. V. The privilege extends
43a

beyond compelled incriminatory testimony given in
court to include other forced testimony that “would
furnish a link in the chain of evidence needed to
prosecute the claimant.” United States v. Hubbell, 530
U.S. 27, 38 (2000) (quoting Hoffman v. United States,
341 U.S. 479, 486 (1951)). In the Court’s seminal
decision of Boyd v. United States, it was recognized
that “a compulsory production of the private books
and papers of [an individual] is compelling him to be
a witness against himself, within the meaning of the
Fifth Amendment to the Constitution.” 116 U.S. 616,
634-35 (1886).
Boyd was rooted in a privacy rationale that
prevents “the invasion of [one’s] indefeasible right of
personal security, personal liberty and private
property.” Id. at 630. Its privacy principle was
maintained for decades and reinforced in Couch v.
United States. See 409 U.S. 322, 327 (1973)
(explaining that the Fifth Amendment “respects a
private inner sanctum of individual feeling and
thought”—an inner sanctum that necessarily includes
an individual’s papers and effects to the extent that
the privilege bars their compulsory production and
authentication—and “proscribes state intrusion to
extract self-condemnation”).
The precept that one’s inner thoughts cannot be
compelled to be disclosed because they are protected
by the Fifth Amendment privilege against selfincrimination is still an accepted United States
Supreme Court principle. The Supreme Court’s
continuous assertion of that principle about compelled
production of information stored in the mind, even as
recently as in its 2000 majority opinion in Hubbell,
530 U.S. at 43, provides the polestar in this matter.
Although that polestar has apparently been not as
44a

bright for some courts when addressing law
enforcement efforts to force an individual to reveal
passcodes for encrypted devices like the smartphones
here, creating a divide in the jurisprudence in the
federal and state courts, I see no basis to depart from
that core Fifth Amendment principle.
The divide is rooted in applications of the
altered analysis developed by the Supreme Court
during the 1970s and 1980s, concerning the
production of physical documents, leading to, among
other things, a one-time application of an “exception”
called “foregone conclusion.” Although that exception
has not been applied again by the Supreme Court, the
aforementioned jurisprudential split exists because
some courts have expansively, and in various ways,
applied that concept to excuse alleged violations of the
privilege against self-incrimination in applications of
forced disclosure of mentally cached passcodes to
bypass security for new technology. But, for me, there
is no real difference between forcing one to divulge the
mentally stored combination of a safe—the very
example that the Supreme Court has used, more than
once, as a step too far in ordering a defendant to assist
in his or her own prosecution—and forcing one to
divulge the passcode to a smartphone. A recitation of
that relevant Supreme Court precedent follows.
B.
It is well established that to fall within the selfincrimination privilege, an individual must show that
the evidence is compelled, testimonial, and selfincriminating. Hubbell, 530 U.S. at 34-35. An order to
compel a defendant to produce documents implicates
the Fifth Amendment and, originally, the Supreme
Court interpreted the Fifth Amendment as protecting
45a

all private papers. Boyd, 116 U.S. at 630-32. That was
altered in Fisher v. United States, 425 U.S. 391 (1976).
With its decision in Fisher, the Court shifted
from a blanket protection for private papers to a new
paradigm for evaluating a self-incrimination claim
involving the production of existing documents—
documents which, because they already existed, were
not themselves testimonial. Id. at 409-10. The
analysis thus turned from the content of the document
to an examination of the act of production of
documents, hence becoming known as the act of
production doctrine. The Court’s Fisher decision held
that the act of producing documents in response to a
government subpoena could be testimonial if the act
of production used the contents of the mind and
revealed, either explicitly or implicitly, the existence,
possession and control, or authenticity of the physical
documents. Id. at 410-13. Thus, the facts in Fisher
require attention.
Fisher involved consolidated cases in which the
defendants, in each, were involved in an IRS
investigation into possible civil or criminal federal tax
liability. Id. at 393-94. The taxpayers retrieved
documents from their accountants related to the
accountants’ preparation of their tax returns, which
the taxpayers then shared with their lawyers. Id. at
394. When the lawyers were served with summonses
from the IRS directing them to produce the accounting
documents in question, they declined. Id. at 394-95.
After differing results in the circuit courts, the
Supreme Court granted certiorari.
Focusing on the act of “‘physical or moral
compulsion’ exerted on the person asserting the
privilege,” the Court did not find the necessary
46a

personal compulsion and declined to extend Fifth
Amendment protection to the compelled production of
the documents. Id. at 397 (quoting Perlman v. United
States, 247 U.S. 7, 15 (1918); other citations omitted).
The Court observed that the documents could be
obtained without action from the accused, adding that
the subpoena to the taxpayers’ lawyer had no
authority to compel the taxpayer to provide
incriminating information against himself. Id. at 398
(“It is extortion of information from the accused
himself that offends our sense of justice.” (quoting
Couch, 409 U.S. at 328)). The documents in question
were not prepared by the taxpayers, did not contain
testimonial declarations by the taxpayers, and were
prepared in an entirely voluntary manner. Id. at 409.
Because production of the documents would not
“compel the taxpayer to restate, repeat, or affirm” the
contents of those documents, the Court determined
that compulsion to produce them was not testimonial.
Ibid.
Importantly, the Court acknowledged that
whether the Fifth Amendment lends its protection to
the documents in question could not be answered
without considering whether responding to a
subpoena is itself communicative. Id. at 410.
“Compliance with the subpoena tacitly concedes the
existence of the papers demanded and their
possession or control by the taxpayer. It also would
indicate the taxpayer’s belief that the papers are those
described in the subpoena.” Ibid. However, that was
not found to exist on the facts presented, as the
subpoena was served on the lawyer. Id. at 410-11.
The Court’s new framework and its application
in Fisher led the Court to establish the foregone
conclusion doctrine. That doctrine was described as
47a

providing that if the government can demonstrate
that the existence, possession or control, and
authenticity of the identified documents or materials
it seeks are a foregone conclusion, then the act of
production itself “adds little or nothing to the sum
total of the Government’s information” because the
government is not relying on the veracity of the
statement implicit in the act of production to prove the
existence, possession or control, or authenticity of the
documents. Ibid. Ultimately, the Court stated, “[t]he
question is not of testimony but surrender.” Id. at 411
(quoting In re Harris, 221 U.S. 274, 279 (1911)).
The Court expanded on the notion that the
response to a subpoena itself could be incriminating in
United States v. Doe (Doe I), 465 U.S. 605 (1984).
There the Court had to determine whether bank
statements, phone records, and other business records
of a sole proprietor of a business could be compelled
for production. Id. at 606-07. Doe was the owner of
several sole proprietorships. Id. at 606. During the
course of investigating “corruption in the awarding of
county and municipal contracts,” a grand jury issued
subpoenas attempting to compel Doe to provide
telephone, business, and bank records pertaining to
his companies. Id. at 606-07. Doe filed a motion in the
District Court of New Jersey requesting that the
subpoenas be quashed, and the court granted the
motion, stating that “the relevant inquiry is . . .
whether the act of producing the documents has
communicative aspects which warrant Fifth
Amendment protection.” Id. at 607-08 (quoting In re
Grand Jury Empanelled March 19, 1980, 541 F. Supp.
1, 3 (D.N.J. 1981)). The United States Court of
Appeals for the Third Circuit affirmed. Id. at 608.

48a

The Supreme Court held that such production
is protected by the Fifth Amendment because the
government was not certain the defendant actually
possessed and/or controlled those documents. The
Court again noted that “[a]lthough the contents of a
document may not be privileged, the act of producing
the document may be.” Id. at 612. Producing
documents would indicate that the defendant
possesses them, controls them, and believes them to
be the documents requested. Id. at 613 & n.11. Relying
on the Third Circuit’s assessment that there was
“nothing in the record that would indicate that the
United States knows, as a certainty, that each of the
myriad documents demanded by the five subpoenas in
fact is in the [defendant’s] possession or subject to his
control,” id. at 613 n.12 (quoting In re Grand Jury
Empanelled March 19, 1980, 680 F.2d 327, 335 (3d
Cir. 1982)), the Court upheld the determination that
the act of producing the documents was testimonial,
id. at 614. As the Court emphasized, “the
Government, unable to prove that the subpoenaed
documents exist—or that [Doe] even is somehow
connected
to
the
business
entities
under
investigation—is attempting to compensate for its
lack of knowledge by requiring [Doe] to become, in
effect, the primary informant against himself.” Id. at
613 n.12 (quoting In re Grand Jury Empanelled
March 19, 1980, 680 F.2d at 335). Ultimately, the
Court held that although the contents of the
underlying documents were not privileged, the State
could not compel defendant to provide them because
“[t]he act of producing the documents at issue in this
case is privileged and cannot be compelled without a
statutory grant of use immunity pursuant to 18 U.S.C.
§§ 6002 and 6003.” Id. at 617.
49a

Completing the trilogy of cases in this vein, four
years later, the Court issued a decision in the case
known colloquially as Doe II. Doe v. United States, 487
U.S. 201 (1988). There, the Court answered the
question of “whether a court order compelling a target
of a grand jury investigation to authorize foreign
banks to disclose records of his accounts, without
identifying those documents or acknowledging their
existence, violates the target’s Fifth Amendment
privilege against self-incrimination.” Id. at 202. Doe
was the target of a federal grand jury investigation
into suspected “fraudulent manipulation of oil cargoes
and receipt of unreported income.” Ibid. The grand
jury issued a subpoena and Doe was directed to
produce records of transactions at three specific banks
in Bermuda and the Cayman Islands. Ibid. Doe
produced some records, but when asked about
whether there were other records and where they
might be, he invoked his Fifth Amendment privilege
against self-incrimination. Id. at 202-03. When Doe
invoked his Fifth Amendment rights, the United
States branches of the foreign banks were also served
with subpoenas attempting to compel them to produce
the responsive documents. Id. at 203. Because the
banks were subject to their governments’ privacy and
secrecy laws and refused to comply with the subpoena,
the government attempted to compel Doe to sign
twelve forms that would permit release by the banks
of any records relating to twelve foreign accounts the
Government “knew or suspected” Doe controlled. Ibid.
The Supreme Court upheld the subpoena’s
enforcement, refining the issue to be whether
compelling Doe to sign the form was a “testimonial
communication.” Id. at 207. The Court’s analysis
emphasized that “[i]t is consistent with the history of
50a

and the policies underlying the Self- Incrimination
Clause to hold that the privilege may be asserted only
to resist compelled explicit or implicit disclosures of
incriminating information.” Id. at 212.
Scrutinizing the form the defendant was forced
to sign, the Court noted that it was “carefully drafted
not to make reference to a specific account,” and did
“not acknowledge that an account in a foreign
financial institution is in existence or that it is
controlled by petitioner,” “indicate whether
documents or any other information relating to
petitioner are present at the foreign bank, assuming
that such an account does exist,” or “even identify the
relevant bank.” Id. at 215. The Court concluded that
the act of signing the form was not testimonial. Ibid.
The Court was untroubled by Doe being compelled to
sign the form because “[b]y signing the form, Doe
makes no statement, explicit or implicit, regarding the
existence of a foreign bank account or his control over
any such account.” Id. at 215-16. The Court concluded
that the form did not direct the government to
evidence; rather, it simply provided access to evidence
if the government could independently find it. Id. at
215.
In Doe II, there is passing reference to the
foregone conclusion doctrine, but it is not used in the
Court’s analysis. Ibid. Indeed, it has never again been
used by the Supreme Court, and was even questioned
in a later case, as well as in separate opinions, making
Doe II the end point of Supreme Court cases leaving
the door open to the use—let alone expansion—of that
doctrine. See Hubbell, 530 U.S. at 44, 49-50; see also
Seo v. State, ___ N.E.3d ___, ___ (slip op. at 7) (Ind.
2020) (similarly observing that “Fisher was the first,
and only, Supreme Court decision to find that the
51a

testimony implicit in an act of production was a
foregone conclusion. In contrast, the government
failed to make that showing in the other two relevant
decisions: [Doe I and Hubbell].”).
Further—and, importantly, foreshadowing a
seeming retrenchment of that troika of Fifth
Amendment cases—Justice Stevens disagreed with
the Court’s decision in Doe II. 487 U.S. at 219-21
(Stevens, J., dissenting). He aptly noted:
A defendant can be compelled to produce
material evidence that is incriminating.
Fingerprints, blood samples, voice
exemplars, handwriting specimens, or
other items of physical evidence may be
extracted from a defendant against his
will. But can he be compelled to use his
mind to assist the prosecution in
convicting him of a crime? I think not. He
may in some cases be forced to surrender
a key to a strongbox containing
incriminating documents, but I do not
believe he can be compelled to reveal the
combination to his wall safe—by word or
deed.
[Id. at 219.]
Justice Stevens’s analogy to disclosure of a
memorized combination to a wall safe harkened back
to the basic principle that the contents of one’s mind
are protected from compulsion under the Fifth
Amendment.
Borrowing from the sound logic of that dissent
in Doe II, the Court in Hubbell paused in continuing
down this act-of-production line of cases. In Hubbell,
the Court considered “whether the Fifth Amendment
52a

privilege protects a witness from being compelled to
disclose the existence of incriminating documents that
the Government is unable to describe with reasonable
particularity,” and whether the produced documents
can be used to “prepare criminal charges” “if the
witness produces such documents pursuant to a grant
of immunity.” 530 U.S. at 29-30 (footnote omitted).
Hubbell, the witness in question, had pled
guilty to mail fraud and tax evasion relating to his
billing practices while at a law firm in Arkansas. Id.
at 30. In his plea agreement, Hubbell agreed to
cooperate in an investigation into claims of federal law
violation relating to the Whitewater Development
Corporation. Ibid. While serving the sentence imposed
as a result of his plea agreement, Hubbell was served
with a subpoena for several categories of documents.
Id. at 31. He invoked his Fifth Amendment privilege
and refused to comply. Ibid.
After he was offered immunity pursuant to 18
U.S.C. § 6003(a), Hubbell produced thousands of
pages of requested documents and records. Ibid. Those
documents led to incriminating information that
spawned a second prosecution for unrelated wire
fraud and other tax-related crimes. Ibid. The District
Court dismissed the indictment, in part because the
“use of the subpoenaed documents violated [18 U.S.C.]
§ 6002 because all of the evidence” that would be
offered against Hubbell would be derived “from the
testimonial aspects of respondent’s immunized act of
producing those documents.” Id. at 31-32. The Court
of Appeals for the District of Columbia vacated the
judgment and remanded for further proceedings. Id.
at 32.

53a

In the Supreme Court’s analysis, written by
Justice Stevens, the question was framed as whether
“incriminating information derived directly or
indirectly from the compelled testimony” was
protected by the Fifth Amendment. Id. at 38. In fact,
more narrowly, the Government was not intending to
use the act of producing the documents and records
against defendant at trial, but rather the information
the underlying documents conveyed. Id. at 41.
The Court concluded that the government had
made “derivative use” of the material, and that “[i]t is
apparent from the text of the subpoena itself that the
prosecutor needed respondent’s assistance both to
identify potential sources of information and to
produce those sources.” Ibid. The Court distinguished
its analysis from that used in Fisher, noting:
Whatever the scope of this “foregone
conclusion” rationale, the facts of this
case plainly fall outside of it. While in
Fisher the Government already knew
that the documents were in the
attorneys’
possession
and
could
independently confirm their existence
and
authenticity
through
the
accountants who created them, here the
Government has not shown that it had
any prior knowledge of either the
existence or the whereabouts of the
13,120 pages of documents ultimately
produced
by
respondent.
The
Government cannot cure this deficiency
through the overbroad argument that a
businessman such as respondent will
always possess general business and tax
records that fall within the broad
54a

categories described in this subpoena.
[Id. at 44-45 (emphasis added).]
The Court ultimately determined “that the
constitutional privilege against self-incrimination
protects the target of a grand jury investigation from
being compelled to answer questions designed to elicit
information about the existence of sources of
potentially incriminating evidence.” Id. at 43. Given
the breadth and depth of the requested documents,
the Court concluded that the defendant’s response
was the “functional equivalent of the preparation of an
answer to either a detailed written interrogatory or a
series of oral questions at a discovery deposition,” id.
at 41-42, and it was “abundantly clear” to the Court
that ubbell’s compelled production of the documents
was the catalyst to his eventual second prosecution,
id. at 42. Notably, the Court stated that the
government’s “fishing expedition,” id. at 42, was more
akin to compelling someone to provide the
combination to a safe than the key to a lockbox, id. at
43. Thus, the Court resorted once again to the
invariable Fifth Amendment protection that must
shield inquisitions into mentally cached information
or thought processes. Ibid.2

In a separate opinion, Justice Thomas questioned whether the
act-of-production doctrine originating in Fisher is itself
consistent with the original meaning of the self-incrimination
protection enshrined in the Fifth Amendment. Hubbell, 530 U.S.
at 49 (Thomas, J., concurring). He expressed, joined by the late
Justice Scalia, a willingness to reconsider that decision’s
narrowing of the protection against compelled evidence in light
of the Fifth Amendment’s historical meaning and scope. Ibid.
However, because the issue was not raised by the parties, the
concurring Justices declined to address at that time whether the
Fifth Amendment has “a broader reach than Fisher holds,”

2

55a

C.
From those Supreme Court decisions involving
production of physical documents, state courts and the
federal circuits differ in their efforts to apply the actof-production doctrine to the forced disclosure of a PIN
or password to bypass security and obtain access to
the contents of an encrypted device.
There appears near unanimity in recognizing
that in compelling disclosure of a passcode the
compelled individual must use his or her mind and,
further, that the act provides at least inferences about
the existence, possession or control, and authenticity
of the material or documents sought by the
government. Seo, ___ N.E.3d at ___, ___ n.3 (slip op. at
8-9, 9 n.3). Thus, the cases agree that an act of
production is involved in compelling disclosure of a
passcode.
The decisions splinter, however, over what the
compelled act produces, and that decision relatedly
affects what those courts hold the government must
establish in order for the foregone conclusion
exception to apply. Some courts hold that the order for
decryption seeks only the password. See, e.g., State v.
Stahl, 206 So. 3d 124, 133 (Fla. Dist. Ct. App. 2016);
Commonwealth v. Jones, 117 N.E.3d 702, 714 (Mass.
2019); see also United States v. Apple MacPro
Comput., 851 F.3d 238, 248 n.7 (3d Cir. 2017)
(suggesting without deciding that the password is the
proper focus). Other courts find such orders
indistinguishable from compelling production of the
documents and materials housed on the encrypted
device. See, e.g., United States v. Doe (In re Grand
although suggesting that it may. Id. at 56.

56a

Jury Subpoena Duces Tecum dated March 25, 2011),
670 F.3d 1335, 1346 (11th Cir. 2012) (analogizing
decryption to the production of a combination to a safe
because it uses the contents of the defendant’s mind
and implies factual statements about the defendant’s
connection to the contents on encrypted devices);
G.A.Q.L. v. State, 257 So. 3d 1058, 1062 (Fla. Dist. Ct.
App. 2018); Seo, ___ N.E.3d at ___ (slip op. at 8)
(describing the act of production as continuing to link
the means of production to the documents ultimately
produced).
In Seo v. State, the Indiana Supreme Court
recently addressed the constitutional implications of
compelling an individual to produce the passcode to
his or her locked smartphone, holding such
compulsion would violate one’s Fifth Amendment
privilege against self-incrimination. ___ N.E.3d at ___
(slip op. at 2). While Seo addressed the Fifth
Amendment question with respect to a subpoena that
would have allowed an unlimited search of the
contents of a woman’s phone, the court in Seo
highlighted the inapplicability of the foregone
conclusion doctrine in the context of smartphones
generally. Id. at ___ (slip op. at 9-17).
The Seo opinion astutely observed that
“production of an unlocked smartphone is unlike the
compelled production of specific business documents.”
Id. at ___ (slip op. at 11). The Seo court noted that even
the Supreme Court in Fisher recognized the difference
between subpoenas that sought business “documents
of unquestionable relevance to the tax investigation,”
and subpoenas of more personal documents, which
might present “[s]pecial problems of privacy.” Id. at
___ (slip op. at 11) (alteration in original) (quoting
Fisher, 425 U.S. at 401 n.7). Importantly, the Seo
57a

decision conveys the Indiana Supreme Court’s reasons
for being wary of employing the foregone conclusion
exception, citing among those reasons both its
questionable viability and that it was crafted for a
different context. Id. at ___ (slip op. at 11-17). The Seo
court ultimately found that it would be “imprudent” to
adopt the foregone conclusion exception to permit the
State to compel a defendant to disclose a smartphone’s
passcode. Id. at ___ (slip op. at 14). It is not the only
recent case to have not walked down the “foregone
conclusion” path. See id. at ___ n.7 (slip op. at 16 n.7).
The United States Supreme Court has not
addressed the differences that have developed from
courts applying the act-of-production analytic
framework—developed in the context of the compelled
production of books, records, and physical
documents—to encrypted devices.3

Decisions splintering over the testimonial nature of the
compelled disclosure of passcodes have fostered further splits
concerning compelled use of biometrics to decrypt devices, with
courts’ views about the testimonial nature of compelled
disclosure of a passcode informing the analysis regarding
biometrics. Compare In re Search of a Residence in Oakland,
Cal., 354 F. Supp. 3d 1010, 1015-16 (N.D. Cal. 2019) (finding that
compelled production of biometric data was testimonial for Fifth
Amendment purposes in the context of a warrant application
seeking permission to compel fingerprint or facial recognition
device unlocking), and In re Application for a Search Warrant,
236 F. Supp. 3d 1066, 1073-74 (N.D. Ill. 2017) (same as to forced
fingerprint device unlocking), with In re the Search of: A White
Google Pixel 3 XL Cellphone in a Black Incipio Case, 398 F. Supp.
3d 785, 793-94 (D. Idaho 2019) (finding that a forced application
of a fingerprint to unlock a device was not testimonial for Fifth
Amendment purposes), and In re Search of [Redacted]
Washington, D.C., 317 F. Supp. 3d 523, 539 (D.D.C. 2018) (same).
3

58a

D.
Until the Court clarifies its intentions about
application of the act of production doctrine in this
setting, I would follow the only sure directional signs
the Court has given—the same themes I introduced at
the outset of this analytic section.
First, the forced disclosure of mentally cached
information that represents the contents of one’s mind
is violative of the Fifth Amendment’s protections. The
Court’s recurring metaphor of the combination to a
safe, unmistakably included in the majority opinion in
Hubbell, harkens back to the classic notion, first
expressed in Boyd, that the Fifth Amendment has
roots in protection of personal autonomy from
government compulsion. It signals, for me, the Court’s
unwillingness to hold that the Fifth Amendment
permits the government to compel one’s inner held
thoughts in order to assist in one’s own prosecution.
The memorized passcode is classic contents-of-mind
material. See Seo, ___ N.E.3d ___ (slip op. at 9). It is
simply off limits under the Fifth Amendment.
To the extent that Fisher created an act-ofproduction analysis for use in considering, from a
Fifth Amendment perspective, the government’s
efforts to obtain already existing physical documents,
I would not expansively apply that precedent to
permit it to force disclosure of the contents of one’s
mind, as is required in the application involved in this
matter. The government should not be permitted to
force defendant to cooperate in his own prosecution by
obtaining, through his entry of passcodes, access to
information the government believes will be
incriminating. The government may have a search
warrant for the phones’ contents, and it may
59a

physically have the phones. But, like the wall safe, the
government has to obtain access in a way other than
compelling defendant into providing the PIN or
passcode to obtain access. That testimonial act—an
act of compelled cooperation in his own prosecution—
is a step beyond what Hubbell says is required. See
Hubbell, 530 U.S. at 43-44.
Second, I would not adopt and apply the
foregone conclusion exception, which, at last word, the
Court has declined to use and has questioned what it
even means. See id. at 44, 49-50. In my judgment, the
single use of the descriptor “foregone conclusion” in
reference to the documents the Supreme Court found
unprotected by the self-incrimination privilege in
Fisher does not merit its current status as a “doctrine”
deserving of expansive use outside of the original tax
document setting in which it was first mentioned. Cf.
Seo, ___ N.E.3d ___ (slip op. at 15-16) (questioning the
exception’s viability outside of its original context).4
The Indiana Supreme Court gave sound reasons for being wary
about the exception’s viability, let alone expanding it.
4

The
limited,
and
questionable,
application of the foregone conclusion exception
also cautions against extending it further.
Indeed, Fisher was decided over forty-four years
ago, and it remains the lone U.S. Supreme Court
decision to find that the exception applied. In the
intervening years, the Court has discussed it
twice and in only one context: in grand jury
proceedings when a subpoena compelled the
production of business and financial records.
During this same time period, legal scholars—
including three current members of the Supreme
Court—have
wondered
whether
Fisher
interpreted the Fifth Amendment too narrowly,
calling into question the viability of the foregone
conclusion exception itself. See Hubbell, 530 U.S.

60a

The exception’s only use by the Court in Fisher
does not resemble its application to information on an
encrypted device. Id. at ___ (slip op. at. 11- 12). The
exception originated in the setting of the government
ferreting out already existing, physical documents
held by another person. It requires expansion to be
used here. Its lineage does not merit its use in the
present context of overriding the privilege to keep
one’s thoughts and recollections to one’s self and not
turn that over to the government for use in easing its
investigatory efforts. Other courts also have recently
declined to apply it or have not even acknowledged it
when addressing how the Fifth Amendment applies to
compelled disclosure of the passcode to an encrypted
smartphone. See, e.g., Commonwealth v. Davis, 220
A.3d 534, 550 (Pa. 2019) and other cases cited in Seo,
at 49-56 (Thomas, J., concurring); Carpenter v.
United States, 585 U.S. ___, 138 S. Ct. 2206, 2271
(2018) (Gorsuch, J., dissenting); Samuel A. Alito,
Jr., Documents and the Privilege Against SelfIncrimination, 48 U. Pitt. L. Rev. 27, 45- 51
(1986); see also, e.g., Bryan H. Choi, The Privilege
Against Cellphone Incrimination, 97 Tex. L. Rev.
Online 73, 74 n.6 (2019); Richard A. Nagareda,
Compulsion “To Be a Witness” and the
Resurrection of Boyd, 74 N.Y.U. L. Rev. 1575,
1606 & nn.124-25 (1999); Robert Heidt, The Fifth
Amendment Privilege and Documents—Cutting
Fisher’s Tangled Line, 49 Mo. L. Rev. 439, 443
(1984). Regardless of the foregone conclusion
exception’s viability, it seems imprudent to
extend it beyond its one-time application. Cf.
Silverman v. United States, 365 U.S. 505, 510,
512 (1961) (deciding not to extend the rationale
of a factually distinct case “by even a fraction of
an inch”).
[Seo, ___ N.E.3d at ___ (slip op. at 15-16).]

61a

___ N.E.3d at ___ (slip op. at 16 n.7).5
Rather, I would adhere to the Court’s bright
line: the contents of one’s mind are not available for
use by the government in its effort to prosecute an
individual. The private thoughts, ideas, and
information retained in one’s mind are not subject to
compelled recollection and disgorgement for use in a
person’s own prosecution. That practice, reminiscent
of an inquisition, was abolished by the Fifth
Amendment’s inclusion in the Constitution and was
as certainly forbidden through the common law of this
state from its earliest times.
In sum, I would hold that the Fifth Amendment
was properly invoked by defendant when resisting the
State’s motion to compel the passcodes. In my view, it
is error to affirm the Appellate Division judgment.
Further, I would not rest that determination on the
application of federal constitutional principles alone.
Defendant also claims he is protected under
State law from being compelled by judicial order to
disclose the passcode to decrypt the secured contents
of phones seized in the government’s investigation of
him. In my view, his claim is right.

See, e.g., United States v. Jimenez, 419 F. Supp. 3d 232, 233 (D.
Mass. 2020) (denying the government’s motion to compel the
defendant to disclose his smartphone passcode because it “would
force defendant to ‘disclose the contents of his own mind’”); In re
Search of a Residence in Oakland, Cal., 354 F. Supp. 3d at 101618 (relying on the Supreme Court’s proposition in Riley v.
California, 573 U.S. 373, 393-97 (2014), that phones are entitled
to greater privacy protection in concluding that the foregone
conclusion doctrine should not be applied in the context of mobile
phones).
5

62a

III.
A.
New Jersey has historically provided broad
protection against self-incrimination through our
common law, rules of evidence, and statutes. This
expansive protection has been recognized as exceeding
that which is provided under federal law. See State v.
Hartley, 103 N.J. 252, 286 (1986). And we have never
suggested any malleability in the steadfastly rigorous
protection of the privilege because it is not codified in
the State Constitution—an act viewed as unnecessary
in light of the revered status of the privilege from the
earliest of days in New Jersey. State v. Fary, 19 N.J.
431, 434-35 (1955); see also State v. Zdanowicz, 69
N.J.L. 619, 622 (E. & A. 1903).6
In making an observation about the uncertainty of the
Fifth Amendment’s reach, our predecessor Court
observed:
6

It is not deemed necessary to consider whether
this [Fifth Amendment] constitutional provision
will operate to prevent any state, if it is
conceivable that any state should desire to do so,
from enacting laws establishing a practice in
criminal cases such as is in vogue in countries not
following the course of the common law, or
permitting an accused person to be subject to
such compulsion as may be exerted by harassing
examination or other means, forcible or
practically forcible, compelling him to testify
against himself, or to prevent the adoption by any
state of a practice which might produce that
effect.
Although we have not deemed it necessary to
insert in our constitution this prohibitive
provision, the common law doctrine, unaltered by
legislation or by lax practice, is by us deemed to

63a

Under our present Rules of Evidence and their
counterparts codified in law, the protection against
self-incrimination provides: “Every person has in any
criminal action in which he is an accused a right not
to be called as a witness and not to testify.” N.J.S.A.
2A:84A-17(1); N.J.R.E. 501. New Jersey’s privilege
applies “in any . . . proceeding . . . where the answers
might tend to [be] incriminat[ing].” State v. P.Z, 152
N.J. 86, 101 (1997) (quoting Minnesota v. Murphy, 465
U.S. 420, 426 (1984)). Under N.J.S.A 2A:84A-18, “a
matter will incriminate,” if, in relevant part,
(a) . . . it constitutes an element of a crime
. . . , or (b) is a circumstance which with
other circumstances would be a basis for
a reasonable inference of the commission
of such a crime, or (c) is a clue to the
discovery of a matter which is within
clauses (a) or (b) above; provided, a
matter will not be held to incriminate if
it clearly appears that the witness has no
reasonable cause to apprehend a
criminal prosecution.
The history of New Jersey’s common law
protection against self-incrimination dates back to
colonial times, as has been summarized by this Court
before.
The privilege of a witness against being
compelled to incriminate himself, of
ancient origin, is precious to free men as
a restraint against high-handed and
have its full force. In New Jersey, no person can
be compelled to be a witness against himself.
[Zdanowicz, 69 N.J.L. at 622.]

64a

arrogant inquisitorial practices. 8
Wigmore, Evidence 276 et seq. (3d ed.
1940); Edwin S. Corwin, The Supreme
Court’s Construction of the SelfIncrimination Clause, 29 Mich. L. Rev. 1,
3-9 (1930). It has survived centuries of
hot controversy periodically rekindled
when there is popular impatience that its
protection sometimes allows the guilty to
escape. It has endured as a wise and
necessary protection of the individual
against arbitrary power; the price of
occasional failures of justice under its
protection is paid in the larger interest of
the general personal security. “The
wisdom of the exemption has never been
universally assented to since the days of
Bentham, many doubt it today, and it is
best defended not as an unchangeable
principle of universal justice, but a law
proved by experience to be expedient.”
Twining v. New Jersey, 211 U.S. 78, 113
(1908). Although not written into our
State Constitution (as it is in the Fifth
Amendment to the Federal Constitution
and in the constitutions of all our sister
states except Iowa), and not given even
statutory expression until it appeared as
section 4 of the Evidence Act of 1855, L.
1855, c. 136, § 4, ¶ 668, now N.J.S.[A.]
2A:81-5, the privilege has been firmly
established in New Jersey since our
beginnings as a State. Zdanowicz, 69
N.J.L. 619; State v. Miller, 71 N.J.L. 527
(E. & A. 1905); Fries v. Brugler, 12 N.J.L.
79 (Sup. Ct. 1830); In re Vince, 2 N.J. 443
65a

(1949); In re Pillo, 11 N.J. 8 (1952).
[Fary, 19 N.J. at 434-35.]
The right has always been regarded as critical.
State v. Vincenty, 237 N.J. 122, 132 (2019) (“The
importance of the common law right ‘is not diminished
by the lack of specific constitutional articulation.’”
(quoting P.Z., 152 N.J. at 101)). Our State’s broad
embrace of providing robust protection against selfincrimination traces back to the early founders’
repugnance to any practice that compelled an
individual to cooperate with the authorities in
securing his or her own conviction. In an oft-quoted
passage from an opinion Justice Brennan wrote for
this Court, he explained the underlying rationale for
the common law privilege developed in New Jersey:
In modern concept its wide acceptance
and broad interpretation rest on the view
that compelling a person to convict
himself of crime is “contrary to the
principles of a free government” and
“abhorrent to the instincts of an
American,” that while such a coercive
practice “may suit the purposes of
despotic power, . . . it cannot abide the
pure atmosphere of political liberty and
personal freedom.”
[In re Pillo, 11 N.J. 8, 15-16 (1952) (quoting
Boyd, 116 U.S. at 632).]
Tellingly, Justice Brennan’s Pillo opinion
incorporated Boyd’s themes in the fulsome
enforcement of the right against self-incrimination.
That emphasis on the importance of the privacy
themes of the privilege was repeated by Justice
Brennan while a member of the United States
66a

Supreme Court. When the Supreme Court’s majority
opinion in Fisher, written by Justice White, distanced
itself from Boyd and moved to its act-of-production
analysis, Justice Brennan voiced concern about the
new direction, specifically his worry that the approach
would not do justice to privacy. 425 U.S. at 416-17
(Brennan, J., concurring) (emphasizing that
“precedent[] and history teach” that personal privacy
is “a factor controlling in part . . . the scope of the
privilege,” not a “byproduct,” and that “the scope of the
privilege . . . [must have] the reach necessary to
protect the cherished value of privacy which it
safeguards”).
That backdrop is important to how I believe this
Court should consider Boyd’s significance in this
matter. According to our last word on the subject, this
Court never let loose its embrace of Boyd, which I
believe should continue to guide us in the present
matter.
B.
In In re Grand Jury Proceedings of Guarino,
104 N.J. 218 (1986), this Court surveyed the Supreme
Court’s newly developed act-of-production case law in
Fisher and Doe I and, although our Court’s outcome in
that matter was split, this Court’s view of the new case
law was not. Both the majority and dissenting
opinions said that the common law of New Jersey
embraced Boyd’s approach and declared that Boyd
was most in keeping with the underlying rationale for
our state’s common law privilege against selfincrimination. In fact, both specifically said that
Fisher and Doe I were not consistent with our
jurisprudence that provided a higher protection
against government compelled self-incrimination and
67a

would not be adopted for use in this State. Then, as
noted, the two opinions differed in their outcomes.
The majority stated that it was hewing to an
assessment of the privacy interest in the ultimate
contents of the produced documents, reinforcing its
commitment to Boyd’s protection of private
documents. Id. at 231. Focusing on the contents of the
documents sought by the government, the majority
opinion concluded that the business records of a sole
proprietor were not in a specific zone of privacy that
deserved protection. Id. at 232. The Court noted that
the documents had been disclosed to third parties and
were not an extension of private or intimate aspects of
one’s life, which were, in the majority’s view, the type
of document that the privilege protected. Id. at 23233.
The dissent disagreed with the majority’s
analysis as not properly adhering to Boyd’s principles,
which the majority was expressly reinforcing as the
doctrine of this State. And, importantly, the dissent
took the occasion to deconstruct the analytic structure
of the new federal paradigm, criticizing it for ignoring
the privacy roots of Boyd that had been “sedulously
adhered to” for decades and factored into the
“determin[ation] whether individuals could withhold
the production, as well as the contents, of
incriminating personal documents.” Id. at 239-40
(Handler, J., dissenting). For the dissent, the federal
law’s turn was out of sync with the history and import
of the Fifth Amendment’s protection against
compelled incrimination, and the dissent explained in
detail why adherence to our common law’s approach
required adherence to Boyd’s recognition of privacy
and personal autonomy. Id. at 243.
68a

In sum, both opinions in Guarino espoused
fidelity to Boyd’s acknowledgment that the privilege
against self-incrimination must protect the integrity
and privacy of the individual. Yet, I believe that my
colleagues in the majority misconstrue Guarino’s
import when concluding that the Court’s holding
today stays true to its principles.
In continuing New Jersey’s steadfast protection
of personal privacy and autonomy, Guarino stands for
the proposition that Boyd remains valid in that
respect in our jurisdiction. Indeed, it is one of many
proud decisions in New Jersey that have adhered to
our belief, in self-incrimination settings, that New
Jersey provides enhanced protections for personal
privacy and autonomy. See, e.g., State v. Muhammad,
182 N.J. 551, 568-69 (2005) (holding that a suspect’s
silence, while in custody, at or near time of arrest,
cannot be used against him); State v. Strong, 110 N.J.
583, 593-595 (1988) (concluding that New Jersey law
not only protects against improper conduct to obtain
compelled testimony, but also protects against its
improper use because such use “is the difference
between the constitutional right in not being
compelled to incriminate oneself and the right in not
having one’s privacy unreasonably invaded”); Hartley,
103 N.J. at 285-86 (recognizing that the state law
privilege against self-incrimination exceeds the
protections provided under the Fifth Amendment);
State v. Deatore, 70 N.J. 100, 112-14 (1976) (same).7
Similarly, State law exceeds federal protections for privacy in
Fourth Amendment searches and seizures as well. See, e.g., State
v. Earls, 214 N.J. 564, 584-89 (2013) (finding a reasonable
expectation of privacy in a person’s cell phone location
information prior to later federal court case development); State
v. Reid, 194 N.J. 386, 396-99 (2008) (holding that, regardless of
7

69a

To the extent that the Guarino Court split on
the application of those personal privacy principles
when it came to documents already in the possession
of third parties, that does not support the invasion of
private thoughts, as we have here. Defendant is being
compelled to disgorge a memorized passcode to allow
access to other information on his secure smartphone.
In other words, he is being forced to disclose inner
thoughts so as to assist law enforcement in his own
prosecution. That is contrary to Boyd’s tenets about
personal freedom and privacy. And it is contrary to all
previous decisions from this Court with respect to our
state recognized law on the privilege against selfincrimination.
This Court has never before permitted law
enforcement to compel from a defendant’s lips inner
thoughts to assist in his own prosecution. I cannot join
in taking our state law in that direction. Therefore, for
the same reasons that I would not extend federal law
to require what the Supreme Court has not expressly
held, so too I would not turn our jurisprudence from
the guiding principles it has followed to date.
This intrusive use of compelled cooperation
forcing self-incrimination through disclosure of the
contents of one’s mind is not consistent with our law.
the federal government’s failure to find an expectation of privacy,
under New Jersey’s heightened protections there is a reasonable
expectation of privacy in Internet subscriber information, which
can reveal intimate details about a person’s life); State v.
McAllister, 184 N.J. 17, 26-33 (2005) (holding that, although the
federal government does not recognize an expectation of privacy
in bank records, New Jersey recognizes that expectation because
the revealing information contained in a bank record “provides a
virtual current biography” (quoting Burrows v. Superior Court,
529 P.2d 590, 596 (Cal. 1974))).

70a

It should be rejected as a step backwards from the
storied history in this State of protective law
concerning personal autonomy and the privacy of
one’s inner thoughts with respect to the privilege
against self-incrimination.
C.
Finally, for completeness, I note that the
Appellate Division erred in reading a basis for
foregone conclusion into our statute governing what is
an incriminating statement. The majority’s reasons
for similarly adopting that approach are not
persuasive and take our law in a direction that is a
mistake, in my view. To be clear, I believe that
foregone conclusion, as a notion in federal law, has
shaky lineage. We should not perpetuate a
questionable doctrine.
Further, examination of our statutory provision
yields no fertile ground for finding the concept
consistent with state law.
New Jersey has enacted statutory protections
and an evidentiary rule against self-incrimination,
both of which use identical language. See N.J.S.A.
2A:84A-17(1); N.J.R.E. 501. Under both N.J.S.A.
2A:84A-17(1) and N.J.R.E. 501, “[e]very person has in
any criminal action in which he is an accused a right
not to be called as a witness and not to testify.”
Further, “every natural person has a right to refuse to
disclose in an action or to a police officer or other
official any matter that will incriminate him or expose
him to a penalty.” N.J.S.A. 2A:84A-19; N.J.R.E. 503.
There are four applicable exceptions to this rule. Most
relevant is N.J.S.A. 2A:84A-19(b), which provides that
no person has the privilege to refuse to
obey an order made by a court to produce
71a

for use as evidence or otherwise a
document, chattel or other thing under
his control if some other person or a
corporation or other association has a
superior right to the possession of the
thing ordered to be produced.
In this part of its analysis, the majority views
narrowly what is turned over: only the passcodes,
which the majority opinion describes as having
“minimal evidentiary significance, do not themselves
support an inference that a crime has been committed,
nor do they constitute ‘clues’” because the passcode is
“not substantive information, is not a clue to an
element of or the commission of a crime, and does not
reveal an inference that a crime has been committed.”
Ante at ___ (slip op. at 43). The majority sees no
privacy interest being violated because the State has
a search warrant for the physical phone. In essence
the majority adheres to the Appellate Division’s
conclusion that
defendant is not conveying any
important facts that the State does not
already possess, he is not being required
to disclose any ‘matter’ that would
incriminate him or expose him to a
penalty. Furthermore, the State has a
“superior right of possession” to
defendant’s passcodes because the trial
court has issued two search warrants for
defendant’s iPhones, which allow the
State to obtain the passcodes that may be
necessary to access information on the
phones.
[State v. Andrews, 457 N.J. Super. 14,
72a

32-33 (App. Div. 2018).]
In so concluding, the Appellate Division first, and now
the majority, improperly, in my view, read the
foregone conclusion doctrine into New Jersey
jurisprudence in a manner that is both inconsistent
with the spirit of our law and not grounded in
precedent.
First, the State cannot claim a superior right of
access to the passcodes. While the State can claim a
legal right to review internal information on the phone
pursuant to a warrant, the State cannot have a
superior right to the contents of one’s mind—which
here, is the passcode. Both the Appellate Division and
the majority’s opinion conflate the State’s Fourth
Amendment right to obtain a valid warrant based on
probable cause with defendant’s Fifth Amendment
right not to be compelled to assist in his own
prosecution by being ordered to provide information
contained in his mind that can be used to obtain
undetermined and unspecified information in the
hope it will incriminate him.
Second, the Appellate Division did not properly
consider the State’s long-codified protections that
uphold a person’s refusal to disclose incriminating
information. Pursuant to N.J.S.A. 2A:84A-18’s clear
definition
of
incrimination,
something
is
incriminating
(a) if it constitutes an element of a crime
against this State, or another State or
the United States, or (b) is a
circumstance
which
with
other
circumstances would be a basis for a
reasonable inference of the commission
of such a crime, or (c) is a clue to the
73a

discovery of a matter which is within
clauses (a) or (b) above; provided, a
matter will not be held to incriminate if
it clearly appears that the witness has no
reasonable cause to apprehend a
criminal prosecution. In determining
whether a matter is incriminating under
clauses (a), (b) or (c) and whether a
criminal
prosecution
is
to
be
apprehended, other matters in evidence,
or
disclosed
in
argument,
the
implications of the question, the setting
in which it is asked, the applicable
statute of limitations and all other
factors, shall be taken into consideration.
[N.J.S.A. 2A:84A-18 (emphasis added).]
The majority cannot support the claim that the State
has a superior right of access to the phone’s passcode.
And the majority does not properly consider what the
passcode would reveal. The majority opinion at times
focuses on the passcode, and at others equates the
passcode with the evidentiary information the
government hopes to find somewhere in the encrypted
device’s phone and message icons. For this part of its
analysis, the majority chooses to isolate the passcode
from the hopefully incriminating contents the
government wants.
The majority cannot have it both ways—
focusing solely on the passcode sometimes and on the
phones and their contents at other times. In my view,
the Appellate Division and the majority fail to
acknowledge
that
compelling
defendant’s
participation in obtaining passcodes giving access to
the phone would certainly provide more than just a
74a

clue to an underlying crime: defendant is being
compelled to essentially turn over what is presumed
to be incriminating information, in direct violation of
his right not to testify against himself.
IV.
For the foregoing reasons, I respectfully dissent
from the judgment of the Court. I would hold that the
judicial order compelling defendant to disclose the
passcode to his smartphone by requiring him to reveal
the contents of his mind is a violation of the Fifth
Amendment protection against self-incrimination and
a violation of our state law protecting the same.
Law enforcement must find another means of
obtaining access to the encrypted substantive
information on two cell phones whose contents it
wishes to search and for which the government has a
search warrant. Technological barriers must be
overcome without sacrificing constitutional, deepseated historical protections against governmental
intrusions forcing individuals to become assistants in
their own prosecutions. Modern technology continues
to evolve, bringing new problems; but it also may
bring new solutions. The resolution to the present
problem must be found in those new technological
solutions—at least until the Supreme Court addresses
whether it is now willing to permit forced disclosure of
mental thoughts because, in my view, to date, its case
law on accessing physical documents, respectfully,
does not support the steps being taken here.

75a

APPENDIX B
SUPREME COURT OF NEW JERSEY
M-960 September Term
082209
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Movant.
_____
On appeal from the Superior Court,
Appellate Division, whose opinion is reported at
457 N.J. Super. 14 (App. Div. 2018).
[FILED: May 3, 2019]
ORDER
It is ORDERED that the motion for leave to
appeal is granted;
and it is further
ORDERED that the appellant may serve and
file a supplemental brief on or before July 2, 2019, and
respondent may serve and file a supplemental brief
forty-five (45) days after the filing of appellant's
supplemental submission, or, if appellant declines to
file such a submission, on or before August 16, 2019.

76a

APPENDIX C
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-0291-17T4
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Appellant.
_____
On appeal from an interlocutory order of Superior
Court of New
Jersey, Law Division, Essex County,
Indictment No. 16-06-1781.
[FILED: November 15, 2018]
Before Judges Yannotti, Rothstadt and Natali.
OPINION
The opinion of the court was delivered by
YANNOTTI, P.J.A.D.
Defendant appeals, on leave granted, from an
order of the Law Division, which required defendant
to disclose the personal identification numbers and
passwords (the passcodes) for his lawfully-seized
iPhones. Defendant argues that the compelled
disclosure of this information violates his right
against
self-incrimination
under
the
Fifth
Amendment to the United States Constitution, and
the protections against self-incrimination afforded
77a

under New Jersey law. We reject defendant's
arguments and affirm the trial court's order.
I.
We briefly summarize the pertinent facts and
procedural history. In May and June 2015, a task force
of the Essex County Prosecutor's Office (ECPO) was
investigating a suspected narcotics-trafficking
network in Newark. During surveillance, law
enforcement officers observed Quincy Lowery
(Lowery), the target of the investigation, operating a
motorcycle and a Jeep, even though his driver's license
was suspended at the time. Both vehicles were
registered in defendant's name.
In June 2015, the task force obtained a court
order, which authorized a wiretap of Lowery's phone
and placement of a global positioning system (GPS)
device on the Jeep. On June 30, 2015, Lowery was
arrested on suspicion of drug trafficking. On the night
of his arrest, Lowery gave a formal statement, alleging
that an officer in the Essex County Sheriff's Office
(ECSO), whom Lowery knew only as “Bolo,” had
helped him conceal his drug-trafficking activities.
Lowery said he had known “Bolo” for about a year
through a motorcycle club in which both men were
members. From a photograph, Lowery identified
defendant as the person named “Bolo.”
Lowery claimed defendant assisted him by
registering the Jeep and motorcycle in his own name
because defendant knew Lowery’s license had been
suspended. Lowery said defendant warned him about
the wiretap and urged him and his co-conspirators to
get rid of their phones. According to Lowery,
defendant checked the license plate of a vehicle
Lowery had suspected of following him and confirmed
78a

it was a county-issued vehicle. Defendant also
confirmed Lowery’s suspicion that a man Lowery saw
at a bar was an undercover officer. In addition,
defendant suggested that Lowery put his motor
vehicle on a lift to check it for a GPS device, and to
discard any such device.
Lowery consented to an electronic search of his
phone and showed the police a picture of a license
plate he had texted to defendant. The investigators
later confirmed the license plate belonged to a vehicle
the task force had used in a surveillance operation.
The cell phone number associated with the name
“Bolo” on Lowery’s phone corresponds to the number
for one of defendant’s iPhones. Lowery suggested to
investigators that defendant generally offered this
assistance either in person or by using the video app
FaceTime, and that the text messages the two
exchanged were mostly limited to arranging meetings.
On the night Lowery was arrested, the Internal
Affairs Department of the ECSO confronted
defendant and asked him to surrender his two phones:
an iPhone 5s and an iPhone 6 Plus. Defendant turned
in the phones but refused to consent to a search of
either phone or give a statement. Defendant later
requested that the phones be returned to him. The
officers denied the request and held the phones
pending an application for a search warrant.
In June 2016, an Essex County grand jury
returned a six-count indictment charging defendant
with second-degree official misconduct, contrary to
N.J.S.A. 2C:30-2 (counts one and two); third-degree
hindering the apprehension or prosecution of another
person, contrary to N.J.S.A. 2C:29-3(a)(2) (counts
three and four); and fourth-degree obstruction of the
79a

administration of the law or government function,
contrary to N.J.S.A. 2C:29-1 (counts five and six).
In January 2017, the State filed a motion to
compel defendant to disclose the passcodes required to
unlock defendant's iPhones. In support of its motion,
the State submitted call records it had obtained
regarding Lowery’s phone, which showed that in the
thirty days before Lowery’s arrest, 187 phone calls
had been exchanged between defendant's iPhones and
Lowery’s mobile devices. However, these records
reflected only the number of calls exchanged, and they
provided no information about the duration of the
calls.
Lowery’s phone and call records also revealed a
series of text messages with defendant. However,
Lowery told investigators that on defendant's advice,
he reset his phone about thirty days before his arrest.
Therefore, the State could not access any of that data.
Because defendant’s iPhones were locked, the State
could not determine whether defendant’s devices
contained any of the missing texts between Lowery
and defendant or any information about the duration
of their calls. The State asserted that the only way to
obtain records as to the duration of the calls was
through defendant's iPhones since Apple is a “closed
end to end system,” and defendant’s service providers
do not have access to Apple's “system.”
Defendant opposed the motion, arguing that
compelled disclosure of the passcodes would violate
his Fifth Amendment right against self-incrimination.
He argued that the State was seeking to compel
disclosure of statements that are testimonial and
potentially incriminating. He further argued that any
compelled disclosure would be inconsistent with the
80a

privilege against self-incrimination under New Jersey
law.
The trial court heard oral argument on the
motion, and on May 22, 2017, filed a written opinion
in which it concluded that the State's motion should
be granted. The court found that the compelled
disclosure of the passcodes was not a violation of
defendant's constitutional right against selfincrimination. The court also decided that the
privilege against self-incrimination under New
Jersey’s common law, N.J.S.A. 2A:84A-19(b), and
N.J.R.E. 503 did not preclude the court from requiring
defendant to disclose the information.
The court memorialized its opinion in an order
dated May 22, 2017. The order requires defendant to
disclose the passcodes, but limited the State's access
“to that which is contained within (1) the ‘Phone’
icon[s] and application[s] on [defendant’s] two iPhones
and (2) the ‘Messages’ icon[s] and/or text messaging
applications.” The order also requires defendant to
disclose the passcodes in camera before any disclosure
to the State, and directed the State to perform the
actual search “in camera, in the presence of . . . defense
counsel and the [c]ourt.”
In June 2017, defendant filed a motion seeking
leave to appeal the trial court’s May 22, 2017 order. In
July 2017, we denied the motion. Defendant then filed
a motion in the Supreme Court for leave to appeal.
The Supreme Court granted the motion and
summarily remanded the appeal to this court for
consideration on the merits. We later permitted the
Association of Criminal Defense Lawyers of New
Jersey (ACDL-NJ) to appear as amicus curiae.

81a

II.
Defendant argues that the trial court’s order
compelling him to disclose the passcodes for the seized
phones violates his right against self-incrimination, as
provided in the Fifth Amendment to the United States
Constitution. We conclude, however, that under the
circumstances presented here, the compelled
disclosure of the passcodes is not barred by the Fifth
Amendment.
The Fifth Amendment to the United States
Constitution, which is made applicable to the states
through the Fourteenth Amendment, Malloy v.
Hogan, 378 U.S. 1, 6 (1964), provides that “[n]o person
. . . shall be compelled in any criminal case to be a
witness against himself[.]” U.S. Const. amend. V. “The
word ‘witness’ in the constitutional text limits the
relevant category of compelled incriminating
communications to those that are ‘testimonial’ in
character.” United States v. Hubbell, 530 U.S. 27, 34
(2000).
“[T]o
be
testimonial,
an
accused’s
communication must itself, explicitly or implicitly,
relate a factual assertion or disclose information,”
such as an admission that the revealed evidence
“exist[s],” is “in [defendant’s] possession or control,”
and is “authentic.” Doe v. United States, 487 U.S. 201,
209-10 (1988) (citing United States v. Doe, 465 U.S.
605, 613 & n.11 (1984); Fisher v. United States, 425
U.S. 391-409-10 (1976)). “Only then is a person
compelled to be a ‘witness’ against himself.” Id. at 210.
The Fifth Amendment privilege against selfincrimination applies not only to verbal and written
communications but also to the production of
documents because “[t]he act of produc[tion]” itself
82a

may communicate incriminatory statements. Fisher,
425 U.S. at 410. Nevertheless, the “foregone
conclusion” principle is an exception to the “act of
production” doctrine. See id. at 411.
For the “foregone conclusion” exception to
apply, the State must establish with reasonable
particularity: (1) knowledge of the existence of the
evidence demanded; (2) defendant's possession and
control of that evidence; and (3) the authenticity of the
evidence. See Hubbell, 530 U.S. at 30, 40-41; Fisher,
425 U.S. at 410-13. Therefore, when an accused
implicitly admits the existence and possession of
evidence, the accused has "add[ed] little or nothing to
the sum total" of the information the government has,
and the information provided is a “foregone
conclusion.” Fisher, 425 U.S. at 411.
In Doe, the Court held that an order requiring
the target of a grand jury investigation “to authorize
foreign banks to disclose records of his accounts,
without
identifying
those
documents
or
acknowledging their existence,” did not compel a
testimonial act for purposes of the Fifth Amendment.
Doe, 487 U.S. at 202, 219. The Court found that the
defendant’s execution of the disclosure form did not
convey anything about the existence of any foreign
bank account, the defendant’s control over any such
account, or the authenticity of any records the banks
may produce. Id. at 215-16.
Here, as in Doe, the act of disclosing the
passcodes to defendant's phones does not convey any
implicit factual assertions about the “existence,” or
“authenticity” of the data on the device. See ibid.
Moreover, in its order, the trial court required
defendant to disclose the passcodes in camera before
83a

they are communicated to the State. The order thus
ensures that any incriminating information would not
be disclosed. The order also ensures that by providing
the passcodes, defendant will not be compelled “to
restate, repeat, or affirm the truth of the contents of
the” devices. See Fisher, 425 U.S. at 409.
However, by producing the passcode, defendant
is making an implicit statement of fact that the iPhone
passcodes are within his “possession or control.” See
Doe, 487 U.S. at 209 (citing Doe, 465 U.S. at 613 &
n.11; Fisher, 425 U.S. at 409-10). Defendant is
acknowledging he has accessed the phone before, set
up password capabilities, and exercised some measure
of control over the phone and its contents.
Nevertheless, these testimonial aspects of the
passcodes are a “foregone conclusion” because the
State has established and defendant has not disputed
that he exercised possession, custody, or control over
these devices. See Fisher, 425 U.S. at 411. Therefore,
the fact that defendant knows the passcodes to these
devices “adds little or nothing to the sum total of the
Government's information.” See ibid.
Furthermore, the State has described with
“reasonable particularity” the specific evidence it
seeks to compel, which is the passcodes to the phones.
Defendant argues the State is unaware of all of the
possible contents of defendant's devices. This is
immaterial because the order requires defendant to
disclose the passcodes, not the contents of the phones
unlocked by those passcodes. See Fisher, 425 U.S. at
409.
Our conclusion that the Fifth Amendment
privilege does not bar the court from requiring
defendant to disclose the passcodes is supported by
84a

United States v. Apple MacPro Computer, 851 F.3d
238 (3d Cir. 2017). In that case, as part of an
investigation of the defendant's access to child
pornography over the internet, authorities executed a
search warrant and seized an Apple iPhone 5s and an
Apple Mac Pro computer with two attached external
hard drives, which were protected with encryption
software. Id. at 242. The police later seized an Apple
iPhone 6 Plus, which also was password-protected.
Ibid.
The defendant voluntarily provided the
authorities the password for the iPhone 5s, but
refused to provide passwords that would allow access
to the computer or the external hard drives. Ibid.
Forensic analysis of the computer revealed that it had
been used to visit sites known for child exploitation,
and that thousands of files associated with child
pornography had been downloaded. Ibid. The
downloaded files were not on the computer, but stored
on the external hard drives, which were encrypted.
Ibid.
The defendant's sister informed the authorities
that the defendant had shown her hundreds of images
of child pornography on the external hard drives. Id.
at 242-43. The defendant provided the password for
the iPhone 6 Plus; however, he “did not grant access
to an application on the phone which contained
additional encrypted information.” Id. at 243. The
forensic analysis indicated that the phone's encrypted
database contained more than 2000 images and video
files. Ibid.
On an application by the federal authorities,
the federal district court ordered the defendant to
produce his iPhone 6 Plus, Mac Pro computer, and two
85a

external hard drives “in a fully unencrypted state.”
Ibid. The defendant then filed a motion to quash the
government's request, arguing that the act of
decrypting would violate his Fifth Amendment
privilege against self-incrimination. Ibid. A
magistrate judge denied the motion. Ibid.
Later, the defendant appeared at the local
police department for a forensic examination of the
devices. Ibid. He provided the iPhone 6 Plus and the
files on the application in a fully unencrypted state.
Ibid. He claimed, however, that he could not recall the
passwords required to decrypt the hard drives, and he
entered several incorrect passwords during the
examination. Ibid. Consequently, the federal
authorities were unable to view the decrypted
contents of the hard drives. Ibid.
On the government's motion, the federal
district court held the defendant in contempt, and
ordered his incarceration until he complied with the
decryption order. Id. at 243-44. Defendant appealed
and argued the order violated his right against selfincrimination. Id. at 244. The Third Circuit held that
although the Fifth Amendment may be implicated by
the compelled decryption of the devices, “any
testimonial aspects of that production were a foregone
conclusion.” Id. at 248.
The court found that the record supported the
conclusion that the production of the decrypted
devices “added little or nothing to the information” the
government already had obtained. Ibid. The court
noted that: the government had custody of the devices;
the government knew the defendant owned,
possessed, and had accessed the devices before they
were seized; and the government had established that
86a

the devices had images that met the definition of child
pornography. Ibid.
A similar conclusion was reached in
Commonwealth v. Gelfgatt, 11 N.E.3d. 605 (Mass.
2014). In that case, the defendant was charged with
various offenses, which were allegedly part of a
mortgage-fraud scheme. Id. at 608. The trial court
denied the government's motion to compel the
defendant to enter his password for encryption
software he had placed on various digital media
storage devices, which the government had seized as
part of its investigation, finding that compelled
disclosure of the information would violate the
defendant's right against self-incrimination. Id. at
611-12. The Supreme Judicial Court of Massachusetts
reversed. Id. at 617.
The court stated that although the Fifth Amendment
typically applies to oral and written testimonial
statements, “the act of producing evidence . . . may
have communicative aspects.” Id. at 613 (quoting
Fisher, 425 U.S. at 410). Whether an act of producing
evidence is testimonial for Fifth Amendment purposes
“depend[s] on the fact and circumstances of [each]
particular case[].” Ibid. (alterations in original)
(quoting Fisher, 425 U.S. at 410).
The court stated that defendant's act of
entering the encryption key “would appear, at first
blush, to be a testimonial communication that triggers
Fifth Amendment protection.” Id. at 614. The
defendant “would be acknowledging that he ha[d]
ownership and control of the computers and their
contents.” Ibid. The court held, however, that the Fifth
Amendment did not bar the government from
compelling the defendant to produce the information
87a

because the “foregone conclusion” exception applied.
Id. at 615.
The court observed that by entering the
encryption key, the defendant would be conveying
facts as to “his ownership and control of the computers
and their contents, knowledge of the fact of
encryption, and knowledge of the encryption key.”
Ibid. Because the government already knew these
facts, their disclosure was a “foregone conclusion.”
Ibid. The court held that the defendant’s rights under
the Fifth Amendment were not violated “because the
defendant is only telling the government what it
already knows.” Id. at 615-16.
We are convinced that the decisions in Apple
MacPro Computer and Gelfgatt provide persuasive
authority for the conclusion that defendant's Fifth
Amendment right against self-incrimination is not
violated by requiring him to disclose the passcodes for
his iPhones, which the State lawfully possessed. The
act of producing the passcodes has testimonial aspects
because defendant is acknowledging ownership,
possession, and control of the devices. He is also
acknowledging he has the ability to access the
contents of the phone. However, by producing the
passcodes, defendant is not implicitly conveying any
information the State does not already possess.
Defendant is not telling the government something it
does not already know. Therefore, the implicit facts
conveyed by the act of producing the passcodes is a
“foregone conclusion” and compelled disclosure of the
passcodes does not violate defendant’s Fifth
Amendment right against self-incrimination.1
Other courts have reached similar conclusions and also support
our decision. See, e.g., United States v. Fricosu, 841 F. Supp. 2d
1

88a

We recognize that the contents of the phone
may contain evidence that ties defendant to the
offenses for which he has been charged. However, “[i]f
a compelled statement is ‘not testimonial and for that
reason not protected by the privilege, it cannot become
so because it will lead to incriminating evidence.’” Doe,
487 U.S. at 208-09 n.6 (quoting In re Grand Jury
Subpoena, 826 F.2d 1166, 1172 n.2 (2d Cir. 1987)
(Newman, J., concurring)).
In arguing that compelled disclosure of the
passcodes violates his Fifth Amendment right against
self-incrimination, defendant relies on In re Grand
Jury Subpoena Duces Tecum Dated March 25, 2011,
670 F.3d 1335 (11th Cir. 2012). In that case, the
defendant was ordered to appear before a federal
grand jury and produce unencrypted contents of hard
drives on his computers, as well as external hard
drives. Id. at 1337.

1232, 1236-37 (E.D. Mich. 2010) (holding that the Fifth
Amendment did not bar the subpoenaed decryption of the
defendant's laptop where the defendant admitted to possession
of the computer and federal agents were also aware "of the
existence and location of the computer's files"); State v. Stahl, 206
So. 3d 124, 136 (Fla. Dist. Ct. App. 2016) (concluding that
defendant's act of providing the password to his iPhone pursuant
to a search warrant was not testimonial where the State knew
there was a password and that the defendant possessed the
password); Commonwealth v. Davis, 176 A.3d 869, 876 (Pa.
Super. Ct. 2017) (holding that the defendant's act of providing
the password to his computer was not testimonial where the
Commonwealth had already established the computer was
password-protected, the defendant was the only user who knew
the password, the "technology is self-authenticating," and there
was a "high probability" that incriminating material would be
discovered on the defendant's device).

89a

The defendant refused to comply, relying upon
his Fifth Amendment right against self-incrimination.
Ibid. The government agreed to provide the defendant
with immunity for the act of production of the
unencrypted drives, but not for the derivative use of
their contents. Id. at 1337-38. The defendant refused
to decrypt the hard drives, and the federal district
court held him in contempt. Id. at 1338. The defendant
appealed and the Eleventh Circuit reversed. Id. at
1338-39.
The court noted that in Hubbell, a federal grand
jury had issued a subpoena, which required the
defendant “to produce eleven categories of
documents.” Id. at 1344 (citing Hubbell, 530 U.S. at
30-31). The court stated that in Hubbell, the Court
had determined that the act of production was
sufficiently testimonial to trigger the Fifth
Amendment protection against self-incrimination,
and the facts implicitly conveyed by the act of
production were not a “foregone conclusion.” Ibid.
(citing Hubbell, 530 U.S. at 44-45). The court stated
that, “The touchtone of whether an act of production
is testimonial is whether the government compels the
individual to use ‘the contents of his own mind’ to
explicitly or implicitly communicate some statement
of fact.” Id. at 1345 (quoting Curcio v. United States,
354 U.S. 118, 128 (1957)).
The court determined that “the decryption and
production of the hard drives would require the”
defendant to use the contents of his mind. Id. at 1346.
This “would be tantamount to testimony by [the
defendant] of his knowledge of the existence and
location of potentially incriminating files; of his
possession, control, and access to the encrypted
portions of the drives; and his capability to decrypt the
90a

files.” Ibid. The court also rejected the contention that
the facts conveyed by the production were a “foregone
conclusion.” Id. at 1346-47. The court stated the
government did not know whether there was data on
the decrypted records. Id. at 1347. The drives could
contain as many as twenty million files and the
government had not shown that these files could be
useful. Ibid.
Here, defendant's reliance upon In re Grand
Jury Subpoena is misplaced. In that case, the court
found that requiring the defendant to provide the
decrypted records was testimonial and the
government had not shown that the facts conveyed by
the act of production were a “foregone conclusion.” Id.
at 1346-47. In this case, however, defendant has been
ordered to produce the passcodes and the testimonial
aspects of that act pertain to the ownership, control,
use, and ability to access the phones. The State has
shown it has prior knowledge of those facts, and their
disclosure is a “foregone conclusion.”
Defendant also relies upon United States v.
Kirschner, 823 F. Supp. 2d 665 (E.D. Mich. 2010). In
that case, the defendant was charged with receiving
child pornography by computer. Id. at 666. The
government issued a subpoena to the defendant,
which required that he appear before the grand jury
and provide all passwords used or associated with the
subject computer and any files. Ibid. The court found
that the production of the computer passwords was
testimonial because the government was “seeking
testimony from the [d]efendant” which required “him
to divulge through his mental processes his
password[.]” Id. at 669. The court stated that the
matter did not involve the production of specific
91a

documents, but rather the production of “specific
testimony asserting a fact.” Ibid.
However, defendant's reliance upon Kirschner
is unavailing. In that case, the court did not address
the question of whether the government already was
in possession of the facts implicitly conveyed by the
act of producing the passwords. As we have explained,
in this case, the State has established all of the
elements required for application of the “foregone
conclusion” principle.2
We note that in its brief, amicus curiae argues
that electronically-stored information should be
subjected to an enhanced degree of scrutiny because
such data raises issues of authenticity. The parties to
this appeal have not raised this issue. Therefore, we
will not address it. See State v. J.R., 227 N.J. 393, 421
(2017) (declining to “consider arguments that have not
been asserted by a party, and are raised for the first
time by an amicus curiae”).
We therefore conclude that the trial court
correctly found that compelled disclosure of
defendant's passcodes does not violate defendant's
Fifth
Amendment
privilege
against
selfincrimination.

Defendant also relies on In re Search Warrant Application, 279
F. Supp. 3d 800, 806 (N.D. Ill. 2017), where the court held that
disclosure of a passcode was testimonial; however, the court did
not address the “foregone conclusion” principle. In addition, in
Commonwealth v. Baust, 89 Va. Cir. 267, 271 (Cir. Ct. 2014), the
court held that a “password is not a foregone conclusion because
it is not known outside of [the defendant's] mind.” The reasoning
of the courts in Apple MacPro Computer, Gelfgatt, and the cases
discussed previously is more persuasive.
2

92a

III.
Defendant also argues that compelled
disclosure of the passcodes would violate the privilege
against self-incrimination under New Jersey law. He
cites the common law, as well as N.J.S.A. 2A:84A-19
and N.J.R.E. 503.
A.

Common-law Privilege

The New Jersey Constitution does not contain
a privilege against self-incrimination. Even so, New
Jersey has long recognized the privilege under the
common law. See, e.g., Fries v. Brugler, 12 N.J.L. 79,
81 (Sup. Ct. 1830) (noting that “the general rule is,
that a witness cannot be called upon to impute to
himself a crime or to bring a reproach upon
himself[.]”). Our Supreme Court has held that, in
general, the “state-law privilege against selfincrimination offers broader protection than its
federal counterpart.” State v. Muhammad, 182 N.J.
551, 568 (2005) (citing State v. Strong, 110 N.J. 583,
595 (1988)).
“Central to our state common-law conception of
the privilege against self-incrimination is the notion
of personal privacy. . . .” In re Grand Jury Proceedings
of Guarino, 104 N.J. 218, 230 (1986). In Guarino, the
Court equated the personal privacy doctrine with a
“respect for the inviolability of the human personality
and of the right of each individual ‘to a private enclave
where he may lead a private life.’” Id. at 231 (quoting
Murphy v. Waterfront Comm'n of N.Y. Harbor, 378
U.S. 52, 55 (1964)).
“To determine whether the evidence sought by
the government lies within that sphere of personal
privacy a court must look to the ‘nature of the
evidence.’” Id. at 231-32 (citing Couch v. United States,
93a

409 U.S. 322, 350 (1973) (Marshall, J., dissenting)).
The court must decide whether the “contents” of the
compelled disclosures “contain the requisite element
of privacy or confidentiality” such that they fall within
a “special zone of privacy.” See id. at 232 (quoting
Bellis v. United States, 417 U.S. 85, 92 (1974)).
In this case, defendant argues that cell phones
are “known to contain extremely personal
information,” and can be “used as a personal diary,
recorder of personal images and videos, personal
address book, and research device.” Defendant
therefore argues that cell phone passcodes should be
deemed to fall within a “special zone of privacy” or
confidentiality. We cannot agree.
Applying
the
privilege
against
selfincrimination to cell phone passcodes would
essentially preclude the State from obtaining the
contents of any passcode-restricted device as part of a
criminal investigation. This would be so even when
the State has obtained a warrant, issued on a showing
of probable cause, for the contents of the device, and
the State has established, as it has in this case, the
basis for applying the “foregone conclusion” doctrine.
We see no basis for affording, in the particular
circumstances presented by this case, greater
protections against self-incrimination than those
provided by the Fifth Amendment. We therefore hold
that where, as here, the State has established the
elements for application of the “foregone conclusion”
doctrine, New Jersey’s common law privilege against
self-incrimination does not bar compelled disclosure of
passcodes for defendant's phones.

94a

B.

Statutory and Evidentiary Privilege

New Jersey also has enacted a statute and
evidence rule that, in identical language, provide that
“every natural person has a right to refuse to disclose
in an action or to a police officer or other official any
matter that will incriminate him or expose him to a
penalty,” unless one of four exceptions applies.
N.J.S.A. 2A:84A-19; N.J.R.E. 503. Under one of the
exceptions to the privilege:
(b) [N]o person has the privilege to refuse
to obey an order made by a court to
produce for use as evidence or otherwise
a document, chattel or other thing under
his control if some other person or a
corporation or other association has a
superior right to the possession of the
thing ordered to be produced[.]
[N.J.S.A. 2A:84A-19(b); N.J.R.E. 503(b).]
As we have determined, compelled disclosure of
defendant's passcodes is not a violation of his right
against
self-incrimination
under
the
Fifth
Amendment or our common law. Because defendant is
not conveying any important facts that the State does
not already possess, he is not being required to
disclose any “matter” that would incriminate him or
expose him to a penalty. Furthermore, the State has a
“superior right of possession” to defendant’s passcodes
because the trial court has issued two search warrants
for defendant’s iPhones, which allow the State to
obtain the passcodes that may be necessary to access
information on the phones.
Defendant has not argued that the warrants
are unlawful. He argues, however, that under New
Jersey law, he cannot be required to produce any
95a

evidence that may be used against him. In support of
this argument, he relies on In re Addonizio, 53 N.J.
107 (1968), and State v. Kelsey, 429 N.J. Super. 449
(App. Div. 2013). Both cases are distinguishable.
In Addonizio, the defendant was appealing the
denial of a motion to set aside subpoenas that, similar
to those in Hubbell, 530 U.S. at 31, had directed him
to produce ten categories of financial documents. See
Addonizio, 53 N.J. at 113. Addonizio involved no
warrant of any kind, and would have required
defendant to make extensive use of the contents of his
mind in order to comply. See Hubbell, 530 U.S. at 43.
As we have determined, however, disclosure of cell
phone passcodes does not involve the production of
testimonial evidence, and the act of producing the
passcodes only coveys implicit facts that the
government already knows.
Moreover, in Kelsey, the defendant challenged
an order compelling him to produce a flashlight that
he allegedly used as a weapon in a brawl. Kelsey, 429
N.J. Super. at 450. The police had obtained a warrant
to search defendant’s vehicle, but when they did not
find what they were searching for, they sought an
order for defendant to produce the item, which “may
or may not” have been in defendant’s possession. Id.
at 450, 452 (emphasis added).
Here, the State has evidence indicating that
defendant used the iPhones before surrendering them.
The State knows defendant possesses the passcodes,
and has obtained search warrants issued upon a
showing of probable cause that the devices contain
evidence of criminality. We therefore conclude the
search warrants give the State a superior right to

96a

possession of the passcodes; therefore, the exception
in N.J.S.A. 2A:84A-19(b) and N.J.R.E. 503(b) applies.
Affirmed.

97a

APPENDIX D
SUPREME COURT OF NEW JERSEY
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Movant.
_____
On appeal from an interlocutory order of Superior
Court of New
Jersey, Law Division, Essex County,
Indictment No. 16-06-1781.
[FILED: September 11, 2017]
ORDER
It is ORDERED that the motion for leave to
appeal is granted and the matter is summarily
remanded to the Superior Court, Appellate Division,
to consider on the merits.

98a

APPENDIX E
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION - CRIMINAL PART
COUNTY OF ESSEX
Indictment No. 16-06-0178 1-1
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Appellant.
_____
[FILED: May 22, 2017]
OPINION
HONORABLE ARTHUR J. BATISTA, J.S.C.
In this case, the issue presented is whether the
United States Constitution’s Fifth Amendment
privilege against self- incrimination and/or New
Jersey common law or statutory rights protect a
defendant from the compelled disclosure of his iPhone
PINs or passwords.
The State of New Jersey (“State”) requests that
the court compel the Defendant, Robert Andrews
(“Andrews” or “Defendant”), to disclose his PINs or
passwords to two of his lawfully-seized iPhones.
Andrews objects to the State’s request on
constitutional
grounds,
asserting
his
Fifth
Amendment privilege against self-incrimination as
well as protections afforded by New Jersey common
law, statutory law, and the New Jersey Rules of
99a

Evidence. Andrews contends the requested compulsion
is testimonial and incriminating and therefore
violative of his constitutional rights.
This court finds that the act of providing a PIN,
password, or passcode is not a testimonial act where
the Fifth Amendment or New Jersey common and
statutory lawaffords protection. Moreover, the State
has sufficiently demonstrated that any testimonial act
contained in the act of Andrews providing the PIN or
passcode is a foregone conclusion pursuant to Fisher v.
U.S., 425 U.S. 391, 96 S. Ct. 1569, 48 L. Ed. 2d 39
(1976) and its progeny.
I.
We begin with an overview of a defendant's
protections against self-incrimination to offer context
for the discussion that follows.
The protection against self-incrimination is
preserved in federal law in the Fifth Amendment to
the United States Constitution, which provides that
“[n]o person ... shall be compelled in any criminal
case to be a witness against himself [.]” U.S. Const.,
amend. V. The privilege is at the fundamental core of
our way of life, our “political liberty and personal
freedom.” In re Pillo, 11 N.J. 8, 16 (1952) (quoting
Boyd v. U.S., 116 U.S. 616, 632, 6 S. Ct. 524, 29 L.
Ed. 746 (1886)). The privilege is applied to the states
through operation of the Fourteenth Amendment.
Lefkowitz v. Turley, 414 U.S. 70, 77, 94 S. Ct. 316, 38
L. Ed. 2d 274 (1973).
New Jersey's state constitution contains no
similar provision. Instead, New Jersey's privilege
against self-incrimination is found in the common
law, statute, and the New Jersey Rules of Evidence.
The New Jersey Supreme Court has recognized that
100a

our common-law privilege against self-incrimination,
“as codified both in N.J.S.A. 2A:84A-19 and N.J.R.E.
503 ‘offers broader protection than its federal
counterpart.’” State v. Brown, 190 N.J. 144, 166-67
(2007) (citing State v. Muhammad, 182 N.J. 551
(2005)). Subject to enumerated limitations, “every
natural person has a right to refuse to disclose in an
action or to a police officer or other official any matter
that will incriminate him or expose him to a penalty
or a forfeiture of his estate[.]” N.J.R.E. 503.; see also
N.J.S.A. 2A:84A-19. Our body of common law has
thus diverged from Fifth Amendment case law.
In Fisher v. U.S., supra 425 U.S. 391, and U.S.
v. Doe, 465 U.S. 605, 104 S. Ct. 1237, 79 L. Ed. 2d 552
(1984), the United States Supreme Court limited its
interpretation of the Fifth Amendment's protection
against self-incrimination. “In effect, the focus of the
Court shifted from privacy to the process of
compulsion." In re Grand Jury Proceedings (Guarino),
104 N.J. 218, 225 (1986). Under this interpretation, it
is the act of testifying that cannot be compelled, not
the substance of the information to be disclosed.
Fisher did recognize that the act of producing a
document could have “communicative aspects of its
own, wholly aside from the contents of the papers
produced” when the production served to confirm the
existence of the documents or else to "authenticate"
them. Fisher, supra 425 U.S. at 410. This
communicative aspect, however, can be overcome if
the revelation is a “foregone conclusion and ... adds
little or nothing to the sum total of the Government’s
information[.]” Id. at 411.
The New Jersey Supreme Court, by contrast,
has found that the analysis should focus on the
content of documents, not merely the act of producing
101a

them. The Court found that the privilege against selfincrimination should be based on protecting an
individual's right “to a private enclave where he may
lead a private life.” In re Grand Jury Proceedings
(Guarino), 104 N.J. at 231 (quoting Murphy v.
Waterfront Comm’n, 378 U.S. 52, 55, 84 S. Ct. 1594,
12 L. Ed. 2d 678 (1964)).
While there is no precedent in New Jersey
dealing with the compulsion of defendants to provide
their cell phone PINs or passwords, other jurisdictions
throughout the United States have commenced
grappling with the competing interests at issue. A
review of those decisions provides this court with
essential guidance.
II.
In 2009, the United States District Court for
the District of Vermont decided In re Boucher, 2009
U.S. Dist. LEXIS 13006, *1, 2009 WL 424718 (D. Vt.
Feb. 19, 2009). The defendant Boucher was stopped at
the United States border as he crossed into Vermont
from Canada. A Customs and Border Protection
inspector flagged his vehicle for secondary inspection.
Boucher’s laptop computer was consensually
inspected and revealed certain files on the “Z” drive
that appeared to include child pornography. The agent
seized the device and shut it down. After obtaining a
warrant to search the laptop, agents discovered that
the contents of the “Z” drive were not able to be viewed
because it was encrypted with password protection. As
a result, a grand jury subsequently issued a subpoena
compelling Boucher to produce any passwords
associated with the laptop. Boucher then sought to
quash the subpoena.

102a

A U.S. Magistrate judge granted Boucher’s
motion to quash that subpoena on Fifth Amendment
grounds. The government filed an appeal to the
District Court, which heard the case on de nova
review. The District court denied the motion, holding
that allowing a second look at the files on the laptop
added “little or nothing to the sum total of the
Government’s information.” Id. at *9 (quoting Fisher
v. U.S., supra 425 U.S. at 411 (1976)). Citing U.S. v.
Fox, 721 F.2d 32, 36 (2d Cir. 1983), the court treated
the files contained on the laptop in the manner
previous cases treated actual paper documents. If a
disclosure would implicitly authenticate the
documents, they cannot be compelled. However, when
the existence and location of the documents are known
to the government, no constitutional rights are
touched, because these matters are a foregone
conclusion. Id. at *8 (quoting Fisher at 411). The
government knew what information was present on
the laptop and where it was located because the files
had already been observed by the inspecting agents.
Thus, while the court found that providing the
password to the encrypted laptop would be
testimonial, it fell under the “foregone conclusion”
exception to Fifth Amendment protection.
In 2010, the Eastern District of Michigan
looked at a very similar case in U.S. v. Kirschner, 823
F. Supp. 2d 665 (E.D. Michigan, Southern Division
2010). There, the district court granted the
defendant’s motion to quash a subpoena directing him
to turn over passwords to his encrypted laptop. The
Michigan court followed the same analysis as in
Boucher, but reached a contrary result because the
government sought the subpoena for the purpose of
discovering additional evidence of child pornography
103a

that it suspected—but did not know—would be
present on the defendant’s laptop. The subpoena was
“being utilized post-indictment to investigate
additional charges,” which the district court found
impermissible. Kirschner, supra 823 F. Supp. 2d at
666. The case, moreover, was “not about producing
specific documents—it [was] about producing specific
testimony asserting a fact.” Id. at 669. By producing
the passwords, the defendant would communicate
“information that may ‘lead to incriminating
evidence’” which “is privileged even if the information
itself is not inculpatory.” Id. (quoting U.S. v. Hubbell,
530 U.S. 27, 37, 120 S. Ct. 2037, 147 L. Ed. 2d 24
(2000) and Doe v. U.S., supra 487 U.S. at 208 (1988) I.
In U.S. v. Doe (In re Grand Jury Subpoena
Duces Tecum), 670 F.3d 1335 (11th Cir. Fla. 2012),
government examiners similarly sought access to
encrypted hard drives in order to search for child
pornography files that they believed, but did not
know, would be found therein. The hard drives were
partitioned, and examiners could scrutinize
unencrypted portions of the drives, on which they
found no files. In testimony, a forensic examiner
conceded that the encrypted portions of the hard
drives might contain no data at all, and that the scope
of his examination did not indicate a basis for the
government agents’ belief that data would be found in
the encrypted portions. Id. at 1340. The Eleventh
Circuit concluded that compelling Doe to decrypt and
produce the contents of these drives would be
testimonial on the part of Doe and that it would
communicate information that was not a “foregone
conclusion.” Id. at 1346. It would communicate Doe’s
“knowledge of the existence and location of potentially
incriminating files; of his possession, control, and
104a

access to the encrypted portions of the drives; and of
his capability to decrypt the files.” Id. The court
stressed that whether the actual content of the drives
was testimonial was separate from whether the act of
producing that content was testimonial, and the court
did not address the former. Id. at 1342.
The issue of password protection was first
examined at the state level by Massachusetts in Com.
v. Gelfgatt, 11 N.E.3d 512 (Mass. 2014). In that case,
Defendant Gelgatt was alleged to have improperly
diverted funds received from his business dealings to
himself for his personal use. In a lawful search of the
defendant's home, law enforcement officers observed
several computers that were powered on. The officers
took photographs of the monitors, which displayed
desktops with visible filenames or opened files. Id. at
516 n.6. The officers then seized the computers as
evidence. They later discovered that they could not
access the files on the seized computers because they
were encrypted. The Massachusetts court concluded
that, while decryption “would appear, at first blush, to
be a testimonial communication,” any information
communicated would be a foregone conclusion that
would not add to the government’s sum total of
information. Id. at 522. The court compelled the
disclosure. Here, as in Boucher, the government
sought access to documents that were previously
viewed on the device itself, but were subsequently
obscured by encryption. However, the court also
maintained the distinction asserted in Doe, holding
that the decryption of the devices was separate from
their content, and this was the court's basis for
allowing the decryption. As the officers were only
asking that Doe enter the decryption key, he would
not be disclosing any additional information to them.
105a

Notably in dissent, Judge Lenk argued that the
“artificial distinction between the act of entering the
decryption key and the inevitable result of decrypting
the devices obfuscates the realityof what the
defendant is being compelled to disclose.” Id. at 52829.
In Com. v. Baust, 89 Va. Cir. 267 (Va. Cir. Ct.
2014), the city Circuit Court of Virginia Beach
provided our first examination of the issue of
password protection in the context of smartphones.
The court found that requiring Baust to disclose the
passcode to his encrypted smartphone would be
testimonial and therefore he could not be compelled to
do it. An assault victim in the case, the defendant's
girlfriend, informed police that a video from a
surveillance recording system capturing the assault
had been transmitted to the defendant’s phone. The
victim was able to show police prior video that had
been transmitted from the recording system to the
defendant's phone which the defendant then texted to
the victim. Here, the Virginia court addressed the
testimonial nature of both the disclosure of the
passcode and the underlying evidence the disclosure
would reveal. Citing Kirschner, the court concluded
that the passcode was a testimonial communication
that the defendant could not be compelled to produce.
As to the evidence that would be disclosed, both the
victim and the defendant acknowledged that the “cell
phone ‘could have possibly’ recorded the assault and
the recording ‘may exist’ on the phone.” Id. at 268. For
the Virginia court, this was not sufficient to show that
information received from the phone would be a
foregone conclusion. Id. at 271.
In 2015, the United States District Court for
the Eastern District of Pennsylvania found that an
106a

employee could not be compelled to disclose his
smartphone passcode even to his employer who owned
the phone. SEC Civil Action v. Huang, 2015 U.S. Dist.
LEXIS 127853, *1 (E.D. Pa. Sept. 23, 2015). In this
case, the defendant’s employer had issued the
defendant and other employees smartphones for
business use but allowed each employee to set their
own secret passcode. Upon termination for alleged
misconduct, the defendant relinquished his phone to
his employer, who demanded the passcode to access
its files. While the employer argued that the contents
of the phone were its own business records, the court
followed U.S. v. Doe and concluded that the passcode
to the phone was separate from the phone’s contents
and, as it was wholly a product of the defendant’s
mind that had been shared with no one else, it was
entitled to Fifth Amendment protection. Id. at *6.
In 2016, the Second District Florida Court of
Appeals addressed this issue in State v. Stahl, 206 So.
3d 124 (Fla. Dist. Ct. App. 2d Dist. 2016). Defendant
Stahl was caught in an act of voyeurism by the victim,
who noticed him crouching under her skirt with an
illuminated iPhone. Video surveillance from the store
where the incident took place captured Stahl's actions.
Law enforcement officers identified Stahl from the
video and arrested him at his home. The State
obtained a warrant to search the defendant's phone
after confirming with the victim that it was the device
used in the incident. However, the iPhone’s encryption
impeded access to its contents without the passcode.
The trial court denied the State’s motion to compel the
passcode on the basis that it was testimonial and no
foregone conclusion exception existed as “the State did
not know ‘for sure’ whether a photo or video was on
the phone.” Id. at 130.
107a

The Appellate Court disagreed and asserted
that providing a passcode was not a testimonial act.
Relying on Doe v. U.S., supra 487 U.S. 201 and U.S. v.
Hubbell, supra 530 U.S. 27, the court determined that,
while the disclosure of a passcode may be
communicative, it had no “testimonial significance.”
Id. at 134. Moreover, the court found that any
testimony contained in the act of providing the
passcode was a foregone conclusion if the State could
show “with reasonable particularity” that “it already
knew the evidence sought existed, the evidence was in
the possession of the accused, and the evidence was
authentic.” Id. at 135 (citing U.S. v. Doe, supra 670
F.3d at 1344). The “evidence,” the Florida court
maintained, referred to the passcode, not the evidence
to be found on the device. In so doing, the court agreed
with the State's argument that it was seeking only the
passcode and not any information it might find
because of having that passcode. Limiting itself to
certainty about the existence of the passcode itself, the
Florida court’s decision did not touch upon whether
the State could show with reasonable particularity
that the information sought from the encrypted
iPhone was, in fact, contained on that iPhone.
In reviewing other jurisdictions’ decisions on
the issue currently before this court and reconciling
them with New Jersey common law, statute, and our
rules of evidence, this court must decide the following:
(1) Whether the act of producing a cell phone PIN or
password is testimonial and, if so, (2) Whether the
“foregone conclusion” exception to the Fifth
Amendment applies.
Using this framework, we turn to the facts of
this case and the parties’ arguments.
108a

III.
At the time of the alleged offenses, Andrews
was an Essex County Sheriff’s Officer. The State
charges that beginning in May 2015, Andrews
exposed an undercover narcotics investigation to a
known drug dealer, Quincy Lowery (“Lowery”), who
was also the target of surveillance and a wiretap at
the time of the alleged disclosures. The State
specifically claims: (l) that Andrews told Lowery that
he and his co-conspirators should discard their cell
phones; (2) that Andrews told Lowery to examine his
car and remove GPS tracking hardware that had
been installed by the police; (3) that Andrews
disclosed the identity of an undercover officer to
Lowery; and (4) that Andrews identified an
undercover police vehicle monitoring Lowery. The
State contends that Andrews provided this
information to help Lowery avoid law enforcement
detection of his criminal activities and that these
disclosures obstructed their criminal investigation
and risked the lives of undercover officers.
On June 30, 2015, Lowery was arrested as
part of a larger narcotics investigation known as
“Operation TIDE.” Following his arrest, Lowery
gave two statements to detectives from the Essex
County Prosecutor’s Office, Professional Standards
Bureau, detailing his relationship with Andrews and
alleging that the officer assisted him in his drug
dealing enterprise. This assistance came in the form
of Andrews’s purported willingness to share
sensitive police information as opposed to selling
drugs himself. Lowery testified before the Grand
Jury consistent with his statements.
In addition, Lowery consented to data
109a

extractions from his cell phone. Andrews’s two cell
phones with numbers (732) 318-7367 and (973) 3429755 were also seized pursuant to a valid search
warrant. Andrews did not consent to a search of his
phones. Data extractions were unsuccessfully
attempted by the State on Andrews’s phones.
However, Lowery’s phones provided the State with
physical evidence they allege is corroborative of his
sworn statements to the police and the Grand Jury.
Specifically, Lowery’s cell phone and phone records
contained 187 phone calls and numerous texts
between Lowery and Andrews from May 18 through
June 30, 2015 at all hours of the day and night.
Lowery texted the license plate number H25-EKK to
Andrews on June 20, 2015. This license plate was
associated with a vehicle being used to surveil
Lowery by the Essex County Prosecutor's Office as
part of Operation TIDE. On June 22nd, a text from
one of Andrews’ phones to Lowery responded that
they needed to meet and talk in person. Lowery’s
phone also contained the photo that Andrews
purportedly used to identify the undercover police
officer, text messages to and from Andrews about
setting up in-person meetings and getting rid of cell
phones, and the call history between them.
On June 2, 2016, Robert Andrews was
indicted on six counts of criminal activity as follows:
Two second-degree counts of Official Misconduct
pursuant to N.J.S.A. 2C:30-2, by violating the laws
of the State of New Jersey and multiple policies,
procedures, rules and regulations of the Essex
County Sheriff’s Office (“ECSO”); Two third-degree
counts of Hindering Apprehension or Prosecution
pursuant to N.J.S.A. 2C:29-(3) (a) (2), by disclosing
the identity of an undercover law enforcement officer
110a

to a target of an active investigation; and Two
fourth-degree
counts
of
Obstructing
the
Administration of Law pursuant to N.J.S.A. 2C:291, by allegedly warning a target of a narcotics
investigation of a wiretap and a GPS tracker on his
vehicle and advising the target to dispose of his
phones and how to remove the tracking device.
IV.
In this case, the court finds that the act of
providing Defendant’s PIN or passcode is not a
testimonial act where the Fifth Amendment or New
Jersey common and statutory law affords protection.
As noted in Doe v. U.S., supra 487 U.S. 201 and U.S.
v. Hubbell, supra 530 U.S. 27, the disclosure of
Defendant’s PIN or passcode herein may be
communicative, but it has no testimonial
significance.1 Allowing the State to access the call
logs and text messages on Andrews's iPhones will
add little to nothing to the aggregate of the
Government’s information. Moreover, the State of
New Jersey has sufficiently demonstrated that any
testimonial act contained in the act of providing the
PIN or passcode is a foregone conclusion because the
State has established with reasonable particularity
that it already knows that (1) the evidence sought
exists, (2) the evidence was in the possession of the
accused, and (3) the evidence is authentic. In
reconciling our New Jersey Supreme Court’s
direction in In re Grand Jury Proceedings (Guarino),
supra 104 N.J. 218, to focus on the contents of the
cell phones, specifically the call logs and text
messages, this court finds that the “foregone
To ensure this, the court will review in camera the PIN or
passcode prior to its disclosure to the state.
1

111a

conclusion” exception and analysis provides
Andrews with sufficient and adequate protections to
ensure that his privilege against self-incrimination
is not being violated herein.
First, the State provided evidence that there
were 187 phone calls between Lowery and Andrews
from May 18 through June 30, 2015 at all hours of
the day and night. The State also established proof
of text messages between the two including one from
Lowery to Andrews with the license plate of the
undercover vehicle purportedly exposed by Andrews.
The text messages detail conversations setting up
meetings between the two as well as statements
regarding discarding cell phones. This is known from
Lowery's sworn statements, his testimony at Grand
Jury, the data extractions from Lowery's phone and
phone records. The State knows what exists in
Andrews's phone log and his texting application.
This case is similar to State v. Stahl, supra
206 So. 3d 124, where law enforcement knew exactly
what it was looking for on the defendant’s phone. In
fact, the State in this case presented significantly
more particularity than was offered in Com. v.
Gelfgatt, supra 11 N.E.3d 512, In re Boucher, supra
2009 U.S. Dist. LEXIS 13006, U.S. v. Doe, supra 670
F.3d 1335, U.S. v. Kirschner, supra 823 F. Supp. 2d
665, Com. v. Baust, supra 89 Va. Cir. 267, or SEC
Civil Action v. Huang, supra 2015 U.S. Dist. LEXIS
127853. There is an abundance of independent
evidence showing that Andrews's phones contain the
evidence sought. This is not merely a “fishing
expedition” where the State does not know what it is
looking for.
Next, Andrews’s possession and ownership of
112a

the phones has been definitively established.
Andrews was in possession of the two iPhones when
they were seized from him during the execution of a
lawfully obtained warrant. As noted by the State in
its moving papers and supporting documentation,
Andrews specifically requested that the phones be
returned to him. Lowery confirmed that Andrews
was the person communicating with him via these
cell phones.
Third, for the same reasons noted above, the
proofs provided by the State in this case remove any
doubt about the authenticity of Andrews’s iPhones
and their contents.
In this case, the State has established that the
“foregone conclusion” exception to the Fifth
Amendment privilege applies. The act of producing
the PINs or passwords to his phones will not force
Defendant to be a witness against himself. The
declarations conveyed by the act of entering the
PINs or passwords, including ownership and control
of the iPhone, the content of the call logs, and the
text messages sought are all “foregone conclusions”
and not testimonial. The information contained in
them is already known.
However, this decision does not give the State
complete and unfettered access to Andrews’s
iPhones. The access allowed is specifically limited in
scope to that which is contained within (1) the
“Phone” icon and application on Andrews's two
iPhones, and (2) the “Messages” icon and/or text
messaging applications used by Andrews during his
communications with Lowery as noted in the
evidence attached to the State's moving papers. In
no way shall the State be allowed to search through
113a

any other icons, data, or applications for any
additional evidence because the State has not
produced any proofs that such other evidence
already exists. Given the possibility that unfettered
access to Andrews’s iPhones could lead to the
discovery of additional, now unknown evidence to be
used against this Defendant, the review of the
iPhones shall be performed by the State, in camera,
in the presence of Andrews’s defense counsel and the
Court.
CONCLUSION
Therefore, the State’s Motion compel Andrews
to disclose his PINs or passwords to his two lawfullyseized iPhones is GRANTED subject to the
limitations noted herein. An Order consistent with
this decision is attached.

114a

APPENDIX F
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION - CRIMINAL PART
COUNTY OF ESSEX
Indictment No. 16-06-0178 1-1
____
STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
ROBERT ANDREWS,
Defendant-Appellant.
_____
[FILED: May 22, 2017]
ORDER
THIS MATTER having been brought before
the Court on motion of Alexander Albu, Assistant
Prosecutor for Essex County appearing for the State,
to compel discovery of iPhone PINs and passcodes,
with notice to Charles J. Sciarra, Esq., attorney for the
defendant ROBERT ANDREWS, and the Court
having considered the moving papers and the oral
arguments of counsel, and for good cause;
IT IS on this 22nd day of May, 2017;
ORDERED that the Plaintiffs Motion to
Compel Discovery is hereby GRANTED for the
reasons set out in the decision attached hereto. The
access allowed is specifically limited in scope to that
which is contained within (1) the "Phone" icon and
application on Andrews's two iPhones, and (2) the
"Messages" icon and/or text messaging applications
used by Andrews during his communications with
115a

Lowery as noted in the evidence attached to the
State's moving papers. The search of the iPhones shall
be performed by the State, in camera, in the presence
of Andrews's defense counsel and the Court. The court
will review in camera the PIN or passcode prior to its
disclosure to the State.
__________________________________
HON. ARTHUR J. BATISTA, J.S.C.

116a

